<html>
<title> - AFGHANISTAN: ASSESSING THE ROAD AHEAD</title>
<body><pre>[Senate Hearing 111-479]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-479
 
                 AFGHANISTAN: ASSESSING THE ROAD AHEAD

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-845                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4">[email&#160;protected]</a>com.  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State, Department of 
  State, Washington, DC..........................................     6
    Prepared statement...........................................    10
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    60
        Barbara Boxer............................................    69
        Robert P. Casey, Jr......................................    71
        Bob Corker...............................................    73
Gates, Hon. Robert, Secretary of Defense, Department of Defense, 
  Washington, DC.................................................    12
    Prepared statement...........................................    15
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    65
        Barbara Boxer............................................    69
        Robert P. Casey, Jr......................................    72
        Bob Corker...............................................    74
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Mullen, ADM Michael, Chairman, Joint Chiefs of Staff, Washington, 
  DC.............................................................    17
    Prepared statement...........................................    20
    Responses to questions submitted for the record by Senators:
        Barbara Boxer............................................    70
        Bob Corker...............................................    74

              Additional Material Submitted for the Record

Dodd, Christopher J., U.S. Senator from Connecticut, prepared 
  statement......................................................    59

                                 (iii)

  


                 AFGHANISTAN: ASSESSING THE ROAD AHEAD

                              ----------                              


                       THURSDAY, DECEMBER 3, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:05 a.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Menendez, 
Cardin, Casey, Webb, Shaheen, Kaufman, Gillibrand, Lugar, 
Corker, Isakson, Risch, and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Secretary Clinton, Secretary Gates, and Admiral Mullen, we 
welcome you here today. Thank you very much for joining us. And 
we appreciate your coming to share more details about the 
President's plan, and for consulting and partnering with 
Congress on the decision, obviously, of enormous consequences 
for our soldiers, our security, and our country.
    This is a decision that the President of the United States 
has made, but ultimately all of us share responsibility for its 
consequences. Given the complexities of our challenge and the 
seriousness of the sacrifices ahead and the absence of strategy 
over much of the last 8 years, I believe the President 
exercised important leadership by taking the time he needed to 
make the right decision, even as political pressure mounted in 
different directions. His words and your testimony show that 
the administration has confronted tough realities, carefully 
weighed all of the options, and arrived at a comprehensive, 
considered path forward.
    I believe that the President appropriately narrowed the 
mission in Afghanistan. What he presented to the American 
people is not an open-ended, nation-building exercise or a 
nationwide counterinsurgency campaign, and nor should it be. 
The President was right to frame our commitment to Afghanistan 
in the context of all of our national priorities, from the 
drawdown in Iraq to our urgent challenges at home. And he was 
correct to consider our mission there, in terms of our enduring 
interests in Pakistan.
    Over the last days, I've heard a number of people saying 
that we are in Afghanistan today because that is the place from 
which we were attacked. Frankly, 8 years later, that's simply 
not good enough. We have largely expelled al-Qaeda from 
Afghanistan. Today, it is the presence of al-Qaeda in Pakistan, 
it's direct ties to, and support from, the Taliban in 
Afghanistan, and the perils of an unstable nuclear-armed 
Pakistan that drive our mission.
    What happens in Pakistan, particularly near the Afghan 
border, will, in my judgment, do more to determine the outcome 
in Afghanistan than any increase in troops or shift in 
strategy. Congress has provided 7.5 billion in nonmilitary aid 
over the next 5 years to help address the crucial Pakistani 
dimension of the President's plan. That is a beginning. But, I 
believe, and I think other members of the committee share the 
belief, that there is more that we can and must do with the 
Pakistanis, all of which can alleviate the pressure in 
Afghanistan; indeed, even determine the outcome in Afghanistan.
    And I believe it is important for the Pakistanis to 
understand that our commitment to them and to the region is 
long term even as troops are reduced in Afghanistan. In fact, 
the conditions that permit a reduction in American troops in 
Afghanistan are a benefit to Pakistan.
    The President was correct to define success in terms of our 
ability to empower and transfer responsibility to Afghans as 
rapidly as possible while simultaneously achieving a sufficient 
level of stability to ensure that we leave behind an 
Afghanistan that is not controlled by al-Qaeda or the Taliban.
    As I've said before to each extra family that is asked to 
send a husband, wife, son, or daughter into harm's way, the 
deployment of a single additional soldier makes all the 
difference, but a public debate that reduces a difficult 
mission in a complex region to a simple headline-ready number 
of troops does us all a disservice. What will matter most on 
the ground in Afghanistan is not the number of troops, but what 
they will do and how they are integrated into a broader 
civilian and military strategy.
    I returned from Afghanistan and Pakistan in October with 
serious concerns that even if additional troops are able to 
clear the enemy and hold an area, even in the limited areas 
where we will operate, unless we are able to build and transfer 
leadership to local Afghans, unless the governance and 
development pieces are in place, we risk squandering the gains, 
time and time again. And right now, our military will tell us 
that, in many places, that tripartite capacity is not there.
    There are three principal conditions that I still believe 
must guide the tasking of additional troops.
    First, are there enough reliable Afghan National Army and 
Police forces to partner with American troops and eventually 
take over responsibility for security? The President has 
recognized the critical importance of speeding up training and 
mentoring. And to date, we've struggled to do so on the scale 
required, and I look forward to hearing your plans today to 
increase that training capacity and to quickly move Afghan 
security forces into the center of the fight.
    Second, are there local Afghan leaders with whom we can 
partner? We have to be able to identify and cooperate with 
tribal, district, and provincial leaders who command the 
authority to help deliver services and restore Afghans' faith 
in their own government.
    Third, is the civilian side ready to follow swiftly with 
development aid that brings tangible benefits to the local 
population? The President has outlined a surge in civilian 
personnel which will be crucial to locking in any of our 
military gains and bringing stability to Afghanistan. And I 
know, Secretary Clinton, that you've been working on that task, 
and we look forward to exploring it with you today.
    I would hope that, just as the exit strategy is based on 
the conditions on the ground, so too should our strategy for 
any escalation be based on conditions on the ground. I continue 
to believe that, absent an urgent security need, we should not 
send American troops in to clear places unless we are confident 
that we have the Afghan partners and resources in place to 
build on those victories and transfer both security and 
government function to legitimate Afghan leaders.
    I still remain concerned that additional troops will tempt 
us beyond a narrow and focused mission. And with 30,000 troops 
rushing into Afghanistan, I believe we'll be challenged to have 
the civilian and governance capacity in place quickly enough to 
translate their sacrifice into lasting gains.
    Through conversations with the President and Vice President 
in recent days, and the President's speech, I've been assured 
that the administration recognizes the need to meet these 
conditions. How we answer these challenges will go a long way 
toward determining our overall prospects for success, and we're 
all eager to hear in detail how we better--how we can do better 
than we've done on each of these components.
    Everyone understands that President Karzai's efforts and 
followthrough will be critical to the outcome, and we all 
understand that our ultimate goal, the cornerstone of our 
strategy, is to empower and transfer responsibility to the 
Afghans.
    Some are trying to make much of the President's target 
deadline. I think we learned in Iraq that, when our policy is 
to be in another country, with troops, for ``as long as it 
takes,'' our hosts are very good at taking as long as they 
want. The President is correct to set a target. It will help 
create a sense of urgency and for the Afghans who chafe at 
foreign boots on their soil, it sends a message that, while 
America will remain committed to the Afghan people, we aren't 
interested in a permanent occupation.
    We can all agree that the next 18 months are crucial to 
reversing the momentum and laying the groundwork for a stable 
Afghanistan, one where the police and army can play a greater 
role in serving their citizens, and whose government focuses 
squarely on reclaiming legitimacy with the Afghan people, and 
where we have intelligence in place to engage in the 
counterterrorism missions that, for years ahead, we will need 
to be able to engage in.
    We should all recognize that Americans, all of us, 
fundamentally share this challenge. The Senate voted 
unanimously to go to war in Afghanistan. It should humble all 
of us that today there are simply no easy options. We have no 
choice but to grapple with the complexities, reach the 
conclusion that best serves the American people, and work in 
partnership with other branches of government. And that is how 
a democracy fights a war.
    The President's speech offered a vision of the path 
forward, but a great many questions remain, including how, 
simply, beyond adding more resources, the United States and 
Afghan civilian strategy will improve, what balance we will 
strike between securing population centers and venturing into 
the Afghan countryside, how we intend to finance this increased 
commitment, and, crucially, how we intend to improve our 
partnership with Pakistan.
    We look forward to the conversation this morning.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Secretary Clinton, Secretary Gates, and Admiral Mullen.
    We appreciate very much that you have come to the Foreign 
Relations Committee today. The presence of all three of you 
underscores that success in Afghanistan depends on both 
military and civilian programs. We must sustain this civil-
military approach, given the interlocking elements of the newly 
announced strategy.
    As we consider our course in Afghanistan, we should 
evaluate options according to how well they contribute to 
United States national security. The ultimate purpose of 
committing tens of thousands of new troops and tens of billions 
of additional dollars to the war effort in Afghanistan must be 
to enhance United States security and our vital national 
interests in the region.
    This may seem to be an obvious point. But during long wars, 
specific tactical objectives can become ends, in themselves, 
disconnected from the broader strategic context or an 
accounting of finite resources. Pursuing al-Qaeda or the 
Taliban and improving governance and economic opportunity in 
Afghanistan are important. But when our country commits the 
level of forces contemplated by the President to a sustained 
war, the objective must be absolutely fundamental to United 
States security.
    This is especially true at a time when our Armed Forces 
have been strained by many years of high deployment rates, our 
capacity for new government debt is limited, and our Nation has 
not fully emerged from a severe recession.
    The President made the case on Tuesday that what happens in 
Afghanistan can directly impact the safety of Americans. I 
believe that most Americans accept this point based on the 
reality that the 9/11 attacks were conceived in Afghanistan and 
that the Taliban forces who protected al-Qaeda are likely to 
become more resurgent if we leave.
    But much more discussion is warranted on whether the 
Afghanistan mission is so central to our core national security 
that it necessitates huge spending increases and the deployment 
of a large portion of our finite combat capability.
    In essence, we have to ask whether the costs of this 
deployment are justified in our overall national security 
context and whether we are mistakenly concentrating our forces 
to fight a terrorist enemy in a specific location, even as the 
global terrorist threat is becoming increasingly diffuse.
    Terrorist cells that are associated with or sympathetic to
al-Qaeda exist in numerous countries in Africa and the Middle 
East. Terrorist attacks were perpetrated in Europe by homegrown 
cells. Killing Taliban fighters and training Afghan soldiers 
and policemen are unlikely to substantially diminish these 
broader terrorist threats.
    Moreover, the results of even the most skillful civil-
military campaign in Afghanistan are likely to be imperfect in 
the long run. I do not doubt that the application of additional 
United States and allied forces will result in a military 
setback for the Taliban. During this time, it is hoped that 
progress can be made in building Afghan security forces. But 
over the long run, we should recognize that problems stemming 
from tribalism, corrupt governance, and lack of economic 
opportunity in the country are almost certain to persist, 
complicating efforts to ensure that the central government can 
effectively govern the country and resist the Taliban when 
allied troops are withdrawn.
    Even if the President's plan achieves the very best 
stabilization scenario, allowing for United States withdrawals 
on the schedule he contemplates, we may be responsible for most 
of the Afghanistan defense and police budgets indefinitely.
    Perhaps most importantly, it is not clear how an expanded 
military effort in Afghanistan addresses the problem of Taliban 
and
al-Qaeda safe havens across the border in Pakistan. If these 
safe havens persist, any strategy in Afghanistan will be 
substantially incomplete.
    Specifically, will Pakistan work with us to eliminate the 
leadership of Osama bin Laden and other major al-Qaeda 
officials?
    As hearings in our committee have underscored, the 
potential global impact of instability in a nuclear-armed 
Pakistan dwarfs anything that is likely to happen in 
Afghanistan.
    The future direction of governance in Pakistan will have 
consequences for nonproliferation efforts, global economic 
stability, our relationships with India and China, and security 
in both the Middle East and South Asia regions, among other 
major issues.
    The President did not dwell on Pakistan in his speech on 
Tuesday evening, perhaps because sensitivities in that country 
to American influences and intentions are extremely delicate. 
But, the President and his team must justify their plan not 
only on the basis of how it will affect Afghanistan, but also 
on how it will impact our efforts to promote a much stronger 
alliance with Pakistan that embraces vital common objectives.
    Having made these observations, I want to recognize that 
the President has been confronted with extremely difficult 
choices in Afghanistan and Pakistan. He and his team have 
worked through the problem carefully and deliberately to reach 
their conclusions. There are no options available that are 
guaranteed to succeed. Every conceivable course from complete 
withdrawal, to maintaining the status quo, to the plan outlined 
by the President, to an unrestrained and unlimited 
counterinsurgency campaign, has its own set of risks and costs 
for the United States. The President deserves credit for 
accepting ownership of this difficult problem as we go forward 
and for his clear advocacy expressed in the speech on Tuesday 
night.
    Congress and the American people now must evaluate whether 
this course has a reasonable chance to succeed, if ``success'' 
can be defined, and whether the objectives outlined are worth 
the expenditure of American and Afghan lives and treasure.
    In this situation, the advocacy of the President and his 
national security team must be as broadminded and thorough as 
his policy review appeared to be. Within months, the President 
is likely to ask Congress for additional funds related to 
Afghanistan. In the meantime, the administration must be 
prepared to answer many difficult questions about its strategy 
as the American people study the potential consequences of the 
President's decision.
    I thank our distinguished witnesses for their very 
substantial leadership. I look forward to hearing their 
testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Let me just say that Senator Dodd may have to leave at some 
point during your testimony, because he has to chair the 
Bernanke hearings--confirmation hearing today, so we respect 
the fact that that will be the reason he might have to go.
    Senator Dodd. I could have brought him here, Mr. Chairman, 
and have a joint hearing between the Federal Reserve Chairman 
and the----
    [Laughter.]
    The Chairman. And maybe he could have told us how we pay 
for this. [Laughter.]
    Madam Secretary, thank you for being here. Mr. Secretary, 
if you would follow the Secretary of State, and then Admiral 
Mullen, we look forward to your testimonies. If you want to 
summarize, we can put your full testimonies in the record.
    Thank you.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much, Chairman Kerry and 
Ranking Member Lugar, and to all the members of this committee.
    It is an honor for me to be here to testify before you, and 
also to continue the dialogue. Both the chairman and the 
ranking member's statements, as would be expected, were 
extraordinarily thoughtful, raised a lot of the hard questions 
that we're grappling with, and posed the challenges that we 
have to meet, both the administration and the Congress 
together. And I want to thank the committee for the 
constructive role that it has played in helping us to address 
the difficult issues raised in the region of the world that we 
are focused on today.
    When President Obama addressed the cadets at West Point, he 
set forth both the rationale and the difficult choices that his 
policy represents. At the end of a very long and thoughtful 
process that consisted of 10 meetings with the President and 
his national security team, and probably three times that many 
among the rest of us, without the President, the President 
concluded that, among a range of very difficult decisions, this 
is the best way to protect our Nation now and in the future.
    Extremists who have taken root in the border area of 
Pakistan and Afghanistan have attacked us before. They've 
attacked our allies. They are now attempting to destabilize, if 
not overthrow, the Pakistani Government and take back enough 
control, if not the entire country, of Afghanistan.
    We believe that if we allow Afghanistan to become a failed 
state, if we allow the extremists to have the same safe havens 
that they used before 2001, they will have a greater capacity 
to regroup and attack again, and also to continue to provide 
the leadership the operational and logistical support that they 
currently provide to global extremism.
    We believe they could drag an entire region into chaos. And 
we know that, based on the reports from our military and 
civilian leadership, the situation in Afghanistan is serious, 
and worsening.
    Now, I know we don't want to go back in history and anchor 
our decision totally on what happened on September 11, 2001, 
but I think it does have to be part of the national debate.
    The damage done with those attacks against our economic and 
military power centers was also an attack on my constituents, 
because, at that time, I had the honor of serving as Senator 
from New York. I witnessed the tragic consequences to the lives 
of thousands of innocent families, the damage done to the 
economy, and the damage to our sense of security, so I feel a 
personal responsibility to help protect our Nation from such 
violence, and I entered into the very intense consultations 
we've been engaged in with that as my overriding goal, but 
without any preconceived notion of exactly the best way to meet 
that goal.
    The case for action against al-Qaeda and its allies has 
always been clear, but the United States course of action over 
the last 8 years has not. The fog of another war obscured our 
focus. And while our attention was focused elsewhere, the 
Taliban regained momentum in Afghanistan, and the extremist 
threat grew in Pakistan, a country, as you know well, with 175 
million people, a nuclear arsenal, and more than its share of 
challenges. So, it was against this backdrop that the President 
called for this careful, thorough review of our strategy.
    Our objectives are clear. We will work with the Afghan and 
Pakistani Governments to eliminate safe havens for those 
plotting against us, our allies, and our interests. We will 
work to find reliable partners in the region to help us 
stabilize it, which we think is fundamental to our national 
security. We will develop a long-term sustainable relationship 
with Afghanistan and Pakistan so that we do not repeat the 
mistakes of the past--primarily, our abandonment of that 
region. The duration of our military presence will be limited, 
but our civilian commitment must continue even as our troops 
begin coming home.
    Now, accomplishing this mission and ensuring the safety of 
the American people is not easy. It does mean sending more 
civilians, troops, and assistance to Afghanistan, and 
significantly expanding our civilian efforts in Pakistan, which 
we have begun to do, under the leadership of the chairman, the 
ranking member, and this committee. We will be asking the young 
men and women, who not only serve in the military, but are part 
of our civilian service team, to be taking great risks and 
facing extraordinary sacrifices. I want to assure the committee 
that we will do everything we can to ensure that their 
sacrifices make our Nation safer.
    Now, the situation in Afghanistan and Pakistan is serious, 
but it is not, in my view, as negative as frequently portrayed 
in public. The beginning of President Karzai's second term has 
opened a new window of opportunity. We obviously have real 
concerns about the influence of corrupt officials in the Afghan 
Government, and we will redouble our efforts to pursue them. 
But, in his inauguration speech last month, I witnessed 
President Karzai call for a new compact with the Afghan people 
and the international community. He pledged to combat 
corruption, improve governance, and deliver. His words were 
long in coming, but they were certainly welcome. They now must 
be matched with action. The Afghan people, the United States, 
and the international community must hold the Afghan Government 
accountable.
    We will help by working with our Afghan partners to 
strengthen institutions at every level. The President has 
outlined a timeframe for transition to Afghan responsibility. 
As he said in his speech, ``The additional American and 
international troops will allow us to accelerate our handing 
over of responsibility to Afghan forces as we begin to transfer 
our forces out of Afghanistan in July of 2011.'' Just as we 
have done in Iraq, we will execute this transition responsibly, 
taking into account conditions on the ground. This is not a 
cliff, this is a transition.
    The timeframe for the transition provides a sense of 
urgency in working with the Afghan Government, but it should be 
clear to everyone that, unlike the past, the United States and 
our allies will have an enduring commitment to Afghanistan. Our 
resolve in this fight is reflected in the commitment of troops 
since the President took office, and in the significant 
civilian commitment that will continue long after our combat 
forces begin to leave.
    Our civilian effort is already bearing fruit. Civilian 
experts and advisers are helping to craft policy inside 
government ministries. We are engaged in a process of 
certifying those ministries that we feel confident in providing 
funding for, and we will not provide it if we cannot certify 
them.
    When our Marines went into Nawa this July, we had civilians
on the ground with them to coordinate assistance the very next
day. As our operations progress, our civ-mil coordination is 
growing even stronger. We are on the track to triple the number 
of civilian positions in Afghanistan, to 974 by early next 
year. When we started, there were about 320; they had 6-month 
rotations. Our checking of their duty rosters showed that a lot 
of them didn't spend more than 30 to 60 days inside of 
Afghanistan, even though they'd been assigned there. We have 
totally revamped how we are providing civilian assistance, and 
we believe that we are beginning to make a difference.
    Each of these civilians leverage not only, on average, 10 
partners from locally employed staff to experts with U.S.-
funded NGOs, but what we're finding, most interestingly, is, 
they leverage expertise within the United States military. When 
you put an agricultural expert embedded in a battalion, and, 
along with the commanding officer of that battalion, they go 
looking for soldiers with ranching and farming experience, we 
have a real force multiplier. And when I was in Kabul, 2 weeks 
ago, meeting with our civ-mil teams, that's--those are exactly 
the kind of stories that I was told. And the military, who are 
responsible for the clearing and a phase of our military 
operations, told me repeatedly how important the civilian 
presence was. As one said to me, ``I'm happy to supply whatever 
support these valuable civilians need, and we need more of 
them.'' This strategy will make that possible.
    Not only do we believe we have the right people to achieve 
our objectives, we believe we have a sound strategy. We'll be 
delivering high-impact economic assistance and bolstering 
Afghanistan's agricultural sector, the traditional core of the 
Afghan economy.
    A number of my former colleagues have talked with me, in 
the last months, about the importance of agriculture and how 
they tried for 8 years to help create jobs, reduce the funding 
that the Taliban receives from poppy cultivation--in effect, 
draw insurgents off the battlefield by moving them from poppies 
to pomegranates. Well, we have taken that advice seriously.
    We also will support an Afghan-led effort to open the door 
to those Taliban who are willing to renounce al-Qaeda, abandon 
violence, and wish to reintegrate into Afghan society. We 
understand that some of those who fight with the insurgency do 
not do so out of ideology, theology, or conviction, but, 
frankly, due to coercion and money. The average Taliban fighter 
is--our information--receives two to three times the monthly 
salary than the average Afghan soldier or police officer.
    Our regional diplomacy complements this political approach 
by seeking to mitigate external interference in Afghanistan and 
working to shift the calculus of neighboring countries.
    And that, of course, leads me to Pakistan. A strong, 
stable, democratic Pakistan must be a key partner for the 
United States and an ally in the fight against violent 
extremism. We've seen progress over this past year, as people 
in Pakistan increasingly come to the view that we do share a 
common enemy. I heard that repeatedly during my recent visit. 
But, we have a long way to go.
    We will significantly expand support intended to help 
develop the potential of Pakistan and its people, demonstrating 
a long-term commitment. I spent 3 days in Pakistan last month, 
and most commonly I heard, over and over again, ``You left us 
before. Will you do it again? You walked away, you left us 
holding the problem that you helped to create.'' We want to 
send a clear message, as the Kerry-Lugar-Berman legislation 
does, that we intend to be committed over the long term.
    We will not be facing these challenges alone. We have 42 
other troop-contributing countries. Our NATO ISAF allies have 
already made significant contributions. After this hearing, I 
will leave for Brussels to begin the process of securing 
additional Afghan commitments. Ambassador Holbrooke is already 
there consulting with our allies. We've had a very encouraging 
response in the conversations we've had thus far. And we're 
looking beyond NATO to build the strongest, broadest possible 
global coalition. Japan just announced a $5 billion commitment 
to Afghanistan. We think other governments are beginning to 
recognize that this is a common fight against a common enemy.
    So, let me conclude where I began. We face a range of 
difficult choices, but the President's plan represents the best 
way we know to protect our Nation today and in the future. The 
task we face is as complex as any national security challenge 
in our lifetimes. We will not succeed if people view this 
effort as the responsibility of a single party, a single agency 
within our government, or a single country. We owe it to our 
troops and our civilians, who will face these dangers, to come 
together as Americans, and come together with our allies and 
the international partners, to help accomplish this mission.
    I look forward, as always, to continuing to work with you 
to achieve that goal.
    Thank you.
    [The prepared statement of Secretary Clinton follows:]

Prepared Statement of Hon. Hillary Rodham Clinton, Secretary of State, 
                  Department of State, Washington, DC

    Chairman Kerry, Senator Lugar, and members of the committee, I'm 
grateful for this opportunity to testify before so many good friends. 
Many of you have been personally involved in our efforts in Afghanistan 
and Pakistan. And I want to thank the committee for the constructive 
role it has played in addressing the challenges we face in this region 
of the world.
    On Tuesday, President Obama presented the administration's strategy 
for Afghanistan and Pakistan. Today, Secretary Gates, Admiral Mullen, 
and I will all be providing you with additional details. But let me 
speak briefly at a more personal level about why we are making this 
commitment.
    Simply put, among a range of difficult choices, this is the best 
way to protect our Nation now and in the future.
    The extremists we are fighting in Afghanistan and Pakistan have 
attacked us and our allies before. If we allow them access to the very 
same safe havens they used before 2001, they will have a greater 
capacity to regroup and attack again. They could drag an entire region 
into chaos. Our civilian and military leaders in Afghanistan have 
reported that the situation is serious and worsening. We agree.
    In the aftermath of September 11, I grieved with sons, daughters, 
husbands, and wives whose loved ones were murdered. It was an attack on 
our country, but it was also an attack on my constituents. I witnessed 
the tragic consequences in the lives of thousands of innocent families, 
and the damage done to our economy and our sense of security. So I feel 
a personal responsibility to help protect our Nation from such 
violence.

                              THE MISSION

    The case for action against al-Qaeda and its allies has always been 
clear, but the United States course of action over the last 8 years has 
not. The fog of another war obscured our focus. And while our attention 
was focused elsewhere, the Taliban gained momentum in Afghanistan. And 
the extremist threat grew in Pakistan--
a country with 175 million people, a nuclear arsenal, and more than its 
share of challenges.
    It was against this backdrop that the President called for a 
careful, thorough review of our strategy. I was proud to be a part of 
that process. And our objectives are clear:

  <bullet> We will work with the Afghan and Pakistani Governments to 
        eliminate safe havens for those plotting attacks against us, 
        our allies, and our interests;
  <bullet> We will help to stabilize a region that is fundamental to 
        our national security; and
  <bullet> We will develop a long-term, sustainable relationship with 
        Afghanistan and Pakistan so that we do not repeat the mistakes 
        of the past. The duration of our military presence will be 
        limited, but our civilian commitment must continue even as our 
        troops begin to come home.

    Accomplishing this mission and ensuring the safety of the American 
people will not be easy. It will mean sending more civilians, troops, 
and assistance to Afghanistan, and significantly expanding our civilian 
efforts in Pakistan.
    The men and women carrying out this mission are not statistics on a 
PowerPoint slide. They are our friends and neighbors, our sons and 
daughters, our brothers and sisters. We will be asking them--and the 
American people who support them--to make extraordinary sacrifices on 
behalf of our security. I want to assure the committee that we will do 
everything we can to ensure their sacrifices make our Nation safer.

                              THE METHODS

    The situation in Afghanistan and Pakistan is serious, but it is 
not, in my view, as negative as frequently portrayed in public. And the 
beginning of President Karzai's second term has opened a new window of 
opportunity. We have real concerns about the influence of corrupt 
officials in the Afghan Government, and we will continue to pursue 
them. But in his inauguration speech last month, I witnessed President 
Karzai call for a new compact with the Afghan people and the 
international community. He pledged to combat corruption, improve 
governance, and deliver for the people of his country. His words were 
long in coming, but welcome. They must now be matched with action. The 
Afghan people, the United States, and the international community will 
hold the Afghan Government accountable for making good on these 
commitments.
    We will help by working with our Afghan partners to strengthen 
institutions at every level of Afghan society so that we don't leave 
chaos behind when our combat troops begin to depart.
    The President has outlined a timeframe for transition to Afghan 
responsibility. As he said in his speech Tuesday, the additional 
American and international troops will allow us to accelerate handing 
over responsibility to Afghan forces and allow us to begin the transfer 
of our forces out of Afghanistan in July 2011. Just as we have done in 
Iraq, we will execute this transition responsibly, taking into account 
conditions on the ground.
    A timeframe for transition will provide a sense of urgency in 
working with the Afghan Government. But it should be clear to everyone 
that--unlike the past--the United States and our allies and partners 
will have an enduring commitment to Afghanistan, Pakistan, and the 
region. Our resolve in this fight is reflected in the substantial 
commitment of troops since the President took office and in the 
significant civilian commitment that will continue long after our 
combat forces begin to leave.
    That civilian effort is already bearing fruit. Civilian experts and 
advisors are helping to craft policy inside government ministries, 
providing development assistance in the field, and working in scores of 
other roles. When our Marines went into Nawa this July, we had 
civilians on the ground with them to coordinate assistance the next 
day. And as operations progress, our civ-mil coordination is growing 
even stronger.
    We are on track to triple the number of civilian positions in 
Afghanistan to 974 by early next year. On average, each of these 
civilians leverages 10 partners, ranging from locally employed staff to 
experts with U.S.-funded NGOs. It's cliche to say that we have our best 
people in these jobs, but it also happens to be true. When I was in 
Kabul a few weeks ago, I met with an American colonel who told me that 
while he had thousands of outstanding soldiers under his command, none 
of them had the 40 years of agricultural experience of the USDA 
civilian serving alongside his battalion, or the rule of law and 
governance expertise of their civilian specialists from the State 
Department. He told me: ``I am happy to supply whatever support these 
valuable civilians need. And we need more of them.'' The President's 
strategy will make that possible.
    Not only do we have the right people to achieve our objectives, we 
also have a sound strategy. We will be delivering high-impact economic 
assistance and bolstering Afghanistan's agricultural sector--the 
traditional core of the Afghan economy. This will create jobs, reduce 
the funding that the Taliban receives from poppy cultivation, and draw 
insurgents off of the battlefield.
    We will also support an Afghan-led effort to open the door to those 
Taliban who abandon violence and want to reintegrate into Afghan 
society. We understand that some of those who fight with the insurgency 
do so not out of conviction, but due to coercion or money. All Afghans 
should have the choice to pursue a better future if they do so 
peacefully, respect the basic human rights of their fellow citizens, 
and renounce al-Qaeda.
    Our regional diplomacy complements this political approach, by 
seeking to mitigate external interference in Afghanistan and working to 
shift the calculus of neighboring countries from competition for 
influence to cooperation and economic integration.
    We also believe that a strong, stable, democratic Pakistan must be 
a key partner for the United States, and an ally in the fight against 
violent extremism. People in Pakistan are increasingly coming to the 
view that we share a common enemy. I heard this repeatedly during my 
recent visit. Our relationship is anchored in our common goals of 
civilian rule; robust economic development; and the defeat of those who 
threaten Pakistan, Afghanistan, and the peace of the world.
    We will significantly expand support intended to help develop the 
potential of Pakistan and its people. Our assistance will demonstrate 
the United States commitment to addressing problems that affect the 
everyday lives of Pakistanis and bring our people closer together. But 
it will also bolster Pakistan against the threat of extremism. A 
village where girls have had the opportunity to get an education will 
be more resistant to al-Qaeda and the Taliban. And a young man with a 
bright future in a growing economy is less likely to waste his 
potential in a suicide bombing. It was extremely important to have the 
Enhanced Partnership with Pakistan Act--sponsored by Chairman Kerry, 
Senator Lugar, and Chairman Berman--pass with bipartisan and bicameral 
support. We will seek full funding from Congress, and I believe this 
legislation will play a critical role in helping us transform our 
partnership with Pakistan.
    We will not be facing these challenges alone. We share this 
responsibility with governments around the world. Our NATO allies have 
already made significant contributions of their own in Afghanistan, and 
this afternoon I will leave for Brussels to begin the process of 
securing additional alliance commitments of troops, trainers, and 
resources. Ambassador Holbrooke, our Special Representative for 
Afghanistan and Pakistan, is already there consulting with our allies.
    The international community is also expanding its support to 
Pakistan, and we are in close touch with partners to coordinate 
assistance. We are also looking beyond NATO to build the broadest 
possible global coalition to meet this challenge. Our objectives are 
shared by people and governments from Europe to Australia, from Russia 
to China to India, and across the Middle East. And we are reaching out 
to Muslims everywhere to make it clear that the United States seeks to 
build a better future with them in a spirit of mutual respect and 
partnership.

                              THE MESSAGE

    Let me conclude where I began. We face a range of difficult choices 
in Afghanistan and Pakistan. But the President's plan represents the 
best way we know to protect our Nation today and in the future. The 
task we face is as complex as any national security challenge in our 
lifetimes. We will not succeed if people view this effort as the 
responsibility of a single party, a single agency within our 
government, or a single country. We owe it to the troops and civilians 
who will face these dangers to come together as Americans--and come 
together with our allies and international partners--to help them 
accomplish this mission. I look forward to working with you to meet 
this challenge. And I thank you for the opportunity to testify today.

    The Chairman. Thank you, Madam Secretary.
    Secretary Gates.

     STATEMENT OF HON. ROBERT GATES, SECRETARY OF DEFENSE, 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Secretary Gates. Mr. Chairman, Senator Lugar, members of 
the committee, I would like to provide an overview of the 
strategic thinking and context behind the President's 
decisions; in particular, the nexus among al-Qaeda, the 
Taliban, Pakistan, and Afghanistan, and our objectives, and how 
the President's strategy aims to accomplish them.
    As the President first stated in March, and reemphasized 
Tuesday night, the goal of the United States in Afghanistan and 
Pakistan is to disrupt, dismantle, and defeat al-Qaeda and its 
extremist allies, and to prevent its return to both countries. 
The international military effort to stabilize Afghanistan is 
necessary to achieve this overarching goal.
    Defeating al-Qaeda and enhancing Afghan security are 
mutually reinforcing missions. They cannot be untethered from 
one another, as much as we might wish that to be the case.
    While al-Qaeda is under great pressure now, and dependent 
on the Taliban and other extremist groups for sustainment, the 
success of the Taliban would vastly strengthen al-Qaeda's 
message to the Muslim world that violent extremists are on the 
winning side of history. Put simply, the Taliban and al-Qaeda 
have become symbiotic, each benefiting from the success and 
mythology of the other. Al-Qaeda leaders have stated this 
explicitly and repeatedly.
    The lesson of the Afghan Taliban's revival for al-Qaeda is 
that time and will are on their side, that with a Western 
defeat, they could regain their strength and achieve a major 
strategic victory, as long as their senior leadership lives and 
can continue to inspire and attract followers and funding. 
Rolling back the Taliban is now necessary, even if not 
sufficient, to the ultimate defeat of al-Qaeda.
    At the same time, one cannot separate the security 
situation in Afghanistan from the stability of Pakistan, a 
nuclear-armed nation of 175 million people now also explicitly 
targeted by Islamic extremists. Giving extremists breathing 
room in Pakistan led to the resurgence of the Taliban and more 
coordinated, sophisticated attacks in Afghanistan.
    By the same token, providing a sanctuary for extremists in 
southern and eastern Afghanistan would put yet more pressure on 
a Pakistani Government already under attack from groups 
operating in the border region. Indeed, the Pakistan Taliban, 
in just the last year or so, has become a real threat to 
Pakistan's domestic peace and stability, carrying out, with al-
Qaeda's help, escalating bombing attacks throughout the 
country.
    Failure in Afghanistan would mean a Taliban takeover of 
much, if not most, of Afghanistan, and likely a renewed civil 
war. Taliban-ruled areas could, in short order, become, once 
again, a sanctuary for al-Qaeda, as well as a staging area for 
resurgent militant groups on the offensive in Pakistan.
    Success in South and Central Asia by Islamic extremists, as 
was the case 20 years ago, would beget success on other fronts. 
It would strengthen the al-Qaeda narrative, providing renewed 
opportunities for recruitment, fundraising, and more 
sophisticated operations.
    It is true that al-Qaeda and its followers can plot and 
execute attacks from a variety of locations, from Munich to 
London to Denver. What makes the border area between 
Afghanistan and Pakistan uniquely different from any other 
location, including Somalia, Yemen, and elsewhere, is that this 
part of the world represents the epicenter of extremist 
jihadism, the historic place where native and foreign Muslims 
defeated one superpower and, in their view, caused its collapse 
at home. For them to be seen to defeat the sole remaining 
superpower in the same place would have severe consequences for 
this country and the world.
    Some say this is similar to the domino theory that 
underpinned, and ultimately muddied, the thinking behind the 
United States military escalation in Vietnam. The difference, 
however, is that we have very real and very recent history that 
shows just what can happen in this part of the world when 
extremists have breathing space, safe havens, and governments 
complicit with, and supportive of, their mission.
    Less than 5 years after the last Soviet tank crossed the 
Termez Bridge out of Afghanistan, in 1993, Islamic militants 
launched their first attack on the World Trade Center in New 
York. We cannot afford to make a similar mistake again.
    The President's new strategic concept aims to reverse the 
Taliban's momentum and reduce its strength, while providing the 
time and space necessary for the Afghans to develop enough 
security and governance capacity to stabilize their own 
country. The essence of our civil-military plan is to ``clear, 
hold, build, and transfer.'' Beginning to transfer security 
responsibility to the Afghans in summer of 2011 is critical 
and, in my view, achievable.
    July 2011, the time at which the President said the United 
States will begin to drawdown our forces, will be the beginning 
of a process, an inflection point, if you will, of transition 
where Afghan forces begin to assume greater responsibility for 
security. The pace and character of that drawdown, which 
districts and provinces are turned over, and when, will be 
determined by conditions on the ground. It will be a gradual 
but inexorable process. It will be similar to the gradual but 
steady conditions-based drawdown that began to take place in 
Iraq about 14 months after the surge began there.
    As with so many issues in the national security and defense 
arena, the real challenge in Afghanistan is finding the right 
balance. The prompt dispatch of some 30,000 United States 
combat troops, on top of the 21,000 already ordered by the 
President earlier this year, sends a certain message of the 
President's resolve to both our partners and our adversaries in 
Afghanistan and Pakistan. When this buildup is complete, total 
United States force levels in Afghanistan will have more than 
doubled under President Obama's orders, to about 100,000 
troops. Whether you agree with what we are doing or not, there 
should be no doubting, at home or abroad, this President's 
commitment to the success of this mission.
    On the other hand, we have to send an equally strong 
message to the Afghan Government that, when all is said and 
done, the United States military is not going to be there to 
protect them forever, that the Afghans must step up to the 
plate and do the things necessary that will allow them to take 
primary responsibility for defending their own country, and do 
so with a sense of purpose and urgency.
    This is the balance we're trying to achieve, and I believe 
the President's plan provides both the resources and the 
flexibility to do so. Making this transition possible requires 
accelerating the development of a significantly larger and more 
capable Afghan army and police through intensive partnering 
with ISAF forces, especially in combat. Even after we transfer 
security responsibility to the Afghans and drawdown our combat 
forces, the United States will continue to support their 
development as an important partner for the long haul. We must 
not repeat the mistakes of 1989, when we abandoned the country, 
only to see it descend into chaos and then into Taliban hands.
    Let me offer a couple of closing thoughts. The President 
believes, as I do, that, in the end, we cannot defeat al-Qaeda 
and its toxic ideology without improving and stabilizing the 
security situation in Afghanistan. The President's decision 
offers the best possibility to decisively change the momentum 
in Afghanistan and fundamentally alter the strategic equation 
in Pakistan and Central Asia, all necessary to protect the 
United States, our allies, and our vital interests.
    As always, the heaviest burden will fall on the men and 
women who have volunteered and revolunteered to serve their 
country in uniform. I know they will be uppermost in our minds 
and in our prayers as we take on this arduous, but vitally 
important, mission.
    Thank you.
    [The prepared statement of Secretary Gates follows:]

    Prepared Statement of Hon. Robert Gates, Secretary of Defense, 
                 Department of Defense, Washington, DC

    Mr. Chairman, members of the committee, thank you for inviting us 
to testify today. On Tuesday night, President Obama announced a renewed 
commitment and more focused strategy for Afghanistan and Pakistan. I 
would like to provide an overview of the strategic thinking and context 
behind his decisions, in particular:

  <bullet> The nexus among al-Qaeda, the Taliban, Pakistan, and 
        Afghanistan;
  <bullet> Our objectives and how the President's strategy aims to 
        accomplish them; and
  <bullet> The military forces required.

                             WHERE WE STAND

    As the President first stated in March, and reemphasized on 
Tuesday, the goal of the United States in Afghanistan and Pakistan is 
to disrupt, dismantle, and defeat al-Qaeda and to prevent its return to 
both countries. The international military effort to stabilize 
Afghanistan is necessary to achieve this overarching goal. Defeating 
al-Qaeda and enhancing Afghan security are mutually reinforcing 
missions. They cannot be untethered from one another, as much as we 
might wish that to be the case.
    While al-Qaeda is under great pressure now and dependent on the 
Taliban and other extremist groups for sustainment, the success of the 
Taliban would vastly strengthen al-Qaeda's message to the Muslim world: 
that violent extremists are on the winning side of history. Put simply, 
the Taliban and al-Qaeda have become symbiotic, each benefiting from 
the success and mythology of the other. Al-Qaeda leaders have stated 
this explicitly and repeatedly.
    Taliban success in retaking and holding parts of Afghanistan 
against the combined forces of multiple, modern armies--the current 
direction of events--has dramatically strengthened the extremist 
mythology and popular perceptions of who is winning and who is losing. 
The lesson of the Taliban's revival for al-Qaeda is that time and will 
are on their side. That, with a Western defeat, they could regain their 
strength and achieve a major strategic victory--as long as their senior 
leadership lives and can continue to inspire and attract followers and 
funding. Rolling back the Taliban is now necessary, even if not 
sufficient, to the ultimate defeat of al-Qaeda.
    At the same time, one cannot separate the security situation in 
Afghanistan from the stability of Pakistan--a nuclear-armed nation of 
175 million people now also explicitly targeted by Islamic extremists. 
The two countries, bound by ties of tribe and faith, share a porous 
border of more than 1,500 miles. Giving extremists breathing room in 
Pakistan led to the resurgence of the Taliban and more coordinated, 
sophisticated attacks in Afghanistan. Providing a sanctuary for 
extremists in southern and eastern Afghanistan would put yet more 
pressure on a Pakistani Government already under attack from groups 
operating in the border region. Indeed, the Pakistan Taliban, just in 
the last year or so, has become a real threat to Pakistan's own 
domestic peace and stability, carrying out--with al-Qaeda's help--
escalating bombing attacks throughout the country. It is these attacks, 
and the Taliban's movement toward Islamabad 7 months ago, that largely 
motivated the current operations by the Pakistani army. And we know the 
Pakistan Taliban operate in collusion with both the Taliban in 
Afghanistan and al-Qaeda.
    A related point with regard to Pakistan: Because of American 
withdrawal from the region in the early 1990s, followed by a severing 
of military-to-military relations, many Pakistanis are skeptical that 
the United States is a reliable, long-term strategic partner.

                        CONSEQUENCES OF FAILURE

    Failure in Afghanistan would mean a Taliban takeover of much, if 
not most, of the country and likely a renewed civil war. Taliban-ruled 
areas could in short order become, once again, a sanctuary for al-Qaeda 
as well as a staging area for resurgent militant groups on the 
offensive in Pakistan.
    Success in South and Central Asia by Islamic extremists--as was the 
case 20 years ago--would beget success on other fronts. It would 
strengthen the al-Qaeda narrative, providing renewed opportunities for 
recruitment, fund-raising, and more sophisticated operations. Aided by 
the Internet, many more followers could join their ranks, both in the 
region and in susceptible populations across the globe.
    It is true that al-Qaeda and its followers can plot and execute 
attacks from a variety of locations--from Munich to London to Denver. 
But what makes the border area between Afghanistan and Pakistan 
uniquely different from any other location--including Somalia, Yemen, 
and other possible redoubts--is that this part of the world represents 
the epicenter of extremist jihadism: the historic place where native 
and foreign Muslims defeated one superpower and, in their view, caused 
its collapse at home. For them to be seen to defeat the sole remaining 
superpower in the same place would have severe consequences for the 
United States and the world.
    Some may say this is similar to the ``domino theory'' that 
underpinned and ultimately muddied the thinking behind the U.S. 
military escalation in Vietnam. The difference, however, is that we 
have very real--and very recent--history that shows just what can 
happen in this part of the world when extremists have breathing space, 
safe havens, and governments complicit with and supportive of their 
mission. Less than 5 years after the last Soviet tank crossed the 
Termez Bridge out of Afghanistan, Islamic militants launched their 
first attack on the World Trade Center in New York. We cannot afford to 
make a similar mistake again.

                             THE WAY AHEAD

    A stable security situation in Afghanistan and Pakistan--one that 
is sustainable over the long term by their governments--is vital to our 
national security. By the same token, the current status quo in 
Afghanistan--the slow but steady deterioration of the security 
situation and growing influence of the Taliban--is unacceptable. So too 
is the status quo ante--a largely ungoverned region controlled by 
extremists in which the United States had little influence or ability 
to gain actionable intelligence on the ground.
    The President's new strategic concept aims to reverse the Taliban's 
momentum and reduce its strength while providing the time and space 
necessary for the Afghans to develop enough security and governance 
capacity to stabilize their own country.
    We will focus our resources where the population is most 
threatened, and align military and civilian efforts accordingly--with 
six primary objectives:

  <bullet> Reversing Taliban momentum through sustained military action 
        by the United States, our allies, and the Afghans;
  <bullet> Denying the Taliban access to and control of key population 
        and production centers and lines of communications;
  <bullet> Disrupting the Taliban outside secured areas and preventing 
        al-Qaeda from regaining sanctuary in Afghanistan;
  <bullet> Degrading the Taliban to levels manageable by the Afghan 
        National Security Forces;
  <bullet> Increasing the size and capability of the ANSF and employing 
        other local forces selectively to begin transitioning security 
        responsibility to the Afghan Government within 18 months; and
  <bullet> Selectively building the capacity of the Afghan Government, 
        particularly in key ministries.

    This approach is not open-ended ``nation building.'' It is neither 
necessary nor feasible to create a modern, centralized, Western-style 
Afghan nation-state--the likes of which has never been seen in that 
country. Nor does it entail pacifying every village and conducting 
textbook counterinsurgency from one end of Afghanistan to the other.
    It is, instead, a narrower focus tied more tightly to our core goal 
of disrupting, dismantling, and eventually defeating al-Qaeda by 
building the capacity of the Afghans--capacity that will be measured by 
observable progress on clear objectives, and not simply by the passage 
of time.
    The essence of our civil-military plan is to clear, hold, build, 
and transfer. Beginning to transfer security responsibility to the 
Afghans in summer 2011 is critical--and, in my view, achievable. This 
transfer will occur district by district, province by province, 
depending on conditions on the ground. The process will be similar to 
what we did in Iraq, where international security forces provided 
``overwatch''--first at the tactical level, then at the strategic 
level. Even after we transfer security responsibility to the Afghans 
and drawdown our combat forces, the United States will continue to 
support their development as an important partner for the long haul. We 
will not repeat the mistakes of 1989, when we abandoned the country 
only to see it descend into civil war, and then into Taliban hands.
    Making this transition possible requires accelerating the 
development of a significantly larger and more capable Afghan army and 
police through intensive partnering with ISAF forces, especially in 
combat. It also means achieving a better balance between national and 
local forces; increasing Afghan unconventional warfare capabilities; 
engaging communities to enlist more local security forces to protect 
their own territory; and bolstering Afghan-led reintegration and 
reconciliation efforts.
    At the strategic level, the President's plan will achieve a better 
balance between investments in the central government and subnational 
entities. At the national level, the focus will be primarily on 
reforming essential ministries and pressing for the appointment of 
competent and honest ministers and governors. At the local and regional 
level, there will be a shift to work through existing, traditional 
structures rather than building new ones. In all of these efforts, we 
must have a committed partner in the Afghan people and government. That 
is one reason why there will be very clear and definitive timeframes 
for reviewing our--and their--progress.

                         ADDITIONAL U.S. FORCES

    As the President announced, the United States will commit an 
additional 30,000 troops to Afghanistan for an extended surge of 18 to 
24 months. These forces--the U.S. contribution to this fight--will be 
deployed and concentrated in the southern and eastern parts of the 
country. The first of these forces will begin to arrive in Afghanistan 
within 2-3 weeks.
    In all, since taking office President Obama has committed nearly 
52,000 additional troops to Afghanistan for a total U.S. force of 
approximately 100,000. We are looking to NATO and our other partners to 
send a parallel international message of strong resolve. Our allies 
must take the lead and focus their resources in the north and west to 
prevent the insurgency from establishing new footholds. We will seek 
some 5-7,000 troops from NATO and expect the allies to share more of 
the burden in training, equipping, and funding the Afghan National Army 
and police.

                               CONCLUSION

    Let me offer a few closing thoughts.
    It is worth remembering that the security situation in 
Afghanistan--though serious--does not begin to approach the scale of 
violence that consumed Iraq and confronted our forces there when I was 
confirmed as Secretary of Defense 3 years ago this week. With all the 
resources already committed to this campaign--plus those the President 
has just announced--I believe the pieces are being put in place to make 
real and measurable progress in Afghanistan over the next 18 to 24 
months.
    The President believes, as do I, that, in the end, we cannot defeat 
al-Qaeda and its toxic ideology without improving and stabilizing the 
security situation in Afghanistan. The President's decision offers the 
best possibility to decisively change the momentum in Afghanistan, and 
fundamentally alter the strategic equation in Pakistan and Central 
Asia--all necessary to protect the United States, our allies, and our 
vital interests. So, I ask for your full support of this decision to 
provide both Ambassador Eikenberry and General McChrystal the resources 
they need to be successful.
    This is will take more patience, perseverance, and sacrifice by the 
United States and our allies. As always, the heaviest burden will fall 
on the men and women who have volunteered and in many cases 
revolunteered--to serve their country in uniform. I know they will be 
uppermost in our minds and prayers as we take on this arduous but 
vitally necessary mission.

    The Chairman. Thank you very much, Secretary Gates.
    Admiral Mullen.

  STATEMENT OF ADM MICHAEL MULLEN, CHAIRMAN, JOINT CHIEFS OF 
                     STAFF, WASHINGTON, DC

    Admiral Mullen. Chairman Kerry, Senator Lugar, and 
distinguished members of this committee, thank you for your 
time today.
    I'd also like to express my appreciation for all the work 
this committee has done to get the Kerry-Lugar-Berman bill 
passed. And there, in these discussions, it can be easily lost 
that that $7\1/2\ billion is actually nonmilitary aid, which I 
think, having spent a lot of time in that part of the world, is 
absolutely critical. And the other part of it is that it's over 
an extended period of time. For too long in Pakistan, as many 
of you know, it's been year-to-year, and so that 5-year 
commitment is really significant.
    And I want to ensure you, in the debates and the 
deliberations that we've had in the administration with respect 
to this strategy in this region, that there was an enormous 
amount of time spent on Pakistan, and, Chairman, specifically 
to your focus on this, that that was a very critical part of 
the discussion, as well. And, by and large, the principles 
agreed on the need to have a sustained, long-term partnership 
approach with Pakistan, even given the complexities there.
    And then, the linkage--I have come to believe that the 
linkage between Afghanistan and Pakistan is almost absolute and 
that the outcome in Afghanistan bears directly on Pakistan's 
future and how they'll act and how they see their future. So, a 
stable, supportive Afghanistan will make a big difference in 
how Pakistan sees its future.
    I support, fully and without hesitation, the President's 
decision, and appreciate the opportunity to contribute to what 
I believe was a healthy and productive discussion. I've seen 
lots of internal debates on national security issues in the 
time that I've been chairman, but I can honestly say that 
there's not one issue that was so thoroughly and thoughtfully 
considered as this one, as, in fact, it should be, as Secretary 
Clinton said, because this is the most complex national 
security issue that faces us. It's also, in my belief, directly 
tied to our vital national interests.
    Every military leader in the chain of command, as well as 
those of the Joint Chiefs, was given a voice, and every single 
individual used it. We now have before us a strategy that more 
appropriately matches us to the situation on the ground in 
Afghanistan, and resources matched more appropriately to that 
strategy, particularly with regard to reversing the 
insurgency's momentum as quickly as possible, focusing 
immediately on 2010. And given the stakes in Afghanistan for 
our own national security, as well as that of our partners 
around the world, I believe that the time we took was well 
worth it.
    Secretaries Clinton and Gates have already walked you 
through the policy issues, the large policy issues in question, 
and I won't repeat them here.
    But, from a purely military perspective, I believe our new 
approach does three critical things.
    First, by providing more discrete objectives, it offers 
better guidance to commanders on the ground about how to employ 
their forces. They will still work to disrupt, dismantle, and 
defeat
al-Qaeda and prevent Afghanistan from becoming a safe haven. 
They will still strive to protect the Afghan people, who remain 
the center of gravity in Afghanistan. They will still pursue 
major elements of the counterinsurgency campaign desired and 
designed by General McChrystal, which, as we all know, involves 
at least some measure of active counterterrorism operations. 
But, now, they will tailor this campaign and those operations 
by focusing on key population areas, by increasing pressure on 
al-Qaeda's leadership, and by more effectively working to 
degrade the Taliban's influence, and by streamlining and 
accelerating the growth of competent Afghan National Security 
Forces.
    At its core, our strategy is about providing breathing 
space for the Afghans to secure their own people and to 
stabilize their own country. It's about partnering and 
mentoring just as much, if not more so, than it is about 
fighting and combat. Where once we believed that finishing the 
job meant, to a large degree, ``do it ourselves,'' we now know 
it cannot truly or permanently be done by anyone other than the 
Afghans themselves. Fully a third of the United States troops 
in theater are partnered with Afghan forces as we speak, and I 
expect that number to rapidly grow over the next year.
    Second, but not insignificantly, this new strategy gives 
commanders on the ground the resources and the support they 
need to reverse the momentum of the Taliban insurgency and to 
accomplish these more limited objectives. I've said it before, 
and I believe it still today, that this region is the epicenter 
of global Islamic extremism. And I acknowledge that there are 
federated terrorists globally. But, this is the epicenter. It's 
the place from which we were attacked on 9/11, as has been 
discussed, and, should we be hit again, it's the place from 
which, I am convinced, the planning, training, financing, and 
leadership will emanate.
    Al-Qaeda may, in fact, be the architect of such an attack, 
but the Taliban will be the bricklayers. Though hardly a 
uniform body, Taliban groups have grown bolder and more 
sophisticated. I saw that just a few months ago in the Korengal 
Valley, where Taliban forces attacked coalition outposts using 
what I would call ``almost conventional small-unit tactics.'' 
Their fighters were better organized and better equipped than 
they were just 1 year ago. That's been the case for the last 3 
years. In fact, coalition forces experienced a record number 
of--a record level of violence over the last year, up 60 
percent in 2009, when compared to 2008. And through brutal 
intimidation, the Taliban has established shadow governments 
across the country, coercing the reluctant support of many 
locals, and challenging the authority of elected leaders and 
state institutions. Indeed, we believe the insurgency has 
achieved a dominant influence in 11 of the--of Afghanistan's 34 
provinces. To say there is no serious threat of Afghanistan 
falling once again into Taliban hands ignores the audacity of 
even the insurgency's most public statements. And to argue 
that, should they have that power, the Taliban would not at 
least tolerate the presence of al-Qaeda on Afghan soil, is to 
ignore both the recent past and the evidence we see every day 
of collusion between these factions on both sides of the Af-Pak 
border. The cost of failure, then, is grave. That is why the 
President's decision for the extended surge of--to Afghanistan 
of 30,000 additional troops is so important. It gets the most 
U.S. force into the fight as quickly as possible, giving 
General McChrystal everything he needs in 2010 to gain the 
initiative. It validates our adherence to a counterinsurgency 
approach, and it offers our troops in Afghanistan the best 
possible chance to set the security conditions for the Afghan 
people to see our commitment to their future, for the Karzai 
government to know our strong desire to see his promised 
reforms, and for the Afghan Taliban to understand they will not 
and cannot take back Afghanistan, and finally, for those beyond 
Afghanistan who support the Taliban or who would see the return 
of al-Qaeda, to realize the futility of their pursuit.
    I should add that these reinforcements come on top of the 
21,000 troops the President ordered shortly after taking 
office, troops which have already made a huge difference in the 
southern Helmand Valley. But, as I have testified before, Mr. 
Chairman, no amount of troops in no amount of time will ever be 
enough to completely achieve success in such a fight; they 
simply must be accompanied by good governance and healthy 
public administration. This, not troop numbers, is the area of 
my greatest concern. Like everyone else, I look forward to 
working with the Karzai government, but we must have the 
support of the interagency and international communities, as 
well.
    And that brings me to my final point. The President's new 
strategy still recognizes the criticality of a broad-based 
approach to regional problems. He does not view Afghanistan in 
isolation any more than he views the ties between al-Qaeda and 
the Taliban as superficial. He's called for a stronger and more 
productive cooperation with neighboring Pakistan, which is, 
likewise, under the threat from radical elements and whose 
support remains vital to our ability to eliminate those safe 
havens. He has pledged, and we in the military welcome, renewed 
emphasis on securing more civilian expertise to the effort, 
more contributions by other NATO nations, and a realistic plan 
to transition responsibilities to the Afghans.
    His is a more balanced, more flexible, and more achievable 
strategy than we've had in the past, one based on pragmatism 
and real possibilities. And speaking for the 2.2 million men 
and women who must go execute this and who, with their 
families, have borne the brunt of the stress and the strain of 
8 years of constant combat, I support the President's decision 
and appreciate his leadership.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Mullen follows:]

Prepared Statement of ADM Michael G. Mullen, USN, Chairman of the Joint 
                    Chiefs of Staff, Washington, DC

    Chairman Kerry, Senator Lugar, and distinguished members of the 
committee, thank you for the opportunity to testify on the subject of 
the President's newly announced strategy for Afghanistan and Pakistan.
    The President's Tuesday evening announcement at West Point of our 
strategy and increased military resources for Afghanistan culminates a 
process of deliberate strategic review that began with the arrival of 
General McChrystal's interim assessment in early September. I believe 
this national-level review has been sober and essential. The challenges 
we face in Afghanistan and Pakistan are great, and our interests there 
are significant. This administration needed to take the time to look at 
all the options and craft a balanced and sustainable approach. I 
believe that the review has met this aim.
    I support fully, and without hesitation, the President's decision.

                         REFINING THE STRATEGY

    The facts compel us to act. Our strategic review confirmed that the 
overarching policy goal remains the same: to disrupt, dismantle, and 
defeat al-Qaeda in Afghanistan and Pakistan, and to prevent its 
capacity to threaten America and our allies from either country in the 
future.
    South Asia is the epicenter of global Islamic extremism; the 
location of al-Qaeda's core leadership and the terrain that dozens of 
Islamic terrorist groups call home. It is the location from which the 
9/11 attacks on America were planned and driven. If the United States 
should be hit again, I remain convinced that the planning, training, 
and funding for such an attack will emanate there. It is a region where 
a nuclear weapons state, Pakistan, is under direct threat from al-Qaeda 
and affiliated Pakistani-Taliban groups that aspire to acquire and use 
nuclear weapons against the United States and our allies. Thus, it is a 
region with a unique--and deadly--combination of the most dangerous 
terrorists and the most dangerous technology in the world. Our actions 
in Pakistan and Afghanistan seek to prevent catastrophic outcomes from 
these toxic forces, and constitute a most critical national interest.
    Our strategic review paid particular attention to Pakistan. The 
people of Pakistan are under as much, if not greater, threat from al-
Qaeda and Islamic terrorism than are we. We must encourage and aid the 
Pakistani military fight against these extremists in South Waziristan, 
in SWAT, and across Pakistan. We must also help Pakistan widen its 
aperture in seeking out and eliminating all forms of extremism and 
terrorism--those who threaten not only Pakistan, but also Afghanistan, 
the wider South Asia region, and the globe. We are deepening ties with 
the people of Pakistan as well as with their security forces. We see 
progress with our Pakistani allies as paramount to the way ahead.
    In Afghanistan, we narrowed in on a challenging, but attainable 
goal: to deny
al-Qaeda safe haven and the Afghan-Taliban the ability to overthrow the 
duly elected Afghan Government. To achieve this refined strategic aim, 
we must continue to deny al-Qaeda any Afghanistan toe-hold, reverse the 
momentum of the Taliban insurgency, and build sufficient Afghan 
Government and security capacity to eventually defeat the insurgent 
threat. Our review also narrowed and refined the military objectives 
for General McChrystal's NATO-ISAF force--focusing it on security of 
key population areas while Afghan forces grow in size and capability, 
prioritizing a robust NATO-ISAF program of training and mentoring 
Afghan military and police, and establishing the conditions necessary 
for Afghans to assume their own security. Each of these objectives will 
hasten the day when we can begin thinning the U.S./NATO-ISAF security 
forces presence, turning the internal security of Afghanistan over to 
the Afghans. This strategy provides the time and space for the Afghans 
themselves to build sufficient security and governance capacity to 
stabilize their country.
    Our refined military objectives for Afghanistan complement those in 
the political and economic spheres. They also support diplomatic, 
political, and military programs that the President's strategy calls 
for us to undertake with neighboring countries--especially Pakistan--
that increase pressure against al-Qaeda's leadership; that expand 
counterinsurgency operations against Taliban insurgents who threaten 
Afghanistan, Pakistan, and the wider region; and that help set the 
conditions for improved regional security and stability.

                    MATCHING STRATEGY AND RESOURCES

    Throughout this strategic review, I advised the Secretary of 
Defense and the President that our commitment of military resources 
must match our strategy.
    I am pleased to inform this committee that the President's decision 
accommodates this advice. The strategy he approved commits 30,000 more 
U.S. forces, with some number of additional enablers, while calling for 
our NATO and non-NATO allies to generate additional forces. This rapid, 
coalition-wide buildup of force aligns with General McChrystal's 
recommendations, even more so in light of the narrowing of objectives 
for Afghanistan that the President announced Tuesday night.
    The President's commitment is to rapidly send these additional 
forces forward to get as much force into the fight as fast as General 
McChrystal can absorb it. This allows Generals McChrystal and Petraeus 
to plan for cohesive logistics and transportation support over the 
course of the coming year. While there are no guarantees in war, I 
expect that we will make significant headway in the next 18-24 months. 
I also believe we could begin to thin our combat forces in about the 
same timeframe. From a military standpoint, the President's commitment 
to an increase in military force, especially backed by an increase in 
civilian resources, is much better than one featuring periodic 
assessments that trigger incremental force escalation.
    The President's decision also supports accelerated expansion of 
Afghan National Security Forces (ANSF)--a critical initiative. We 
simply must invest in the growth of an Afghan security force--through 
more radical and in-depth partnering. The additional U.S. and coalition 
forces heading to Afghanistan will focus a great amount of time and 
energy toward empowering a strong and capable ANSF.
    General McChrystal intends to use these additional U.S. troops to 
conduct more focused counterinsurgency operations that enhance 
population security against the Taliban in south and east Afghanistan. 
As in Iraq, our troops will live among the population. Thus--and as 
General McChrystal has successfully emphasized since his arrival as 
COMISAF last June--we will continue to make every effort to eliminate 
civilian casualties, not just because this is the right thing to do, 
but because these casualties work against our goal of Afghan population 
security. Although we must expect higher alliance casualties in coming 
months as we dedicate more U.S. forces to protect the population and 
mentor the ANSF, our extended security presence must--and will--improve 
security for the Afghan people and limit both future civilian and 
military casualties

                       MOVING FORWARD--CONCLUSION

    No commitment of additional force in the number we plan for 
Afghanistan is without risk. The Joint Chiefs of Staff and I assess the 
risks to our military forces and our military missions--at home and 
abroad--from this force deployment decision to be acceptable. We can 
continue to balance the additional force flow requirements for 
Afghanistan against those coming available from drawdown trajectory 
programmed for, and on track in, Iraq.
    I believe that progress in Afghanistan and Pakistan will be 
gradual, and sometimes halting. Yet I believe we can succeed. The 
President's announced strategy and this force-flow decision give us the 
best possible chance for success. We must exhibit vision, apply 
sufficient resources, and display endurance to realize our objectives 
for Afghanistan and Pakistan. Most challenges we now confront in the 
South Asia region are not military in nature. They require solutions 
from and led by national and local governments. Yet none of these 
solutions are possible in an environment of insecurity. Our role must 
be to fill the security gap for a short time, concurrently growing our 
partner government's capacity to self-secure. Pursued with resolve, our 
actions will send an unmistakable message that the United States 
remains committed to the common good, while steadily expanding the sets 
of partnerships available to address future challenges without a long-
term need for large numbers of U.S. combat forces.
    In providing advice to this President over the past 10 months, one 
important point I have made, consonant with other key Presidential 
advisers, is that our military activities must support rather than lead 
our Nation's foreign policy. Our warfighting ability will never be in 
doubt. But we have learned from the past 8 years of war that we serve 
this Nation best when we are part of a comprehensive, integrated 
approach that employs all elements of national power to achieve the 
policy goals set by our civilian leaders. This approach remains crucial 
in Afghanistan, Pakistan, and across South Central Asia.
    On behalf of our servicemembers, I would like to thank the members 
of this committee--and the Congress as a whole--for the sustained 
investment in our brave young men and women in uniform, and for your 
unwavering support of them and their families as they continue to serve 
so magnificently and selflessly in this time of protracted war.

    The Chairman. Thank you very much, Admiral.
    Thank you, each of you, for comprehensive statements that 
are very, very helpful.
    Let me focus in, if I can, on--Secretary Gates, you 
particularly talked about the nexus with respect to the al-
Qaeda/Taliban relationship and why Afghanistan is important in 
that. Last night, I had dinner with a group of Congressmen, a 
number of whom either don't see the nexus or don't accept it 
or, you know, somehow feel that we can get by notwithstanding 
whatever nexus there is, that it doesn't rise to the level--in 
a sense, building on Senator Lugar's opening statement, where 
he, sort of, talked about the question of, you know, being 
fixated on al-Qaeda and committing a certain number of troops 
that may be out of proportion to the level of threat.
    You've both--both Secretary Clinton and you, Secretary 
Gates, addressed this in your statements, but there's a way in 
which, I think, somehow, in the statements, people don't always 
hear the exclamation point of it.
    I'd like to ask you--I mean, if we have Congress--if we 
have members of this committee who disagree with the decision 
and who feel that somehow that nexus is not sufficient, that it 
brings this national security threat to a level that says, 
``You've got to have 100,000 troops,'' et cetera--you know the 
arguments--what I want you to do now, if you can, is put the 
exclamation point on it. I mean, how do you convey, through 
your experience and the stakes that you're trying to protect, 
what is really at stake here so people understand why the 
President, who clearly, at West Point, said, you know, he 
doesn't take this decision lightly--and we all understand that; 
nobody would--to make this kind of commitment. What is it, in 
the simplest of terms, that compels you to say, ``Al-Qaeda in 
Pakistan remains a sufficient factor to require 100,000 troops 
in Afghanistan''?
    Secretary Gates. First of all, I would say that I consider 
the situation today, in this respect, more dangerous than it 
was a year or 18 months ago, because it is clear that--just on 
the Pakistani side of the border, that al-Qaeda is deeply 
involved with the Tehrik-e-Taliban Pakistan, the Pakistani 
Taliban, in planning attacks against the Pakistani Government 
and people, and attempting to destabilize that government. And 
the al-Qaeda provides them with technical information, provides 
them with operational information and support.
    Al-Qaeda also is supportive of the Lashkar-e-Tayyiba, the 
terrorist group that is responsible for the bombings in Mumbai. 
And al-Qaeda is providing them with targeting information and 
helping them in their plotting in India, clearly with the idea 
of provoking a conflict between India and Pakistan that would 
destabilize Pakistan. They also are very much involved with the 
Afghan Taliban. And so, they are supporting all of these 
different groups in ways that are destabilizing, not just for 
Afghanistan, but for the entire region. And al-Qaeda is at the 
heart of it. And whether or not the terrorists are homegrown, 
when we trace their roots, they almost all end up back in this 
border area of Afghanistan and Pakistan, whether they're from 
the United States or Somalia or the United Kingdom or 
elsewhere.
    And so, what we see is al-Qaeda, despite their being under 
pressure and despite their limited numbers and despite the fact 
that there are few of them in Afghanistan right now, that they 
are taking advantage of the situation in the region to play a 
very destabilizing and dangerous role.
    What they have learned, as I suggested in my remarks, is 
that, in an ungoverned space, you have the opportunity to 
recover, reconstitute, and reassert yourself, which is exactly 
what the Taliban did in Pakistan over a period of about 3 
years, and now are in a position where, with their momentum, 
are challenging, successfully to this point, significant 
numbers of modern armies.
    So, the point is that if given--if parts of southern and 
eastern Afghanistan once again come under the control of the 
Taliban, that would be space in which the al-Qaeda could 
reconstitute itself, very much as the Taliban did in Pakistan 
just in recent years, and then expand their operations and 
their capabilities to launch attacks against Europe and the 
United States and, really, all over the world.
    The Chairman. If----
    Secretary Clinton. Mr. Chairman.
    The Chairman. So--go ahead.
    Secretary Clinton. I would just add, to what Secretary 
Gates said, the following three points.
    First, we have increasingly come to see these organizations 
not as separate independent operators that occasionally 
cooperate with one another, but as part of a syndicate of 
terrorism. They--the level of operational cooperation, 
training, equipping, financing, has grown exponentially. And at 
the head of the table, like an old Mafia kind of diagram, sits 
al-Qaeda. And al-Qaeda still has much greater access to the 
financing that comes from the gulf, and is able, then, to 
support a lot of their Taliban partners in their various 
undertakings. Al-Qaeda's experience in recruiting foreign 
fighters has aided and abetted certain of the Taliban 
operations inside Pakistan and Afghanistan. The Pakistani 
military has told us that they've picked up foreign fighters in 
South Waziristan. And the continuing training of new recruits, 
people that then go off to Yemen or Somalia, or, indeed, 
Denver, has a global reach that is unmatched.
    Second, as Admiral Mullen said, the planning and the, sort 
of, brains of the operation with respect to plots against us 
remains al-Qaeda, but, increasingly, the Taliban are the 
bricklayers. You know, the recent arrests here in our own 
country trace back to Pakistan and trace back, certainly in the 
case of Zazi, directly to an al-Qaeda-originated training camp 
and training program.
    But, finally, and perhaps most chillingly, the fact that 
Pakistan is a nuclear power raises the stakes enormously. There 
is no doubt in any of our minds that al-Qaeda seeks nuclear 
materiel, seeks access to nuclear weapons. The challenges 
within the Pakistani military, that Admiral Mullen can address, 
because he's done yeoman's work in working on a--building a 
better relationship. We walked away from the Pakistani 
military, you know; we were sanctioned, we couldn't cooperate 
with them. And there's a real gap between the leadership of the 
Pakistani military that ever trained in or connected with the 
American or the British or the Australian military and, sort 
of, the younger officers. And there's a real struggle going on, 
for influence, for the kind of advantage that would give this 
syndicate of terror just a horrific challenge to all of us.
    But, I think--if Admiral Mullen could have the time to add 
to that.
    Admiral Mullen. Mr. Chairman, I've certainly--agree with 
the nexus. And I've watched it, over the last year to two, that 
these groups are coming together.
    I'm--and this--Secretary Gates talked about the linkage 
between the LET and al-Qaeda. And it's actually not--so, it's 
not local anymore. And that is an example of the collaboration 
that's going on with all these units. I was struck, as I'm sure 
you were, in Mumbai, that a terrorist outfit could literally 
generate that kind of attack and then bring two nation-states 
closer to conflict. That is not an achievement lost on anyone 
that observed that. And those kinds of plots continue. The 
ability to destabilize Pakistan, seeking that nuclear 
materiel--those nuclear materiels and weapons--it's 
extraordinarily dangerous. And I recognize both the price we 
pay, in blood and treasure, and the cost--that it costs our 
government, specifically. These--and my own view of this is 
that, without addressing this, the potential risks of something 
recurring, on the order of what happened before, is out there, 
and the enormous costs that would be associated with that.
    So, this decision and investment now is absolutely 
critical. And the terrorist central cells that are there in 
this border, that's really--this is really the headquarters. 
There are other franchise cells throughout--in places like 
Yemen and Somalia, but this is the most dangerous one. They all 
need to be addressed. This has a significantly more capable 
center of gravity, if you will, because of all the 
organizations that are associated with al-Qaeda in this border 
area.
    The Chairman. Well, I appreciate that.
    Secretary Gates. Can I just add one sentence? The----
    The Chairman. Please.
    Secretary Gates [continuing]. Just in terms of underscoring 
the central role of al-Qaeda in the Afghan-Pakistan border 
area--the reality is that al-Qaeda in the Islamic Maghreb, al-
Qaeda in the Arab Peninsula, place high value on their 
affiliation with al-Qaeda in that border area. And there is 
ample intelligence showing other terrorist groups that 
basically are in the application process to become affiliates 
of al-Qaeda. So, the central mythology and the central role of 
these people is still there.
    The Chairman. Well, let me just say that I think that it's 
going to be very important in the next days to really build 
this linkage and case so that people have a real understanding 
of the importance. And it obviously begs the question--and I 
don't want to abuse the time periods here, so I won't ask it 
now; I'm sure colleagues will follow up on it--but, it clearly 
begs the question of Pakistan's cooperation and what we can 
expect in these next months. And I'm sure colleagues will 
follow up on that.
    I did want to mention congratulations on Chelsea's 
engagement. I just finished playing ``wedding planner'' for my 
younger daughter, and my advice to you is: hire a professional.
    Secretary Clinton. Are you available? [Laughter.]
    The Chairman. I am not--distinctly not a professional.
    Voice. Can't afford him. [Laughter.]
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Now, let me follow up on your questions, as well as the 
responses of the witnesses.
    Secretary Clinton, in your testimony you said, ``We will 
work with the Afghan and Pakistani Governments to eliminate 
safe havens for those plotting attacks against us, our allies, 
and our interests.'' As an additional point you say, ``We will 
develop a long-term sustainable relationship with Afghanistan 
and Pakistan so we do not repeat the mistakes of the past.''
    Now, each of you responded in your testimonies to the 
thought that al-Qaeda or other terrorist groups may be becoming 
increasingly diffuse, by saying, ``Of course. But, this border 
area is significantly different.'' Admiral Mullen, you pointed 
out again that this area is unique as it would likely serve as 
the base for the planning of future terrorist attacks against 
the United States. Secretary Gates, you just mentioned how even 
in the Maghreb and elsewhere, they feed into the so-called 
spiritual or intellectual, leadership that is coming out of the 
border area.
    I would like each of you to further expound on a view we 
have heard you all espouse, that ``We believe that a strong, 
stable, democratic Pakistan must be a key partner for the 
United States, an ally against violent extremism.'' Of course 
that is correct. But, a number of historians have come before 
this committee in previous discussions of these matters and 
they've made comments such as this, that, ``The al-Qaeda in 
Afghanistan has sometimes been useful for Pakistan to at least 
influence, if not control, things over in Afghanistan so that 
India would not have a strong influence there.'' When the 
Indians were here visiting with you recently, they certainly 
expressed some feeling of exclusion that came not only from 
Pakistan, but of Pakistan's use of the Taliban in Afghanistan.
    Recently, the three of you have been engaging in active 
diplomacy in Pakistan, and, collectively, with the President, 
the Vice President, General Jones, and others, have convinced 
the Pakistani military that they ought to do something about 
Pakistani Taliban in Swat Valley and elsewhere. It is possible 
that this success also has to do with a change in viewpoint of 
the Pakistani military establishment.
    But, we still get back to the point that we're talking 
about, this border area which is comprised of two countries. On 
one side, we are going to emplace additional troops dealing 
with these 11 provinces in Afghanistan. What is not clear is 
precisely what is going to happen in Pakistan in this alliance 
of the two of us, the United States and Pakistan. And you would 
say, ``Well, for good reason. Don't be naive. This is a very 
difficult situation.'' As you said, Secretary Clinton, we have 
a long way to go. This is a growing relationship. You've been 
out in the countryside, visiting places the President of the 
country has not chosen to visit as he is huddled there in the 
capital. Indeed, this is very tough business.
    I'd like to ask all of you about what I see as some of our 
crucial objectives in our relationship with Pakistan and 
continued engagement in the region. I agree with the chairman 
on the importance of this concentration on the number of 
troops, the number of months, and of whatever is going to 
happen in the urban areas of the 11 provinces. But, what is 
crucial is whether any of the three of you, or all of you, or 
the President, the Vice President, General Jones, or anyone 
else in your team, is going to be able to deal with the 
leadership in Pakistan, whether it be the civil, military, or 
intelligence leadership, so that they are prepared to face what 
we are all seeing as the problem: the continued presence of 
Osama bin Laden and al-Qaeda in the border area. No one wants 
to talk about Osama bin Laden. Isn't this a major target? Isn't 
this a reason why continued warfare is necessary?
    Now, if it is so, we'd better talk about it directly to the 
Pakistanis. This being a public hearing, the Pakistanis are 
hearing that loud and clear, and they're going to have to 
respond.
    Now, it is all well and good for us to say the Pakistanis 
have got to be stable over the long run with regard to their 
nuclear weapons. Well, of course they need to be stable. They 
understand that. They often have resented us talking about 
their nuclear weapons, quite apart from the thought we might 
protect them and their nuclear weapons, as this is in our own 
interests.
    Progressing from the President's plan is certainly not the 
end of the story. Whether this plan works or not may depend 
upon personal diplomacy and the ability of leadership in 
Pakistan to come to very different, significant conclusions 
from the past in terms of their view on the best way forward to 
improve their welfare. I'd like to ask any of you how rapidly 
you think this can occur. In 12 months? Eighteen months? Two 
years? In other words, it better occur soon or we're going to 
have the shifting of people back and forth across the border, 
even as we have military success, as we will, in the provinces 
of Afghanistan.
    Would anyone want to respond?
    Secretary Clinton. Well, Senator Lugar, I'll start, and 
then I'm sure my colleagues would want to add to what I say.
    I share your sense of urgency, your analysis of the 
challenges that we confront, but I think we have to look very 
clear-eyed at where we are starting from. When I went through 
my round of confirmation hearings and then, sort of, 
introductory hearings in the House--and that was back in 
January--I said, at the time, that it was hard to believe that 
the Pakistani Government was not going after the direct threats 
that it faced from within its own borders. And that caused a 
big outcry in Pakistan. But, I think it's significant that 
we're sitting here today, having seen two major military 
operations after the failure of some kind of accommodation and 
unsuccessful peace agreements were finally recognized.
    We are now making the case to our counterparts in Pakistan, 
both in the civilian and the military leadership, that the 
efforts they have made against the TTP, primarily in Swat and 
now in Waziristan and the Mehsud tribal core, are necessary, 
but far from sufficient, efforts to protect themselves, that 
this syndicate, this network of terrorism has to be addressed, 
that whatever the utility of any of these groups might have 
been in the past, they have morphed into a form that poses a 
threat to the Pakistani Government.
    And this is an argument that, I think, takes time to make. 
It is certainly an argument each of us, plus others, have 
carried repeatedly, and will continue to do so. But, there is a 
great gulf of mistrust. Secretary Gates can speak very 
eloquently, since he was involved, in the 1980s, in working 
with the Pakistani Government to put together the mujahideen 
that led to the overthrow of the Soviet Union, but which the 
Pakistanis feel like we then walked away from helping them cope 
with. And they accommodated themselves, they went into survival 
mode, and maybe even saw some certain advantages flowing from 
those relationships, advantages that they were kind of making 
lemonade out of lemons in order to obtain.
    So, I think your analysis is right, but we're dealing with 
a sovereign country that has a very clear idea of who they 
think their overall enemy is--namely, India--but who has slowly 
been convinced, because of what's happened inside their own 
territory, that they have to take action. And I think that that 
will continue to lead to positive steps.
    Senator Lugar. Thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you so much, Mr. Chairman.
    It is an honor to have this distinguished panel of 
witnesses here today. I am pleased that the President has set a 
goal for when we will begin reducing troop levels; however, I 
am disappointed that he's decided to escalate our military 
presence and did not give any goal or timeframe for when our 
massive military operations in Afghanistan will actually end. I 
do not support the decision to prolong and expand a risky and 
unsustainable strategy in the region. And, while I support 
ongoing civilian engagement in Afghanistan and counterterrorism 
efforts in the region, I do not believe more American lives 
should be risked for a war that no longer serves our most 
pressing national security interests. We must promptly 
transition to a sustainable, targeted counterterrorism strategy 
for the region and the world, one that is as agile and global 
as the enemy we confront: al-Qaeda.
    So, rather than focusing so much of our attention and 
resources on Afghanistan, I think we need a comprehensive, 
global strategy that divides al-Qaeda from populations that 
have principally local grievances. We need to improve our 
intelligence capabilities, build partnerships with legitimate 
local partners, and, if appropriate, utilize targeted tactical 
operations.
    Secretary Gates, you have argued that we must continue to 
pour our resources into Afghanistan or it would be perceived as 
a victory by al-Qaeda. And I have to say, I am somewhat less 
concerned about the ``perception'' of victory and more focused 
on actually defeating al-Qaeda for real.
    I think the best way to do that is to recognize that we're 
dealing, as you have recognized, with a global enemy with a 
very limited presence in Afghanistan. Al-Qaeda's stated 
objective is to bankrupt the United States. So, I guess my 
first question is, Do you at least acknowledge that investing 
over $100 billion in just one country, in 1 year alone, risks 
degrading our long-term ability to relentlessly pursue al-Qaeda 
around the globe?
    Secretary Gates.
    Secretary Gates. Well, I think, first of all, just for 
clarity, the costs that we are looking at for fiscal year 2010 
for both the wars, in Iraq and Afghanistan, will be about $20 
billion less than we spent in 2008. And I realize that's small 
comfort, given how much we spent in 2008. But, I think the--I 
go back to the chairman's comment, What are the consequences, 
what are the costs, of Taliban being able to control space in 
Afghanistan, and on the Pakistani side of the border, that 
gives al-Qaeda the ability to reconstitute itself and perhaps 
provoke a war between India and Pakistan or get access to 
nuclear weapons from Pakistan?
    Senator Feingold. Mr. Secretary, I understand that that's 
your view of not doing something. But, my question is, Once we 
spend this $100 billion, what are the consequences for our 
resources in all the other places that we're talking about 
here?
    Secretary Gates. Well, I think----
    Senator Feingold. That there's another side to this.
    Secretary Gates [continuing]. I think that we have, 
frankly, adequately resourced the effort to go after terrorism 
on a global basis. We certainly have had successful operations, 
some of which have been in the newspapers, and we are devoting 
a lot of effort, and have received resources from the Congress, 
to the kind of partnering that you have described, in terms of 
trying to root out these terrorist organizations.
    I will tell you, having come back to government after being 
gone for 13 or 14 years, the improvement in the quality of our 
intelligence, in terms of being able to go after terrorists, 
and in the depth of our intelligence liaison relationships with 
other countries, is a world apart from what I saw in 1993, when 
I retired. So, we have made, I think, good investments, and 
these investments continue, in terms of going after the global 
threat. But, it's important to recognize where the home nest 
is, and to deal with that, as well.
    Senator Feingold. Well, I appreciate that. I question 
whether we're adequately resourcing some other critical places 
around the world that I've spent a fair amount of time 
studying. I won't get into the specifics of it, but it's 
something we can discuss in the future.
    Admiral Mullen, in his assessment, General McChrystal 
stated that even a ``properly resourced'' military strategy 
would still leave large swaths of Afghanistan outside 
government control. Indeed, as we've increased levels of troops 
in the south, attacks have grown more deadly in the north.
    What are the chances that an increase in troop levels will 
only push militants into different regions?
    Admiral Mullen. Senator Feingold, the principal threat, I 
think, will continue to remain in the south and in the east. We 
recognize, in the north, over the last year or so, that it has 
gotten more difficult. But, General McChrystal is confident 
that the spread, if you will, there--and also, to some degree, 
to the west, although not really significant at this point--can 
be handled by our NATO forces. And, in fact, the NATO forces 
that--we have expectations for receiving additional NATO forces 
here, commitments in the near future, to address that. His main 
effort is in the south. That really is where he will focus most 
of his troops, supported by his efforts in the east. And then, 
that really gets to the most critical areas, from a Pashtun 
standpoint, from a border standpoint. And the intent of this 
strategy--and his, certainly, to support it--is not to do 
counterinsurgency all over the country. We don't see it growing 
to a point, at this point, where it would turn into something 
equal to the kind of threat that we have and see in the south 
and in the east, up north.
    Senator Feingold. Admiral, several witnesses testified 
before this committee that the majority of people we're 
currently fighting in Afghanistan do not have an international 
terrorist agenda, but, rather, ``tend to coalesce against what 
is perceived as an outsider.'' And one former CIA station chief 
in Islamabad has testified that if we send 40,000 additional 
troops to Afghanistan, it would only produce 40,000 additional 
militants. Actually, I'd like both you and Secretary Clinton to 
answer this. Is there a danger that our current strategy has 
provoked greater militancy and has thereby made it harder for 
us to isolate members of al-Qaeda?
    Admiral Mullen. We haven't seen this. I think General 
McChrystal said, not too long after he got there--and this gets 
to the whole occupation issue--we know we're not an occupying 
force. Obviously, our actions need to support our intent with 
respect to that, which is very clear. But, the Afghans that we 
engage with are much more concerned with what we do with our 
forces, as opposed to how many they are. McChrystal has shifted 
the focus to secure them--population security for them. That's 
what they seek more than anything else right now. So, we 
certainly--while I recognize that, particularly because of 
history, we haven't seen that extensively, nor have we seen an 
extensive generation of additional militants, per se, although 
that is a concern. And we're looking to get as many of them off 
the battlefield, in this new strategy, as possible, as well, 
with respect--by reconciliation, reintegration, et cetera. But, 
that's got to happen through security--better security.
    Senator Feingold. Thank you, Admiral.
    Madam Secretary.
    Secretary Clinton. Senator, I would just add three points.
    One, General McChrystal significantly changed the way that 
our military forces and NATO ISAF conduct themselves with 
respect to the civilian population. He significantly tightened 
the rules for air support for any kind of combat in order to 
limit the number of civilian casualties. And he also issued 
orders concerning nighttime raids, particularly with the use of 
dogs. When I was in Afghanistan, I had a number of people tell 
us that made a huge difference.
    Second, in every reliable research that I have access to, 
there is no appetite for the return of the Taliban, whatsoever. 
What we have seen an increase in, over the last several years, 
has been more hedging that people are understandably nervous 
about, ``What's the outcome, and whose side should I and my 
family end up on?''
    But, there is no appetite for the return of the Taliban, 
and we do not see what is a legitimate concern to keep in mind, 
the potential reaction that would lead to increased insurgents.
    We also know that a lot of the people who are in the 
Taliban do not share the overall goal, which has morphed. You 
know, the Omar--the Mullah Omar core group that heads the 
Afghan Taliban and is closely allied with al-Qaeda has morphed 
into, not just a nationalistic Islamist group, but now kind of 
buying into this caliphate idea.
    And therefore, a lot of the people who have been 
conscripted, in effect, into service on behalf of the Taliban 
have no real allegiance. So, part of the challenge here--and 
it's something that we are working on with President Karzai; 
obviously, we have a whole team embedded in NATO ISAF under 
retired British general, General Lamb, who had played a major 
role in Iraq, with the Sons of Iraq in The Awakening, is to 
begin to do a much more thoughtful job to separate out--I mean, 
the Taliban are a homegrown entity. The Talib, the students, 
you know, they rose up, in part, against the oppression of the 
Soviet regime, the chaos of the warlord era, and a desire to 
have an Islamist state that imposed shariah order, et cetera. 
So, we know that there is an opportunity for those who renounce 
al-Qaeda violence, et cetera, to be reintegrated and to play a 
part in the political system. Now, we might not like their 
political agenda. I'll just put that on the table. You know, 
Senator Boxer and Senator Shaheen and I would not particularly 
be enthusiastic about a nonviolent, peaceful Taliban political 
movement that legitimately played within the democracy. But, 
you know, there is that possibility that I think we have to 
recognize, if they do move into reintegration.
    Senator Feingold. Well, my time's up, but I just want to 
say, Madam Secretary, thank you for a thoughtful answer. I'm 
sure you'd agree that it's at our peril that we minimize the 
potential feelings of the Afghan people for an extended 
presence there. I know you're aware of that, but we have to be 
so careful not to minimize the importance of that.
    I thank the Chair.
    The Chairman. Thank you, Senator Feingold.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And thank each of you for your service. I very much respect 
the positions that each of you hold, and realize that there are 
no easy answers. I know this has been very complex, and I know 
it's very agonizing to come before panels like this when you're 
part of the administration.
    I do hope--and I see the chairman has left--but, since this 
is so Pakistan-centric, I hope that Ann Patterson--I know she's 
here--will be made available and we will have hearings with her 
and others involved in Pakistan, maybe Petraeus. My 
understanding is, we're trying to set up McChrystal and 
Eikenberry this next week. Is that correct?
    Secretary Clinton. Senator Corker, that is correct. And we 
would certainly make any witness available. We might want to 
suggest that you plan a short public hearing and a longer 
classified hearing. I think that would be very useful to get at 
a lot of the issues that both Senator Lugar and Chairman Kerry 
have raised.
    Senator Corker. Well, I think if we're going to have the 
classified briefing, which would be great, the station chief in 
Pakistan would be very beneficial. But, you all can make those 
decisions. I hope at least we'll have a public hearing with Ann 
Patterson, who is an outstanding ambassador and certainly knows 
what's happening in that area.
    You can't help but be in Afghanistan and know that part of 
what is driving what we're doing there is just the inertia, the 
fact that we're there and we're loathe to leave before success, 
whatever that means, and the fact that we're trying to prove to 
Pakistan and Afghanistan citizens that we're real friends. So, 
my point is, is that much of what you all have said, no doubt, 
is true, but there's an underlying current that creates an 
inertia, I think, for us to be there. And I know a lot of 
comments have been made about the fact that it's very clear 
what we're doing now, and maybe we weren't clear in the past. 
And there's no doubt we were not clear in the past.
    I would say that I still--I have average intelligence, and 
I think it's still pretty unclear to me what we're doing. I 
know, last March the President announced a more narrowed 
mission, supposedly. It was evident to me it was anything but a 
more narrowed mission.
    I know, on September 22, General Jones came in and 
created--showed us the metrics that are being used to measure 
what's happening. I know the chairman was present. It was very 
evident--and I don't mean to be pejorative--but we were nation-
building in Afghanistan. The metrics very much lay out a 
nation-building in Afghanistan. Richard Holbrooke has got a 
whole team of people that--he would call it ``rebuilding a 
nation,'' because he certainly goes back in history to the 
times when Afghanistan was more of a functioning country. But, 
my point is, it--you know, look, there's no question that the 
metrics laid out in September were nation-building.
    I met with Secretary Gates, who I greatly respect, at the 
Pentagon, and we talked about a partial nation-building, and 
now we talk about, you know, coming home in 18 months, with our 
troops--I realize civilians will stay after that point in time, 
and I realize that the coming-home part, based on testimony 
yesterday, was really just a throwaway comment to sort of 
appease people who are concerned about the buildup.
    So, to me, it's really not clear. And I think that the 
American people, who are going to be--the civilian side, in 
particular, is going to be, for decades--the whole budget of 
Afghanistan today is about $890 million. The 400,000 security 
troops we're talking about are about $10 billion a year. And 
I'm wondering, Madam Secretary, whether it would make sense to 
really lay out clearly what all of this means, from the 
standpoint of support for the next several decades, the amount 
of civilian activity, and just from the standpoint of security, 
what we really anticipate doing, over time? I know, in 18 
months, the buildup, securitywise, is going to be lesser than 
400,000, but I know, over time, at least--unless it's changed 
again--that has been our goal, between Afghan police and army.
    So, I would say to you that it's been very unclear, and 
it's been like a sine wave, over the last 9 months, as to what 
we're actually doing there. So, I'd love some edification.
    Secretary Clinton. Well, Senator Corker, I'll do my best, 
and then perhaps I could bring in some reinforcements, here, on 
either side of me.
    First, let me just provide the context, the best I can. In 
our view, looking back, we never adequately resourced the 
mission in Afghanistan. That's just a fact. And I think this 
committee's work and reports certainly give a lot of credence 
and support to that view.
    There were, basically, 30,000 troops for a number of years, 
with an additional, you know, 30-40,000 NATO troops, and we 
didn't really have the kind of commitment that we were needing.
    We also transferred a lot of the assets that should have 
been used to support the troops we had in Afghanistan to Iraq. 
That's just a fact, as well.
    So, when the President took office, there were backed-up 
requests for additional troops, that had been in the pipeline. 
And I personally know several of the people who were commanders 
on the ground in Afghanistan, going back to 2001; there were 
always additional troop requests, which, because of the move 
toward Iraq, were never given what was requested. So, that's 
part of the history.
    There was a pending troop request that the Bush 
administration--and Secretary Gates can speak to this--looked 
on favorably as they were going out the door, of 17,000 troops, 
and then a request they left for President Obama of 21,000.
    And so, right out of the bat, the President's, you know, 
given a--what is a 38,000-troop request, and he orders a very 
quick study, that Bruce Riedel, a very experienced intelligence 
professional, headed up, along with Richard Holbrooke and 
Michelle Flournoy, from the Defense Department. And, as the 
President said when he made the announcement back in March, 
``We're going to go forward with these troops. They've been 
pending. There seems to be an argument for them. Our goal is to 
disrupt, dismantle, and defeat
al-Qaeda. We are changing commanders, something that is rare to 
do. But, we're going to look at this again as soon as the 
election's over,'' because the election season in Afghanistan 
was taking hold.
    Well, that's exactly what we've done. Unfortunately, the 
election lasted a very long time, until, thanks to Chairman 
Kerry, we finally began to bring it to a conclusion.
    So, I don't blame you, and I don't blame anybody, for 
wondering, you know, where we are, because of the history we 
inherited and our effort to, frankly, make sense and 
rationalize what was happening, and to put it into an 
integrated civilian-military strategy. One of the first things 
President Karzai said to me, when I saw him Kabul, was, ``I'm 
confused.'' You know, and he's talked about how he said, ``I 
understood what we were supposed to be doing from 2001 to 2005. 
It was the war on terror. And then all of a sudden I started 
hearing people in your government saying we didn't need to kill 
bin Laden and Mullah Omar, and I didn't know what that meant.'' 
Well--so, there's been some confusion, which, frankly, this 
administration has been trying to sort through. And we think 
we've got it about as right as you get it, given where we 
started from.
    There is no doubt that putting these additional troops in, 
in our mind, is necessary to reverse the momentum of the 
Taliban, to demonstrate clearly to both the Afghans and the 
Pakistanis that we are serious about our resolve to work with 
them to try to stabilize their two countries, improve their 
security situation, and that we know it cannot be just a 
military undertaking; that's why we're emphasizing the civilian 
side of it.
    So, ultimately, Senator, we are going to have to maintain 
civilian support for Afghanistan and Pakistan, going forward. 
We think that's in our national interest, to do so.
    But, I just want to make one final point. The July 2011 
date is the date on which we begin to transfer authority and 
responsibility to Afghan security forces. Now, what we have 
tried to demonstrate is that the pace, the size of the drawdown 
is going to be determined in a responsible manner, based on the 
conditions that exist at the time. And if things are going 
well, a larger number of forces will be transitioned out, and 
the Afghans will be expected to take on greater responsibility. 
So, it is not contradictory to set a date certain, yet to 
condition it on the reality that we confront at that time.
    Secretary Gates. Let me just say a word. I know that--time 
to move on. But, first of all, one of my concerns, coming out 
of the decisions in March was that it was clear they were 
interpreted as providing for full-scale nation-building and 
creating a strong central government in Afghanistan----
    Senator Corker. As were the metrics.
    Secretary Gates [continuing]. Neither of which is 
achievable in any realistic timeframe, or sustainable, given 
the costs and everything else.
    So, I would describe, in just a few sentences, what I 
believe our strategy is today, what these decisions represent. 
It is to reverse the momentum of the Taliban. It is to deny 
them control of territory in Afghanistan. It is to degrade 
their military capabilities and, at the same time, grow and 
strengthen the capabilities of the Afghan National Security 
Forces so that they can manage the internal security of their 
own country because they're dealing with better capabilities on 
their side and degraded capabilities on the Taliban side. This 
allows us to pull the bulk of our combat troops out and return, 
in terms that--as Senator Feingold put it, to more of a 
counterterrorism mission, because we don't have to worry about 
the security situation inside Afghanistan. You cannot do pure 
counterterrorism unless you have a government, or provincial 
and local governments, that create a hostile environment for 
the Taliban and that allow us to gather the information and 
intelligence that we need to do the counterterrorism.
    The Chairman. Thank you very much.
    Senator Corker. Mr. Chairman, I--you stepped out for a 
second.
    The Chairman. No, I heard that, and I'm happy to--happy to 
do that.
    Senator Corker. Are we going to have a second round, just--
are we planning to do that or----
    The Chairman. If we have time, we will try. Let's see where 
we are.
    Senator Corker. OK.
    The Chairman. I'd like to do a second round, if they are 
able to, but we have a time constraint. We'll see what we can 
do.
    Senator Boxer.
    Senator Boxer. Thank you very much.
    And thank you, all of you, for your dedicated service to 
our Nation. We all appreciate it.
    In 2001, every Senator voted to go against those who 
attacked us using Afghanistan as the base. And President Bush, 
in a lot of our views, turned away from Afghanistan, clearly, 
toward a disastrous Iraq war. And many of us repeatedly urged 
an end to that war and a refocus on Afghanistan. Well, here we 
are, many years later, and Secretary Clinton is explaining the 
results of that neglect.
    So, 5 months ago, after our President asked for 21,000 
additional troops for Afghanistan, I supported that request. It 
wasn't easy for me, but I felt it was important to give him 
that chance to refocus. We also included funding for the women 
in Afghanistan, who have borne the brunt of the Taliban.
    The President said when he announced his Afghanistan 
strategy, that he needed those 21,000 troops--now, this is just 
months ago--to, ``take the fight to the Taliban in the south 
and the east, and give greater capacity to partner and train 
with Afghan security forces.'' That's what he's saying again 
now. I agree with that mission.
    So, I voted. We sent 21,000 more troops. And here's the 
thing. We're told, since we sent those troops, that the 
situation has deteriorated. And I would like to put into the 
record an interview with General McChrystal in which, 
basically, he said, ``The Taliban--the fight against the 
Taliban has gone downhill.'' And that was since the 21,000 
troops were sent.
    [The article referred to follows:]

             [From the New York Daily News, Sept. 25, 2009]

         Gen. McChrystal: Violence in Afghanistan Getting Worse

                           (By Richard Sisk)

    Washington.--The top U.S. commander in Afghanistan has admitted he 
was blindsided by the Taliban's comeback this summer in the bloodiest 
fighting of the eight-year war.
    ``I think that in some areas that the breadth of the violence, the 
geographic spread of violence, is a little more than I would have 
gathered,'' Army Gen. Stanley McChrystal said in a CBS ``60 Minutes'' 
interview to be broadcast Sunday.
    Despite the influx of 22,000 troops, bringing U.S. troop levels to 
68,000, McChrystal said the battle against the Taliban has gone 
downhill since he took command in June.
    ``They're probably a little worse,'' he said of conditions on the 
ground.
    McChrystal said his focus was on limiting ``collateral damage'' to 
civilians.
    ``This civilian casualty issue is much more important that I even 
realized,'' McChrystal said. ``It is literally how we lose the war, or 
in many ways how we win it.''
    McChrystal's recent gloomy report on the status of the war and his 
pending request for more troops has touched off a fierce debate within 
the Obama administration, pitting supporters of the military against 
those favoring a more limited response targeting Al Qaeda in Pakistan.
    The debate prompted McChrystal to tell the New York Times this 
week, ''I have no intention of resigning.''

    Senator Boxer. So, I would ask you, Why did the situation 
get worse in Afghanistan after we sent 21,000 more troops? And 
I guess I'd start with Secretary Gates.
    Secretary Gates. Well, first of all, the full number of 
troops that the President authorized did not actually 
ultimately arrive in Afghanistan until late in the summer, 
early fall. The Marines arrived in southern Helmand in July. 
And, in fact, the reporting that we're getting is that things 
have begun to get better in southern Helmand, where the Marines 
are. So, part of it has been a--first of all, it's been--I 
think, when General McChrystal did his assessment, it was 
really, at least as far as I'm concerned, the first 
thoroughgoing assessment in the field on how things were going 
since I became Secretary, in December 2006. And I think what 
General McChrystal found, through doing that assessment and 
traveling all over the country and looking at the situation, 
was, as you just cited, that the situation was serious and 
deteriorating.
    We got his report in late August, and, as you know, we've 
had this dialogue and effort inside the administration to 
determine what to do on the basis of that assessment. But, 
fundamentally, where the troops have arrived, the situation has 
stabilized, and in some cases gotten better. And what General 
McChrystal basically has said, that to stabilize the other 
areas, these additional forces are necessary.
    And maybe, Admiral Mullen would like to add.
    Senator Boxer. Well, before he does--and I will, of course, 
turn to Admiral Mullen--I just want to put in the record a GAO 
study that shows that, as we added more troops, the violence 
actually escalated.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Boxer. And this interview by General McChrystal was 
at the very end of September.
    So, Admiral, here's what I'm getting at. You know, I voted, 
with reluctance, because I believed more troops would help our 
situation. We added the troops. The violence got worse.
    Now we're being told we should add more troops. And I guess 
what I'm asking you is, How can we now leap to the conclusion 
that more troops will mean less violence, when the opposite 
seems to have occurred?
    Admiral Mullen. Ma'am, General McChrystal's assessment--and 
I agree with the Secretary of Defense, that it really was the 
first thorough, comprehensive assessment that I've seen from a 
commander, one. Two is, we've talked about underresourcing this 
campaign, for a long time, for a good 4 or 5 years, seen the 
insurgency just get worse. Particularly starting in 2006, it's 
been very evident we couldn't resource it and get the troops 
there, because of----
    Senator Boxer. OK.
    Admiral Mullen [continuing]. Our commitments to Iraq.
    Senator Boxer. OK.
    Admiral Mullen. So, it's where we found ourselves. And I 
think the strategy that the President laid out in March, 
significant in many ways, focused on the region, not just on 
Afghanistan--Afghanistan, Pakistan, and India, specifically.
    I've argued, and certainly it has occurred, many months 
ago, that we need to have a national debate and discussion 
about this, because I think that's been lacking, because of our 
focus on what was the top priority for all of us, as directed 
by President Bush. So, we're all learning as we go. I wanted--
--
    Senator Boxer. I wanted to follow it up and ask you, as 
you're explaining this, to consider this information. As I see 
it--and I know this is correct, unless you disagree--that we 
have, now, 68,000 American troops on the ground. There's 36,231 
NATO troops. That's 104,231. There's roughly 94,000 Afghan 
troops. And we won't count the 93,000 Afghan police, so we'll 
leave that aside. That's roughly 200,000 versus 22,000 Taliban 
and 100 Qaeda. So, my concern is--and this is why I interrupted 
you, just to focus on this--it doesn't seem to me to be a 
question of the numbers of troops. It's hard to say that 
200,000 versus 22,000 is that different than 230,000 versus 
22,000. It's the mission. And I guess what I'm sort of trying 
to probe here is, How are we going to change the mission from 
what President Obama outlined when I gave him my vote for the 
21,000 troops?--which seems to me the same mission he's talking 
about now.
    Admiral Mullen. Three quick thoughts. One is, as we add 
more troops and face this growing insurgency, the level of 
violence is going to go up. It did in Iraq, in the surge; it 
will do that here, as well, and, I want to be very clear, that 
a very, certainly, tragic part of this, so will our casualties. 
That should not be out of the sight of anybody with respect to 
this over a period of time. But, it is the path to, actually, 
reduced number of casualties and a lower level of violence, 
first of all.
    Second, McChrystal has changed the focus specifically to 
focus on the key population centers. Secretary Clinton talked 
about reducing the number of civilian casualties. Complete 
change in focus, from a leadership perspective.
    Third, he's changed, dramatically, how we partner with the 
Afghan security forces, which we weren't doing before. We were 
mentoring them, training them. Now we're in the field with 
them, planning, living, fighting, et cetera.
    So, those are fundamental shifts to get at achieving the 
success that I think is possible with these additional forces.
    Senator Boxer. OK. I really appreciate--that's the best 
argument I've heard, but I still have tremendous doubts about 
the numbers. I just think the objectives you've outlined we 
ought to try to accomplish--with the numbers that are there.
    Last question has to do with our forces, who are incredibly 
stressed. I know, Secretary Gates----
    The Chairman. Actually, Senator----
    Senator Boxer. This is the last question. Divorce is up, 
suicide's up, and psychological wounds are on the rise. So, my 
quick question is--we know some of our men and women have been 
deployed six or seven times. Are you confident, Secretary 
Gates, that we're no longer deploying servicemembers who are 
currently struggling with significant mental health problems 
from their prior tours?
    Secretary Gates. I think the only thing I can say in 
response to that is, we are making every effort not do that. We 
have put in place some very intensive screening processes. We 
have hired an enormous number of mental health care providers. 
We are trying to do everything we can to identify those who 
have problems, to encourage those who have problems to come 
forward and get treatment. The Army leadership, in particular, 
has been very aggressive in this area. Can I say with certainty 
that we're not deploying somebody who has severe problems? No. 
But, I can tell you we're making every effort to avoid doing 
so.
    Senator Boxer. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    And thank you for coming here today and helping and being 
engaged in this national dialogue on this important issue that 
we really need to do. I view this, really, not as a Republican 
problem or a Democrat problem; this is an American problem. 
After all, we were all Americans before we were Republicans or 
Democrats. And as polarized as this country is politically, 
this is an issue that we really, really all need to pull 
together on. And I appreciate you coming here and engaging in 
this conversation.
    Regarding the President's recent announcement on strategy, 
I think that obviously he had choices, as the Commander in 
Chief. And I think anyone who knows anything about this issue 
has to be--has to have empathy for what he went through in 
making this decision.
    This is a problem that one could characterize only as a 
Rubik's Cube on steroids. I mean, it is--it has so many facets, 
it's--it is difficult to wrestle with. And the conclusion one 
reaches quickly is that there are no good choices, there are 
only choices to be made that would be in the best interests of 
the American people.
    Secretary Clinton observed that we don't hear much about 
positives from there. And that is true. And obviously, the 
media is much more interested in the negative than the 
positive. But, you know, our objective, when we went into 
Afghanistan--and I think everyone would agree with this--was to 
get al-Qaeda, to stop
al-Qaeda, to squelch al-Qaeda. And that objective really has 
been met. We have run al-Qaeda out of Afghanistan. 
Unfortunately, the Taliban remain. And that--the relationship 
that Secretary Clinton described between al-Qaeda and the 
Taliban complicates the issue tremendously.
    And the difficulty that we hear, of course, is that al-
Qaeda has now migrated into western Pakistan, and there is a 
slow drip, if you would, of those people migrating into Yemen 
and Somalia, which is going to cause us a problem in the 
future, I would think.
    But, in any event, I think that's a positive that we should 
look at, and the fact that we have driven al-Qaeda out of 
Afghanistan, but we have to remain--we have to deal with what's 
left over.
    This is a question that I have, hopefully a brief question. 
As we build up now in Afghanistan, as the President has said 
we're going to do, and you look at what has happened in Iraq, 
whether you agree or disagree with whether we went there--
whether we should have gone there in the first place or whether 
the surge was good or bad, things seem to be generally better 
in Iraq today than what they've been.
    When you went through this exercise, was any consideration 
given to stepping up the drawdown in Iraq as we build up more 
quickly in Afghanistan? That is, did you consider stepping up 
the schedule for withdrawal from Iraq? Could I get a brief 
answer on that?
    Secretary Gates. The answer is ``No.'' General Odierno has 
a plan, in terms of the drawdown, to get our combat forces out 
of Iraq by the end of August 2010, and all of our forces out by 
the end of 2011. He has found that the conditions, the improved 
conditions that you referred to, in Iraq have allowed for the 
early withdrawal of at least one brigade; but, that was based 
on the decisions--on the situation in Iraq itself. So, there 
really--in none of our discussions, either in the Pentagon or 
in the interagency, was there a discussion of accelerating the 
drawdowns in Iraq.
    Senator Risch. Thank you.
    Admiral Mullen. If I could just add to that. In addition to 
the brigade, General Odierno has been very aware of the 
requirements for some of the key things--smaller forces, 
enabling forces--that he has agreed to transfer into 
Afghanistan. So, he's been very supportive of this overall 
approach, albeit very consistent with what the Secretary said, 
in terms of interagency consideration.
    Senator Risch. Thank you. And I'd encourage that we keep an 
eye on that, and anything that can be done to accelerate that, 
I think would be beneficial to everyone.
    Secretary Clinton, you articulated, about as well as I've 
heard, trying to thread the needle on the business of our 
commitment. I heard you use the word ``commitment.'' I heard 
you use the term ``long haul.'' And those are at odds with a 
date. And that's a difficult needle to thread, because those 
people have got to be convinced that we do have a commitment, 
that we're there for the long haul, and yet, we say ``July 
2011.'' Well, you know, we really need to be clear on this, 
because the enemy is going to take their calendar out, they're 
going to circle ``July of 2011,'' and say, ``Well, you know, 
just like America, we are going to reevaluate, at that point, 
whether we're going to step down until then and gear up at that 
point.''
    So, I--and again, I know it's a difficult needle to thread, 
because the American people, including myself, want to see 
success, they want to see us out of Afghanistan. And yet, at 
the same time, the people there have got to be convinced that 
somehow we are going to protect them if they cooperate with us.
    So, I--and I--with all due respect--and I don't mean this, 
maybe, the way it's going to sound, but I heard--Secretary 
Gates, I heard you talk about ``a target'' yesterday, when you 
were talking about July 2011. And yet, the impression I got 
from the President was, it isn't a target as much as a hard 
date for starting to drawdown. And those two things are very 
difficult to reconcile. So, again, I'm being critical, here, 
without an answer, but that is a difficult needle to thread, 
but you're going to have to do it.
    Secretary Gates. Let me just start, briefly, by saying that 
I think, through the course of the questioning yesterday, what 
I was trying to make clear is that the date of July 2011 to 
begin thinning our forces and transitioning the security 
responsibilities to the Afghans is a firm date that the 
President has established, but the pace of that drawdown, the 
location of the drawdown, and so on, will be conditions-based 
and, to use his words, a responsible drawdown, as we have done 
in Iraq. But, there should be--as I said in my opening 
statement, and as Secretary Clinton just said a few minutes 
ago, July 2011 is the time that the President has picked when 
we have to begin drawing down.
    Now, let me just reiterate the balancing act that we've--
the balance that we've tried to establish here. We are sending 
a signal of significant, I think, commitment to be successful 
in Afghanistan, with the deployment of these additional forces. 
But, at the same time--and I--and as I said yesterday, one of 
the things that became clear at the end of the surge in Iraq 
was that the Iraqis wanted us out of the country as quickly as 
possible. That is not necessarily the case in Afghanistan. They 
live in a rough neighborhood, and our sense is, there are a 
number of Afghans that would like to have us hang around, and 
the United States Army and Marine Corps protect them for the 
indefinite future.
    So, one of the purposes of this date, an important element 
of this date, is to put the Afghans on notice that--and give 
them a sense of urgency that they must begin to accept their 
responsibility for their own security, and it's going to start 
then, because--so, they have to get their men recruited, get 
them trained, and get them into the field and into combat with 
us.
    So, it's a combination of sending a message of commitment, 
but, at the same time, putting the Afghans on notice that the 
time is coming when they are going to have to establish their 
own security--or, maintain their own security.
    Senator Risch. I couldn't agree with you more that the 
sense of urgency really seems to be lacking there, and they 
need to be--as the chairman had said earlier, that they really 
need to have a sense of urgency instilled in them. And they 
think in terms of centuries, we think in terms of months, so 
it's a difficult proposition.
    Thank you very much.
    Admiral Mullen. Senator, could I just add one comment to 
that? I mean, this date has also been described as arbitrary. 
It's not arbitrary at all. On the military side, we feel that 
that timeframe, between roughly July 2009, when the Marines 
arrive in Helmand, and into July 2011, we will know whether 
we're going to be successful or not. And so--and thinking that 
this is the--believing this is the right strategy and that we 
will be successful, we think that time of beginning the 
transfer of security responsibility and the transition is the 
right time. And then, again, that--responsibly and based on 
conditions. But, it was not an arbitrary date. It is the third 
year--third summer, if you will, that the Marines will be in 
Helmand, and we will have a clear indication from three 
seasons, if you will, at the heart of the fighting season 
there, that--which way this is going.
    Senator Risch. Thank you, Admiral.
    Senator Lugar [presiding]. Senator Menendez.
    Senator Menendez. Thank you.
    Thank you all for your service to our country. I think 
we're all--a debt of gratitude, especially at a most difficult 
time.
    You know, Admiral Mullen, I heard you say that the 
underresourcing of our engagement in Afghanistan over the last 
4 or 5 years has brought us to where we are today. So, that, to 
me, means that our adventure in Iraq has created a set of 
circumstances where we have underresourced our efforts in 
Afghanistan. Is that a fair comment?
    Admiral Mullen. The--as I indicated, I think, in my 
previous comments, clearly the priority and the direction I 
had, both as chairman and as the chief of a service, was to 
resource Iraq. And we were balancing deployments, balancing 
time at home, and we----
    Senator Menendez. So, you did not----
    Admiral Mullen [continuing]. Could not resource 
Afghanistan.
    Senator Menendez. So, you couldn't resource Iraq and 
resource Afghanistan as you needed to.
    Admiral Mullen. That's correct.
    Senator Menendez. Now, I look at this July 2011 date, and I 
see it as clearly aspirational. And I think we need to be 
honest with the American people. Can any of you tell me that, 
after July 2011, that we won't have tens of thousands of troops 
years after that date?
    Secretary Gates. I think that the President, and we, have 
been clear that July 2011 is the beginning of a process of 
drawing down in Afghanistan. That process will be based on the 
conditions on the ground. But, it--you know, the President is 
very--I think I can speak for him, and Secretary Clinton can 
correct me if I get it wrong--the President, throughout this 
process, was very concerned about an open-ended conflict, of 
just unending commitment of significant numbers of troops and 
dollars in this. And so, I think that, you know, he has not put 
deadlines, in terms of when our troops will all be out, but 
clearly he sees the--July 2011, as I said in my opening 
statement, an inflection point where we begin to draw down 
those forces in Afghanistan, and with a view to transferring 
this responsibility to the Afghans over a period of probably 2 
or 3 years.
    Senator Menendez. Mr. Secretary, I appreciate that, and 
you've reiterated it several times. Let me go back to my 
question.
    Can any of you tell this committee that, in fact, after 
July 2011, we won't have tens of thousands of troops for years 
after that date?
    Secretary Clinton. Well, Senator, I can tell you what the 
intention is. And the intention is----
    Senator Menendez. But, you--I don't--Madam Secretary, I 
don't want to hear what the intention is. I want to know, Can 
you tell the committee that there won't be tens of thousands of 
troops after July 2011, for years after that? It's unlikely, 
right? It's----
    Secretary Clinton. No, I----
    Senator Menendez [continuing]. Unlikely.
    Secretary Clinton. I can only answer the way that I am 
comfortable in giving you the best information available at the 
moment, and that is that there is a convergence of opinion 
between us and President Karzai in his second term. In his 
inaugural address, he said he wanted the responsibility, and 
would be prepared for the responsibility within 3 years, for 
Afghan control over many important parts of the country--right 
now, about 60 percent of the country is not contested--and 
within 5 years, the Afghans would be responsible for their 
entire security.
    So, that is his aspiration. It happens to be very much in 
line with what we want to see happen. There will be, starting 
in July 2011, troops withdrawn, based on conditions. Sitting 
here today, I would believe that we will be able to start the 
transition, as planned, in 2011. We also know that there will 
be, probably for the foreseeable future, a drawdown and 
transfer out of combat troops, but a request for continuing 
logistical support for the Afghan security force.
    So, you know, that is the kind of, you know, target that 
we're aiming at.
    Senator Menendez. Admiral Mullen, is it true that right now 
the Afghan Army only has about 10,000 soldiers that can operate 
without us being alongside them?
    Admiral Mullen. That's a--it is a small percentage, yes, 
sir.
    Senator Menendez. So, what we are talking about is a 
massive increase that we seek in the Afghan army, which 
presents a daunting obstacle, considering the fact that finding 
sufficient literate recruits, and reversing what is an abysmal 
retention rate, is a huge challenge. Something we haven't done 
in 8 years, we're going to do in 18 months. And a large 
national army also requires a strong and capable central 
government to command it, and clearly a permanent foreign 
subsidy.
    So, when I hear these dates, I believe that they are as 
solid as quicksand and, at best aspirational. And I appreciate 
the aspiration, but the reality is, as someone who has to cast 
a vote for that money that will be coming forth, I can't tell 
the people of New Jersey, or this country, that we are doing 
that clearly on aspirations. I think we need to be a lot more 
honest about our assessments.
    You know, I see--this is putting a lot of eggs in President 
Karzai, who has been there since 2001, first as a transitional 
President, and then as an elected President. And what has he 
presided over? He's presided over massive corruption, where, 
you know, anywhere between 20 or 40 percent seems to be the 
going rate of skimming off of the taxpayers' money; where 
members of his family and members of certain ministers' 
families ultimately seem to do very well in business 
transactions, they travel to some of the best places in the 
world, they have bank accounts overseas, outside Afghanistan--
and we want to say that we're really going to condition them? 
I'd like to see us condition their travel and their bank 
accounts to make sure that we're not going to see the continued 
corruption. That's a serious effort to have some type of 
control and say that we're not having a blank check.
    You know, I look at President Karzai, when he makes his 
speech about ``my brother Taliban''--well, maybe there will be 
a day of reconciliation, but first you've got to fight the 
Taliban before you get to the point of reconciliation, so that 
they understand there is a need for reconciliation.
    And so, it worries me that a lot of what we're putting our 
eggs in, here, is someone who doesn't even speak in the terms 
of fighting the enemy, and an Afghan police that is so rife 
with corruption and is cooperating with the Taliban.
    And then, I look at the disadvantage of having Karzai there 
if our national security is as you've defined it, as creating 
stability and creating an opportunity for the Afghan Government 
to ultimately have the space and the time to fulfill what is 
ultimately nation-building, we still will have the security 
issue as a concern if Karzai doesn't perform, 18 months from 
now. We still will have that security issue.
    So, as you've defined our national security interests, 
whether Karzai performs or not, we will be stuck in that set of 
circumstances. And that's a real problem.
    I don't get a sense we have a clear civilian counterpart. 
Even General McChrystal says, ``Who is my civilian 
counterpart?'' And do we really believe that 974 civilian 
personnel versus 100,000 troops is going to meet the civilian 
aspect of this?
    And finally, I get no sense that we have a Pakistan 
strategy. We have been talking about offering them a strategic 
relationship. They don't seem to want a strategic relationship. 
They want the money, they want the equipment, but, at the end 
of the day, they don't want a relationship that costs them too 
much. And it seems to me, the more we build up our troops in 
Afghanistan, the more reliant we become on the Pakistanis in a 
variety of ways.
    So, I just don't get the sense, at this point in time, of a 
comprehensive policy that says that I should vote for billions 
of dollars more to send our sons and daughters in harm's way in 
a way that we will ultimately succeed in our national security 
goals. I hope I can be convinced before that vote comes, but, 
as of right now, I'm not.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Do you want to convince him right 
now? [Laughter.]
    Secretary Clinton. I'll wait and do that, Mr. Chairman. 
We'll bring in more reinforcements.
    The Chairman. Thanks.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I--first of all, thank you to all of the witnesses for your 
service and commitment to the country. I know the last thing 
you want to talk about is July 2011, but I do want to try and 
focus on something.
    I've been very impressed, quite frankly, with what all of 
you said yesterday, in Armed Services and what you've said 
today. Admiral Mullen, I saw you this morning on FOX--with 
regard to this July 2011 date. Secretary Clinton, and I quote, 
said in her speech, ``Just as we have done in Iraq, we will 
execute this transition responsibly, taking into account the 
conditions on the ground.'' You have said today, Secretary 
Gates, that the goal is to ``clear, hold, build, and 
transfer,'' which is what we did in Iraq. We transferred 
authority; now the Iraqis are in control, and I think that's 
the goal all of us want in Afghanistan.
    The problem on the July 2011 date is the concern a lot of 
people have that there's one constituency we're not talking to 
yet. We're talking to the American people, who want to win and 
come home. That's what they want to do. We're talking to the 
Afghans and President Karzai about taking responsibility for 
their own country. ``The United States is not going to be your 
surrogate army, and we're not going to stay forever.'' And 
that's important. But, al-Qaeda and the Taliban are the other 
constituency, and this July 2011 date, if they interpret it as 
an end game for us, gives them some opportunity. So, I think 
statements like what you said, Secretary Clinton, about being 
determined by the outcome on the ground and the circumstances 
on the ground, and Admiral Mullen, you've been quite clear, and 
Secretary Gates, you said yesterday that the President has 
the--can change his mind anytime he wants to, based on the 
circumstances that take place.
    I'm not asking a question, but I'm going to tell you why 
the confusion still exists with some of us who are scared about 
sending the wrong signal. White House Press Secretary Gibbs, 
this morning, according to an article by Chip Reid of CBS News, 
in responding to a question about the July 2011 date, said the 
following, and I quote, ``The President told me it is locked 
in, there's no flexibility, troops will start coming home July 
2011, period. It's etched in stone. Gibbs said he even had the 
chisel.'' That type of statement is not helpful to that 
constituency, being al-Qaeda and the Taliban, who don't need to 
be encouraged that there's a tolerance level beyond which we 
won't go in this battle, because each of you said that this is 
the epicenter of Islamic terrorism. I believe that too. The 
intelligence that all of us have seen is that way. And as we 
speak to our constituencies, the Americans and the Afghans, 
we've got to also understand that we're talking to the Taliban 
and
al-Qaeda, and our resolve has to be there or the commitment 
we're making to these troops is not going to have the force 
behind it that it needs to have.
    So, I'm not asking you a question. I don't want to put you 
between Mr. Gibbs and yourselves and your excellent testimony 
today, but that is the open question that, to me, has to be 
dealt with in delivering the message. And I won't ask any of 
you to have to respond to that, but I think it's important.
    Two questions from me. On the Taliban and al-Qaeda, have 
we--are we tracking their source of arms? Do we know where 
they're getting their arms? You had referred, Admiral Mullen, 
to the skill level of the encounters we had had most recently 
with them, which tells me they have both the equipment and the 
leadership that they can fight a pretty doggone good battle. 
Where are they getting this from? Is it coming from Iran? Is it 
coming out of Pakistan? Is it a combination? Do we know?
    Admiral Mullen. The, probably, most significant threat that 
we see for our people is the IED network, that is growing in 
Afghanistan. And actually, an awful lot of that's homegrown. 
It's--there's not a lot coming in from the outside. Rather than 
specific arms, certainly financing, we're trying to pay 
attention to that, where they're getting their finances from. 
Some of it's coming from the opium piece, some of it's coming 
from the gulf, some of it's coming from the fact that they tax 
like crazy; you know, they tax all the locals. So, trying to 
impact that--and actually, we've put people in place to focus 
on this specifically in Afghanistan.
    So, from that standpoint, those are the focus areas, rather 
than the individual weapons. At least it's my experience in 
that part of the world, you don't run into anybody that doesn't 
have a weapon. It's a question of who they're going to use it 
against. It--so, from that standpoint, we're hard after that.
    Secretary Gates. Let me give you an example on the IEDs. 
The most devastating IEDs that are being used against our 
troops and against our MRAPs and so on, is based on ammonium 
nitrate, a fertilizer. It's illegal to have that fertilizer in 
Afghanistan, so there's clearly a smuggling network that is 
bringing in huge quantities of these. One of the IEDs that went 
off under one of our MRAPs and blew it in half was 1,500 pounds 
of this ammonium nitrate. And what they do is, basically, use 
as a triggering device mines that are left over from the Soviet 
era. So, there's a lot of stuff left over from a period when, 
frankly, some of us were involved in shipping a lot of arms 
into Afghanistan.
    Senator Isakson. Thank you for that answer.
    Secretary Gates, you and Secretary Clinton both. Secretary 
Clinton, I have your statement here about Afghanistan and 
Pakistan, you said, ``We'll develop a long-term sustainable 
relationship with Afghanistan and Pakistan so that we do not 
repeat the mistakes of the past.'' And I think, in your 
testimony, you refer to the mistakes of the past. Is that in 
the context of inconsistent engagement with Pakistan? Is that 
the mistake you were referring to?
    Secretary Gates. I think that the--it was really turning 
our backs on both Afghanistan and Pakistan. The Pakistanis--and 
it goes to a question that was asked earlier. I mean, the truth 
is, there is a great deal of mistrust on the part of the 
Pakistanis toward us. They believe we have abandoned them, or 
betrayed them, on several different occasions, only the most 
recent of which was in the late 1980s and early 1990s. And so, 
we have a lot of work to do in trying to convince them that 
we're not trying to take over their country, that we're not 
trying to take control of their nuclear weapons, and that we 
are actually interested in a long-term partnership with them. 
But, it is because--and I was Deputy National Security Advisor 
and then DCI at the time--you know, we were dealing with the 
collapse of the Soviet Union and the liberation of eastern 
Europe. I mean, it wasn't where we were twiddling our fingers--
twiddling our thumbs at the time, but the fact remains, the 
United States turned its back on Afghanistan.
    And the irony is--and I was talking to the House Foreign 
Affairs Committee about this yesterday--the irony is that 
Charlie Wilson, over there, who was so successful in getting 
money for CIA and--to give to the mujahideen, the weapons to 
beat the Soviets, after the Soviets left, tried to get money 
for the civil side on Afghanistan, and, where he was able to 
get hundreds of millions for the weapons, couldn't get very 
small amounts to try and build schools and so on. So, that was 
the mistake, in both countries.
    Senator Isakson. Thank you very much. Thank you again for 
your service to the country and your patience with the 
committee today.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to echo my sincere appreciation to all three of you 
for your service to our country. I have the greatest confidence 
in your abilities and your commitment, and I thank you for 
that. I know you're doing your best and that you're working 
together as a team.
    Secretary Gates, you pointed out that this is part of a 
coordinated strategy to deal with the epicenter of terrorism, 
which is in the Afghan-Pakistan border areas. I want to raise 
one other issue. You talked about external forces that are 
supporting the terrorist organizations and the recruitment 
strategies. Well, one of the strategies I thought the 
administration was pursuing was the closing of Guantanamo Bay, 
not only because it wasn't effective in what we are trying to 
accomplish, but also that it was a recruitment symbol for 
terrorist organizations. We've fallen behind on that. Can
you just comment briefly on whether we are still committed and
how important that is as part of our strategies on dealing with 
terrorists?
    Secretary Gates. We very much are committed to closing 
Guantanamo. We have very detailed plans on how to do that. We 
are, I think, in the final stages of selecting a facility, and 
we are, at the same time, in the process of identifying 
detainees that we believe can be transferred to other 
countries. I think there are about 215 detainees left; we've 
identified, I think, 116, at this point, that we think can be 
transferred.
    The President has every intention of doing this, and we 
will do it. The logistics--the--principally, the logistics of 
it have proved more complicated than----
    Senator Cardin. How important is this----
    Secretary Gates [continuing]. We anticipated, but I think 
we're about there.
    Senator Cardin. How important is this in regards to our 
strategies against terrorism?
    Secretary Gates. Well, one of the reasons why I articulated 
the opinion that we should close Guantanamo not long after I 
got this job, in--at the end of 2006, is because I--you know, 
the irony is, Guantanamo is probably the best prison in the 
world today--elliptical trainers, reading rooms, flat-screen 
TVs--and probably the most highly disciplined guard force in 
the world. But, it has a legacy. And what I said 3 years ago 
is, it bears a taint, and it is a recruiting tool for al-Qaeda 
and for other terrorists and Islamic extremists. So, I think 
that there is unanimity in the administration that we need to 
get this done, and, as soon as we can finalize the logistics, I 
think you'll see pretty quick progress after that.
    Senator Cardin. Well, let me say from the outset that I am 
unconvinced on the need for the additional troops. I have 
concerns about committing more Americans to this effort.
    First, let me get the number. The President has authorized 
30,000, but, as I understand it, that number could be more than 
30,000 when you talk about the backup support troops.
    Secretary Gates. During our discussions, one of the things 
that has--that I've tried to make clear consistently is that 
when you're looking ahead, it is impossible to foresee every 
need. And where I do not--where I have asked the President for 
some flexibility is in medics, in intelligence, surveillance, 
and reconnaissance, in counter-IED capabilities--in short--road 
clearance, engineers--those things associated with safeguarding 
the lives of our troops. And I have asked him for a modest 
amount of flexibility on that. And it's in the range of about 
10 percent of the 30,000. My hope is that I won't need to use 
much, if any, of it, but trying to look ahead a year or more, I 
felt that having some flexibility was important, particularly 
in terms of safeguarding our troops.
    Senator Cardin. I understand that. So, we are really 
looking at, potentially, 33,000 additional troops.
    Secretary Gates. Potentially.
    Senator Cardin. OK. Just so we get the number right.
    Now, with adding more troops, we raise the stakes. I want 
to talk about the benchmarks. You say the circumstances on the 
ground will dictate the withdrawal, the standdown of troops in 
July 2011. We have benchmarks that are currently being 
developed for Afghanistan. I would like to hear more specifics 
as to what would be the circumstances on the ground that would 
affect your recommendation on troop levels starting in July. 
Are we talking about the performance of the Afghan Government? 
Is that part of what we're looking at, with how they control 
the security of their country? Are we looking at the number of 
military that they have ready to stand up? Are we looking at 
the cooperation we've received from the international community 
as part of this? Are we looking at the activities of the 
Taliban, and specifically how much of the nation they control, 
or how many al-Qaeda are actually in Afghanistan? What--and I 
hope you can be specific--what are we looking for as far as the 
circumstances on the ground, so that Congress can at least 
carry out our responsibility in evaluating this request? Do we 
know what we're looking at 18 months from now, what 
expectations we can expect? And can you be specific on this? 
Any one of you.
    Admiral Mullen. Two of the highest-risk areas from my 
perspective with respect to this strategy. One is Karzai and 
his government. And I mean that down to the subdistrict level, 
not just in Kabul. And the other is the development of the 
Afghan security forces. And we've set annual targets, year-to-
year targets for that development, some of the reasons that 
have already been discussed here.
    But, with respect to the Karzai government, specifics: good 
ministers; good governors; anticorruption; local governance; is 
the money actually going to the people; are goods and services 
getting to the people in the villages; reintegration; 
reconciliation. ANSF, the annual targets that I talked about 
specifically, we've got to reduce the attrition rate, increase 
the retention rate, specifically; and then, they will 
transition to more security forces in the lead. Corruption, in 
particular, in the police--on the police side, which has been 
mentioned. International support. We expect offers. We need to 
see those and actually what they're doing on the ground, not 
just military, but civilian, as well. There are noncontributing 
nations--Japan being one, recently contributing--agreed to 
contribute up to--or, $5 billion to Afghanistan.
    Pakistan, shifting their strategic calculus. Do we see that 
happening? Because we've got to work with them to get at these 
safe havens for al-Qaeda.
    So, those are some of the--at the major level----
    Senator Cardin. Well, I would hope we could be more 
specific.
    Let me just challenge you on one criteria--the corruption 
of the Karzai government, which has been well documented. Does 
our strategy mean that if progress is not made, we reduce our 
troop levels quicker; or if progress is made, we keep more 
troops there? How does that translate to U.S. troops being in 
theater? Is it a positive sign for removing troops or a 
negative sign? Corruption.
    Secretary Clinton. Senator, what we're looking for is 
capacity and effectiveness. We believe that corruption is one 
of the reasons why the Karzai government has not developed the 
capacity it needs, nor has it been effective enough.
    I mean, I don't want anybody to think that we're trying to 
aim toward some zero-corruption standard in Afghanistan. I 
mean, that doesn't exist anywhere in the world, and 
particularly in that part of the world. But, what we do expect 
to see is a government that delivers more for the people, 
thereby obtaining the allegiance of more people in more parts 
of the country, that can support the effective ministers and 
the effective governors, especially where we need them. We each 
have experiences with different ministries that we think are 
quite competent and very professional--you know, the Defense 
Ministry, the Interior Ministry--increasingly, the Finance and 
the Education and the Agriculture Ministry.
    You know, I didn't have time to respond to Senator Menendez 
at the length and with the thoroughness that his long litany 
deserves, but this is not all a negative picture. And I think 
it's unfair--it's unfair to our efforts, it's unfair to the 
efforts of many people inside the Afghanistan Government who 
are truly making a positive difference in the performance that 
we would expect from a functioning government. We have to do a 
better job, in the international side, to coordinate our aid, 
to get more accountability for what we spend in Afghanistan. 
But, much of the corruption is fueled by the money that has 
poured into that country over the last 8 years, and it is 
corruption at every step along the way, not just in the palace, 
in Kabul. You know, when we are so dependent upon long supply 
lines, as we are in Afghanistan, where everything has to be 
imported, it's much more difficult than it was in Iraq, where 
we had Kuwait as a staging ground to go into Iraq. You offload 
a ship in Karachi, and by the time whatever it is--you know, 
muffins for our soldiers' breakfasts or anti-IED equipment--
gets to where we're headed, it goes through a lot of hands. And 
one of the major sources of funding for the Taliban is the 
protection money. That has nothing to do with President Karzai.
    So, I think we need a--we owe you a more careful unpacking 
of a lot of the concerns, and we will endeavor to provide that.
    Senator Cardin. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And I'd like to welcome all three of you again after our 
brief exchange yesterday. It's been interesting to hear how 
different committees approach the same situation. Welcome to 
the Foreign Relations Committee.
    I would like to say, first of all, that I think we have 
pretty broad agreement about the concerns that we are facing in 
Afghanistan. I mean, even among members who have been pretty 
vocal here today, the question really is to continue to examine 
the process that we are proposing in order to address those 
questions. And I think there have been some really excellent 
points made today by Senator Feingold, who talked about a 
concern that I've had for a number of years here, that we are 
losing our maneuverability. We did it in Iraq. We are in danger 
of, to a certain extent, losing it in Afghanistan as we face a 
threat to this country that has a high degree of mobility. And 
Senator Corker, I think, has made some really valid points. And 
you've heard, again and again, this question about timeline 
versus concept. And I'm going to mention something on that 
again.
    But, before I do, I want to just--Secretary Gates, I want 
to give you my view on something that you said, just to clarify 
my view for the record, when you said that, in your view, a lot 
of Afghanistans don't want us to leave, and that being one of 
the motivations behind putting some sort of a date on the 
beginning of the leaving process, I would say perhaps that's 
more true among people who are in the government than it is 
Afghanis, writ large. I would comment, there's an Asia 
Foundation survey, this year, which shows that 56 percent of 
those surveyed were sympathetic to antigovernment groups that 
used violence against us. And this is a country, as I mentioned 
yesterday, that has a long history of opposing any sort of 
foreign occupation. So, that's the other side of this.
    And I think there's some legitimacy in the concern that 
Senator Boxer mentioned, with level of violence that might be 
engendered by military presence in areas where there's a 
perception of occupation. And we discussed that yesterday. I 
won't go in it again today.
    But, I'd just like to lay out three basic thoughts here. 
One is, if we're talking about a stable, supportive 
Afghanistan, which is something that came up in testimony, it's 
very difficult--particularly if we're talking about being there 
long term, as, Secretary Clinton, you've mentioned--it's very 
difficult to do that without a stable, viable government of 
some sort. And I'm curious--and I've mentioned this a number of 
times before--about the process through which this government 
was formed. The constitution that formed this government, as a 
result of the Bonn Agreements, which, on paper, created a 
centralized system and there might be an adjustment needed, 
constitutionally or otherwise, that devolves some sort of power 
if, realistically, we're going to look at a stability in the 
provinces and above.
    And the second is, you can't grow a national army of 
400,000, including national police, without people who are 
willing to support that concept. And we're having a very 
difficult time in growing that. And I've not heard anything 
from the President, through yesterday to today--and, Admiral 
Mullen, I'd like your thoughts on this--with respect to where 
we are, in terms of meeting the goals that we announced, in 
terms of growing that national army.
    And then, third, you can't really talk about this timeline. 
This is probably one of the greatest difficulties of the way 
that this has been presented. It's very difficult to talk about 
a timeline for withdrawal without clearly laying out, in an 
affirmative way, what the conditions on the ground will be that 
will enable this process to begin. And we haven't really heard 
in these exchanges, from yesterday and today. What is this 
going to look like--not necessarily specifically, province by 
province, but what is this environment going to look like when 
this turnover can occur?
    So, those are the three questions that I would have. And, 
Secretary Clinton, I'd very much like to hear your views on the 
nature of this government and how we can operate there long 
term without addressing some way to perhaps change the 
constitution.
    Secretary Clinton. Well, Senator, I'll take No. 1; I think 
that maybe Admiral Mullen can take No. 2, and Secretary Gates 
can, you know, be our cleanup hitter.
    I think you raise a very profoundly important question, and 
it's something that I began discussing with President Karzai 
during my last visit. There has to be the decentralization of 
the--of government functions and authority that reflects the 
way the country actually operates. I think this has to be 
undertaken in a very clear process headed by--motivated by the 
interests of the Afghans themselves.
    I think the Bonn constitution, which was a credible effort, 
you know, made a number of assumptions that were at variance 
with both the past and the current reality within Afghanistan.
    So, this is a--this does seem to be a conversation that 
President Karzai is willing to engage in. There are certain 
redlines for him, as there would be for any President of a 
sovereign country. But, he was very open to it. Looking for 
ways to bring in some of the traditional decisionmaking 
processes, like the loya jirga, and make it a part of an 
ongoing governmental authority--there's a lot there that we 
should be looking at. And so, I think your suggestion is one 
that we will be talking to him further about.
    And just, finally, I think, too, that the way that the 
government currently functions is something that could not 
necessarily have been predicted 8 years ago at Bonn, but----
    Senator Webb. I would strongly agree with you on that, by 
the way. I think, in the context of 2001, it was an 
accomplishment to have achieved this constitution.
    Secretary Clinton. That's right. And so, now I think it is 
time to take stock, and there are many different ideas being 
discussed, and what we need is to make this an Afghan process--
I just want to reiterate and close with this--the last thing in 
the world we want is a bunch of international experts flying in 
to Kabul to tell the government and the people of Afghanistan, 
``Here's how you must, you know, construct your government.'' 
But, let's work together to get the lessons that have been 
learned, and then try to translate that.
    Senator Webb. The challenge would be for Karzai to 
understand that, in the long run, that would be in his self-
interest, I would say.
    Secretary Clinton. Well, not only that, it would be in the 
interest of his legacy.
    Senator Webb. And it's in the interest of the Afghan 
people. Yes.
    Secretary Clinton. You know, one of the--one of--I mean, 
one of the things that President Karzai has said to me is that, 
you know, his family--his family has fought for Afghanistan for 
300 years. I mean, he carries that sense of patriotism very 
close to his heart. Now, we may have different views about how 
he sees his role and how he's conducted it, but I think it is a 
serious mistake not to put yourself into the shoes of the other 
person and to actually listen and understand how they see the 
reality they inhabit. And so, that's, you know, part of what 
we're trying to get better than it's been over the last several 
years.
    Senator Webb. Thank you.
    Admiral Mullen. ANSF, just quickly, Senator Webb, we're at 
about--on the army side, about 96,000 right now. That said, 
we're sort of in the 55,000 to 60,000 that actually are out 
there in the field. So, we've got to work on the overhead 
aspect of this.
    One of the real fundamental changes that McChrystal's put 
in place is the partnership piece. So, I mean, we have company, 
platoon, squad-sized units out, you know----
    Senator Webb. In terms of growing the size of the Afghan--
--
    Admiral Mullen. I think that's a----
    Senator Webb [continuing]. National----
    Admiral Mullen [continuing]. That's a----
    Senator Webb [continuing]. Military, where are we from 
where the goals would have been at this point? Are you on 
target, in terms of growing the actual size of the----
    Admiral Mullen. Well, I think that----
    Senator Webb [continuing]. National army?
    Admiral Mullen. I mean, the targets just recently, you 
know, got reset by McChrystal, so we're 96,000 in the army 
right now, we need to be at 134 about 12 months from now, by 
next----
    Senator Webb. Right.
    Admiral Mullen [continuing]. September, roughly. And that 
kind of increase each year, to build to whatever the eventual 
outcome is, aspirationally, notionally, 400,000 between both 
the army and the police, specifically. But, our--we've got to 
reduce the retention--or, we've got to increase retention 
significantly, reduce the attrition, and increase recruiting.
    One of the things is just incentives. I mean, the Taliban 
make a lot more money than the national security forces right 
now. So, General McChrystal is, as we speak, increasing the pay 
fairly significantly for the security forces, which we think 
will have an impact.
    So, we think we understand what the specifics are, what we 
need to do, and--but, it's really about, now, executing that, 
and we don't underestimate, particularly on the police side, 
the significance of the challenge and the risks that are 
associated with that.
    In the end, they're the ones that are going to provide the 
local security, they're the ones that are going to be able to 
``hold'' and on which to ``build'' in the long run, and we know 
that.
    Senator Webb. Thank you.
    The Chairman. Let me just say that--we're going to run up 
against a timeframe here--there's going to be a vote, I think, 
somewhere in the next 10 or 15 minutes----
    Senator Webb. All right, well, let me just--in terms of the 
third question, it's been discussed a good bit, so I will just 
leave it as an observation so we can move the hearing on and--
thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    And, in addition to that, Secretary Gates, I know, has to 
leave at noon, sharp. And Secretary Clinton needs to leave for 
Brussels. So, we do want to try to wrap it up, if we can.
    Admiral Mullen. I'd be----
    The Chairman. I know that we need----
    Admiral Mullen. Chairman, I'd be glad----
    The Chairman. I'd prefer to have a second round----
    Admiral Mullen [continuing]. I'd be glad to stay. I'm 
kidding. [Laughter.]
    I'm going with my boss. [Laughter.]
    The Chairman. We would love to have had a second round, but 
this will be an ongoing conversation. I think we'll have some 
chances--maybe even get the committee together for a good 
conversation rather than just a hearing. And, I think if you're 
willing to do that, I think it would be very helpful, at some 
point in time.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I want to begin by thanking each of you----
    The Chairman. And I can't tell you--I don't know why we 
have a hurricane above us here today. I apologize for----
    Secretary Gates. We thought it was a Senate bowling alley. 
[Laughter.]
    The Chairman. That would be news to me, I don't know.
    Senator Shaheen. I want to applaud each of you and the 
President and everybody who's been involved in the very 
thorough review of what our strategy should be in Afghanistan.
    New Hampshire is, this week, sending another 140 National 
Guard members over to Afghanistan. And, as you pointed out, 
Secretary Clinton, these are mothers and fathers, sons and 
daughters, and we owe them, and all of the men and women 
serving there, a mission that they can understand and support. 
And I think it's appropriate, also, that we continue to have a 
rigorous debate in Congress and in the Senate about what we're 
going to do. So, thank you all for that.
    There have been a number of mentions about the importance 
and the potential for reconciling certain Taliban elements, and 
the importance of that to the success of what happens in 
Afghanistan. Have any of those overtures begun? And who do we 
see is going to do those kinds of negotiations? How do we 
envision that happening?
    Secretary Gates. First of all, we have tried to, in our 
discussions, differentiate between reconciliation and 
reintegration. It may seem like a semantic point, but we 
consider reconciliation to be, What opportunities are there 
with Taliban leaders to bring them over and along with the 
people who are fighting for them?
    I think the general view is that, until the momentum shifts 
against the Taliban, the likelihood of significant 
reconciliation, in those terms, is not very bright. So, that's 
part of changing the momentum, is beginning to get these guys 
to think differently about the future.
    With respect to reintegration, this is really about getting 
the foot soldiers to decide that they don't want to be a part 
of the Taliban anymore. And we have some very limited anecdotal 
information about people deciding they didn't want to fight for 
the Taliban anymore, and going back to their villages. The key 
here--and we think that there is some significant percentage of 
these foot soldiers who actually are doing this for pay or who 
have been intimidated into doing it. So, if we can provide 
economic opportunities, or the international organizations, or 
whoever, or our efforts on agriculture can create more 
opportunities for them to earn a salary--but, the security 
piece is absolutely central, because there are also too many 
stories of people who have wanted to quit the Taliban who not 
only, themselves, have been killed, but all of their family 
have been killed. And so, the security environment in a village 
or in a district has to be such that these people who want to 
put down their guns and pick up a plow can do so without the 
fear that they and their entire families will be massacred.
    And again, this is a matter of establishing the security, 
but it's also a sense of--Secretary Clinton referred, earlier, 
to more of a hedging on the part of the Afghans because of 
their uncertainty of who's going to win, because the winners--
if the winners are the other side, and they've picked our side, 
they will be killed. And so, they are waiting to see where the 
momentum is shifting. And, frankly, it's this shift of momentum 
that we think is important and that is a fundamental purpose 
behind this surge of troops to push that Taliban back and to 
create an environment in which these people, as they look at 
this situation to decide which way they want to go, go our way, 
go the way of the Afghan Government.
    Senator Shaheen. Thank you.
    Secretary Clinton, I know you're on your way to a NATO 
meeting, and I had the opportunity, a couple of weeks ago with 
Secretary Gates, to be part of the first of a forum on global 
security with a number of our NATO allies, and was on a panel 
with the German Defense Minister, and was impressed with his 
willingness to look at Germany's role in their NATO mission, 
and just wondered what message you're going to take to our NATO 
allies to encourage them to talk to their publics about the 
importance of the mission in Afghanistan.
    Secretary Clinton. Well, Senator, we have been reaching out 
vigorously to our counterparts. Certainly, the President has 
spoken with a number of heads of state, the Vice President, 
Secretary Gates, myself, National Security Advisor Jones. And 
we've gotten a very encouraging response.
    Secretary General Rasmussen, at NATO, has been very 
positive about the President's decision, and has carried that 
message to capitals across Europe. And I think that, as the 
weeks ahead unfold, there will be significant announcements of 
additional troops. Our hope is that the aggregate of the troop 
announcements will be between 5,000 and 7,000. That would give 
us a lot more leeway in many of the parts of the country that 
we want to continue to make sure are secure. It would help with 
the performance of certain functions, as well as the important 
role of training the police and the army.
    So, we are encouraged. There will also be an international 
meeting, at the request of Prime Minister Brown and Chancellor 
Merkel at the end of January, which is a very important event 
for a lot of our NATO ISAF allies. So, I think that, you know, 
we will see, in real terms, the delivery on the rhetorical 
support that the President's decision has engendered.
    Senator Shaheen. And will your discussions also include 
better coordination of the different NATO forces who are in 
Afghanistan?
    Secretary Clinton. Well, that certainly is a conversation 
that we are in the midst of. I held a meeting, when I was in 
Kabul, with about a dozen of the NATO ISAF Foreign Ministers 
who were there for the inauguration, and one of the points that 
I stressed is how we have to do a better coordinating our 
civilian aid, how we would like to see a civilian counterpart 
to General McChrystal, who is the commander of the NATO ISAF 
forces. Not all the ISAF members, as you know, are in NATO, so 
trying to structure this the right way is challenging, but 
there's a great and growing understanding of why we need to do 
a better job with all of the partners, NATO ISAF, the United 
Nations. Obviously, the United States believes that we have to 
play a major role in this because of the burdens that we have 
assumed, but we want the international support, as well.
    Senator Shaheen. Thank you. And I'm out of time, but I just 
wanted to urge followup on what we heard from Senators Webb and 
Cardin, that the measures of how we're going to determine our 
success over the next 18 to 24 months, I think, will be very 
important to make sure that we understand, and that the public 
understands, what we're looking at that shows us that we're 
being successful.
    Thank you.
    The Chairman. Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much.
    And I want to thank Secretary Gates, Secretary Clinton, and 
Admiral Mullen for at least two things--your public service at 
this time in our Nation's history, as well as the review, that 
you just conducted along with the President, which was both 
thorough and essential, contrary to some of the commentary 
around Washington.
    I wanted to return to a topic that I know some have 
explored to some degree already, and that's President Karzai 
and his government. We know that on a number of occasions--in 
order to get this right--and we have to get it right; I can't 
imagine a more serious, grave situation we've faced in recent 
American history--you have to get the security right, the 
governance part of this right, as well as other issues, like 
development. And to get governance right, President Karzai has 
to be a full partner in this.
    I was in Afghanistan and Pakistan in August, and I know 
that being on the ground for a few days doesn't confer 
omniscience on any Senator, but I have to say that, meeting 
with President Karzai in August 2009 and May 2008, I came away 
very troubled by his answers to questions I and others have 
posed to him, and stunned by some of the things he said or did 
not say in those meetings. So, I keep returning to this 
question, among others, when we analyze our strategy.
    So, I wanted to get a sense of, in a very specific way--I 
know, Secretary Clinton, in your testimony, you rightly and 
appropriately said the Afghan people, the United States, and 
the international community will hold the Afghan Government 
accountable for making good on its commitments and President 
Karzai's recent pledges--of what, specifically, will we do to 
hold him accountable, both him personally, but also his 
government? I know you understand the importance of this.
    Secretary Clinton. Well, there are a number of steps. You 
know, we have been working closely with the Afghan Government 
in support of a major crimes tribunal. We have enhanced our 
cooperation between law enforcement and intelligence--FBI, DEA, 
Department of Justice--in order to clearly and unequivocally 
present evidence of corruption that we expect action to be 
taken on with respect to charging and prosecuting and removing 
from office and seeking restitution from those against whom a 
case can be made. We are also working to certify ministries as 
to which will or will not receive the money from the United 
States. And we want that to be part of our overall 
coordination, to go back to Senator Shaheen's question, so that 
we can have an international--an internationally accepted 
standard for transparency and accountability in these 
governments. We are working closely and encouraging the right 
decisions, in our view, to be made about members of the new 
Cabinet, governors to be appointed, and the like.
    So, there's an intense ongoing consultation. I would think 
that probably Ambassador Eikenberry and other members of his 
leadership team spend many hours every day in direct 
consultation and conversation with, not only President Karzai, 
but others in positions of responsibility.
    So, I mean, we're moving on all of these fronts, Senator 
Casey, and it's--it's not easy, and we think that our 
intentions are clear, and we expect to see progress made. But, 
again, I don't want to paint some Utopia that we are attempting 
to achieve; that's just not in the cards. It's not in the cards 
anywhere.
    And the United States has been deeply involved in other 
countries, going back 60 years, often with combat troops on the 
ground, where there was massive corruption, where there was 
instability, where there were fraudulent elections. And, you 
know, you just--you know, you have to have a certain level of 
strategic patience here in order to see things through. And I 
think that, you know, President Karzai and his government have 
been under more scrutiny than probably most ever have been. I 
mean, we do a lot of business with a lot of countries that have 
elections where the leader is reelected at 98 or 99 percent, 
and we don't say a word, we just keep going. Now, the 
difference is, we have our young men and women, military and 
civilian, in a combat situation, and we have to expect more.
    But, we need to put it in the broader context of, you know, 
what we have done around the world for decades, and, you know, 
the kind of efforts that prove successful and in keeping with 
the national security needs of the United States.
    Senator Casey. Well, I want to commend the work that you, 
Ambassador Eikenberry, and others have done. I know it's not 
easy and that there are limitations of what we can do when 
dealing with a sovereign government. But, I know how important 
it is.
    I wanted to raise another issue, and ask whether Secretary 
Gates and Admiral Mullen want to add to anything that we've 
explored already. But, the second element of this decision, in 
terms of getting it right is governance. What do we do with, or 
can we have a positive impact on, local and provincial leaders? 
One thing that was heartening to me, as disappointed as I was 
at some of President Karzai's answers, was that the two 
ministers that we met with, Minister Wardak as well as Atmar, 
with army and police responsibilities, obviously, were said to 
be, and, I think, in the limited time we had with them, gave 
evidence that they're very competent and they've got a lot of 
skills.
    We also met some capable local and provincial leaders. So, 
what's the strategy with regard to engaging local or provincial 
leaders? And how does that factor into getting this governance 
piece right?
    Secretary Gates. From the time I--actually, from my 
confirmation hearings, I've been concerned that, among other 
things, we were too focused on the central government in 
Afghanistan, and particularly the notion of trying to build a 
strong central government in a country that had never had one, 
and that we weren't paying enough attention to the local and 
tribal leaders and the traditional institutions in Afghanistan. 
The--one of the tragedies of 30 years of war is that many of 
those local institutions--the tribal shuras and so on--had been 
significantly weakened as elders have been shot or executed 
or--and their authority undermined, and the Taliban goes after 
them specifically. And so, I think a really important part of 
the President's decisions and our discussions was, How are we 
going to engage, at the subnational level, at the provincial 
level, at the district level, and at the local and village 
level? And it's everything from the President's talk to 
Secretary Clinton and myself about communications--how do we 
communicate with those people, convey to them what we and the 
Afghan Government are trying to do? And so, and how do we work 
with them? And the truth of the matter is--and we'll get into 
it further with you all down the road--but, in terms of the 
transfer of security responsibility, in a lot of these 
districts and areas, it may not be the Afghan National Army or 
the Afghan National Police that we--that--to whom we turn for 
providing local security; it may well be a local security force 
that operates within the context of the provincial government 
or the district government. We've seen some experiments with 
this in Wardak province and elsewhere, and they've worked 
pretty well. And so, I think it's going to be a mix.
    And, to answer the question that Senator Webb asked, my 
view is, we will do the transfer of security in the same way we 
did it in Iraq, and that will be a judgment by the ISAF 
commanders of when an area is ready, when the local forces are 
ready, to assume that responsibility with us in a tactical, and 
then a strategic overwatch, sort of a cavalry over the hill, if 
you will. And I think that--but, local security forces and 
local governance are going to be a big part of that--a big part 
of that equation.
    The caution that we have is not to cross the line into 
reestablishing warlords and local militias that, in fact, are 
operating independent of the government, whether at the 
district or provincial or national level.
    Senator Casey. I know I'm out of time, but----
    The Chairman. Senator--yes.
    Senator Kaufman, we're in the back 7 minutes of the vote, 
and there's a grace period, as you know. Senator Cardin's going 
to come back, so we can, hopefully, you know, get the two last 
Senators in, here. But, if you want to truncate a little bit, 
it's your choice. We won't----
    Senator Kaufman. I will try.
    The Chairman [continuing]. Require it.
    Senator Kaufman.
    Senator Kaufman. I will do that.
    And it--look, I want to thank you very much for wrestling, 
which I find to be--agree with several statements that were 
made--one of the most complex problems I've ever seen, and the 
most difficult problem, because it involves lives of the folks 
that are just the best among us. And I also want to thank you 
for the infinite patience to wrestle with us on this issue, and 
the ability to do that. And I can't think of three people who 
would be better, that I'd be happier, to see wrestling with 
this problem than the three of you.
    Now, I want to agree with what Senator Casey and a lot of 
other people have said. I think the No. 1 problem here--there's 
a lot of problems, so--you know, I don't minimize any--but, the 
No. 1 problem is, Do we have a partner, in the Afghan 
Government, for success? That, to me, is the really key 
question. I spend time--two trips to Afghanistan, met with 
folks and talked to them. There's a lot of other problems. But, 
that's the No. 1 problem, in my mind. And one of the great 
things, I think, about the President's proposal is, he came up 
with a way, which I thought no one could, to kind of give me 
some hope that we can do something with the present government, 
and that is setting the deadline of July 2011. Because people 
came in and talked to me, and I've talked to so many people on 
this, and they all say, ``Well, we should use our leverage on 
Karzai.'' I don't think we had any leverage in Karzai until you 
set a date certain that we're going to leave.
    So, I think it's very--and kind of in a cleanup position at 
the end of this thing--I think it's really important--there's 
been a lot of confusion back and forth on the deadline, so I 
just want to make it clear, to send a message to the Afghan 
Government. You have no doubt that the President has a deadline 
of transferring troops out of Afghanistan in July 2011. Is that 
fair to say? Is it fair to say, therefore, to deal with so many 
other problems we have--and comparisons have been here--there 
is no--you have no doubt that we will not be adding more troops 
to Afghanistan after this deployment, outside of the 3,000, 
potentially, that you may have to add?
    Secretary Gates. That is the commitment that we have made 
to the President.
    Senator Kaufman. That's right. So, when--this is not like 
what we--comparisons to Vietnam, where we had promises and then 
didn't--this is not even like Iraq. This is a firm commitment 
by the President of the United States, agreed by the major 
foreign policy strategic planners in our government, that in 
July 2011 we're going to start drawing down troops, and we're 
not going to be adding more troops. I think that's a 
significant message, and I think it's the only message. If we 
stick to that message--it's the only message that can have--
help--that the Karzai government can, in fact, be successful.
    And because of the lack of time, I will yield to the 
Senator from New York for questions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before you begin, Senator, if I could just--I want to thank 
you, because I've got to take off and vote. And I'll hold the 
vote open, get them to protect you, here. But, I really 
appreciate your coming in. I know it takes a lot of time, but 
it does, as you know full well--and, Secretary, you know 
perhaps even more--sort of, helps the process to work, and, in 
the end, is critical to our own deliberative process. So, we 
thank you very, very much for doing that. And I wish you well 
on your journey.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, to each of you, for being here. You've provided 
such extraordinary leadership for our country, and we're 
extremely grateful.
    I agree with my colleague, this is the most difficult issue 
any of us can face.
    I'd like you just to touch, briefly, if you can, on the 
issue of
al-Qaeda. Secretary Gates and I, last time we spoke, talked 
about, Why do you care if al-Qaeda has a foothold in 
Afghanistan? He provided very detailed analysis about why that 
type of foothold would be able to be a launching ground for 
similar terrorist attacks to
9/11, and also the overwhelmingly destabilizing effect with 
regard to Pakistan, which obviously has nuclear weapons; it 
could pose grave security risks to the United States.
    My concern is, What's to stop al-Qaeda from moving to 
Somalia or Yemen or any other place? And, you know, to the 
extent you can talk about this on a nonsecured basis, what are 
some of the things that you intend to do, militarily and in 
other operations, with regard to other places al-Qaeda will 
create potential strongholds?
    Secretary Gates. Well, very briefly, as I said in my 
opening statement, al--the Afghan-Pakistan border area is the 
epicenter; it is the historic--it is the site of the historic 
victory over the Soviet Union by many of these same actors. And 
it is where the planning and the inspiration--certainly the 
inspiration, much of the training, much of the planning for al-
Qaeda operations emanates from. And wherever people have been, 
whether it's Somalia or Yemen or the United States or the 
United Kingdom, almost always, the roots trace back to this 
border area. It is the home base, if you will, of this 
operation.
    And it's interesting, as I said earlier, how other 
terrorist groups, including al-Qaeda of the Maghreb, al-Qaeda 
of the Arabian Peninsula, gravitate and look to that area for 
leadership and inspiration and legitimacy of their efforts in 
the context of terrorist aspirations.
    And all I can tell you is that we are very aggressive in 
going after al-Qaeda, and we have the authority of the 
President to hunt them down wherever in the world we find them.
    Secretary Clinton. I would just add, Senator, that al-Qaeda 
has very deep roots now in this border area. You know, they 
have operated, in the case of bin Laden, Zawahiri, and others, 
in and around this area, going back 20 years--well, 30 years. 
They have a degree of protection from both the Afghan side and 
the Pakistan side.
If you read the long articles that David Rohde wrote when he 
escaped, there is a governmental presence, in effect, in the 
ungoverned areas of Pakistan that gives them every reason to 
believe they're secure. And they're--and they--and it's not 
just one or more people picking up. They have extended 
families, they have networks of connections that would have to 
be disrupted.
    So, I don't see that it would be very attractive or easy 
for them to leave where they are, and I'm not sure there is any 
terrain anywhere in the world that is more hospitable to them. 
So, for all those reasons, I think that's where you will find 
them.
    Secretary Gates. Maybe most significantly, we would love to 
see them leave there.
    Admiral Mullen. The only thing I'd add to that is--and it 
goes to Secretary Gates' comment about having been seen to 
defeat the Soviet Union, and this would be seen to defeat the 
only remaining superpower. And that is an inspiration for 
recruiting, it is an acceleration for their global extremist 
capabilities, and it is what, in the long run, I worry the most 
about, if they are seen to be able to do that. Even as they are 
more diminished, which they have been over the last few years, 
but they are very, very deadly, and they seek the same kind of 
aim.
    Senator Gillibrand. Well, thank you again for your 
testimony and your time. We're extremely grateful for your 
extraordinary leadership.
    Thank you.
    Senator Cardin [presiding]. As I'm sure Secretary Clinton 
is aware, we've had a vote going on, on the floor of the 
Senate, so there's been a little bit of shuffling back and 
forth. But, I do want to thank Secretary Clinton and Secretary 
Gates and Admiral Mullen, on behalf of our chairman, for your 
patience here today, and particularly for your service to our 
country.
    And, with that, the Senate Foreign Relations Committee will 
stand adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this hearing. Secretaries 
Clinton and Gates, and Admiral Mullen, thank you all for your 
tremendous service to this country. The President and the American 
people are lucky to have such able, dedicated public servants at this 
important moment in our history.
    The decision regarding how to move forward in Afghanistan 
represents an incredibly difficult moment--for the President, for this 
panel, and for our Nation.
    Every American wants our troops to succeed in Afghanistan. Every 
Senator is committed to the security of our Nation and the stability of 
the world. And this week, the President laid out a serious proposal 
that merits careful consideration.
    Sending young Americans into battle is something none of us take 
lightly. All of us have been to the funerals, spoken to the families, 
written too many letters of condolence. The cost to our country--in 
blood and treasure--has been high in Afghanistan, and the gain 
insufficient. As the President said this week, the status quo is not 
sustainable.
    A better way forward relies upon the development of the 
comprehensive, detailed, and realistic plan for Afghanistan that we 
have been lacking for far too long. Without it, we cannot justify the 
continuing loss of American lives and resources, and no amount of 
sacrifice will accomplish our national security goals.
    For my part, I remain skeptical about sending more troops to 
Afghanistan. This will only be acceptable to the American people--and 
it will only work--if it is part of a broader strategic effort, 
encompassing both diplomatic and economic initiatives.
    I hope that, in today's hearing, you'll help us consider some of 
the fundamental questions that are on the minds of many Americans.
    First of all, how does this policy fit in with our broader effort 
to keep America safe? How does it help us achieve our national security 
goals in Pakistan, and in the region?
    Does the plan encompass the diplomatic and economic imperatives 
that must accompany a shift in military strategy? In my view, a 
strategy for success must include narrowly defined, achievable goals 
like protecting key population centers, providing for targeted and 
limited economic development (including schools, roads, water, and 
agriculture), cracking down on rampant corruption, and boosting the 
capacity of the Afghan Government (not just at the national level, but 
at the local level) to meet the basic needs of the Afghan people.
    Do we have allies who are ready to stand with us? We all agree that 
our NATO allies need to do more, and that we need to work in closer 
concert with them. But how do we go about working with our NATO allies 
so that we can agree on a plan in which each of us can share our 
strength, and the burden of this effort?
    Do we have a reliable partner in the Karzai government? We must be 
able to have confidence that the regime is ready, willing, and able to 
work with us. The Afghan people must be able to have confidence that 
their government can provide basic physical and economic security.
    Finally, and perhaps the question weighing heaviest on the minds of 
the American people, do we have a credible plan for completing this 
mission and bringing our troops home as soon as possible? Our effort 
must come to an end someday, and someday soon, because, as President 
Obama says, our goal was never to occupy Afghanistan. Our roadmap must 
have a destination, a path toward a day when the Afghan Government will 
be able to take basic responsibility for its own people and its own 
future.
    We wrestle with these issues because that future is inextricably 
linked with our own. Although there are questions to be answered, I 
appreciate the President's sincere, thoughtful proposal--and I 
appreciate the presence of our witnesses today. The challenges we face 
in Afghanistan and Pakistan are many and complex. I look forward to 
discussing them with you all.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                for the Record by Senator Richard Lugar

    Question. The President's strategy in Afghanistan calls for both 
military and civilian activities to stabilize and rebuild the country's 
economy.

  <bullet> With regard to the coordination of civilian and military 
        development activities, what is the chain of command among the 
        numerous agencies engaged in some aspect of development, and 
        how does this structure aid or hinder coordination?

    Answer. Starting from the bottom--at Provincial Reconstruction 
Teams and District Support Teams, civilian employees from USAID, USDA, 
and the State Department on their agencies work in teams with one 
designated as the senior civilian at each platform, responsible for 
coordination. They coordinate closely with the military commanders of 
the PRTs to ensure that the projects they are overseeing complement 
those that the PRT commanders are executing through programs like the 
Commanders' Emergency Response Program. Our civilian and military 
leaders at each platform seek concurrence from their counterparts 
before spending funds.
    Senior civilians report to the senior civilian representative at 
the Regional Command their PRT or DST falls under. The military PRT 
commander at a given PRT reports to a superior at his or her respective 
Regional Command. This ensures that civilian-military coordination on 
all matters--including development--occurs at the Regional Command 
level.
    If matters need to go higher for review or resolution, the 
civilians send them to the U.S. Embassy, who is responsible for all 
civilian assistance, and the military chain is through USFOR-A in 
Kabul. Ambassador Eikenberry and General McChrystal have a close 
working relationship and meet regularly to share views and coordinate 
their respective activities.
    The net effect of this is that we have developed synchronized 
civilian-military chains of command, to ensure coordination at each 
level: district, provincial, regional, and national. So far, our 
experience has been that this has promoted coordination on development 
and other issues.

    Question. Who is ultimately in charge of the strategy?

    Answer. In theater, Ambassador Eikenberry and General McChrystal 
are responsible for implementing the strategy. They report to the 
President.

    Question. How are DOD reconstruction activities integrated with 
those of civilian agencies?

    Answer. The activities are coordinated at the district, provincial, 
regional and national level through the mechanism described. At the 
district and provincial level, the PRT Commander and civilians are part 
of the Integrated Command Team. They are in constant contact with one 
another to ensure that their activities are complementary, and do not 
conflict or duplicate one another. Similar structures exist at the 
Regional Commands. Task Force and maneuver battalion commanders, who 
also have the ability to carry out development activities, frequently 
consult with PRT commanders and their civilian counterparts in their 
Areas of Responsibility, which can cut across provinces and districts. 
In a given month, the number of Regional Command development 
conferences, secure conference calls, and meetings on development can 
be daunting, but ensure that our civilian and military reconstruction 
activities are well-coordinated and supporting our objectives in 
Afghanistan.

    Question. Does DOD fully participate in country team deliberations?

    Answer. Yes. DOD is well represented at our Embassy in Kabul.

    Question. What is the role of Ambassador Tony Wayne with regard to 
DOD activities?

    Answer. Ambassador Wayne, as Coordinating Director for Development 
and Economic Affairs in Kabul, oversees all U.S. Government nonmilitary 
assistance to the Afghan nation. In this position, he supervises a wide 
range of Embassy sections, programs, agencies and offices in the field. 
He is kept abreast of DOD activities, including development activities 
funded through programs like CERP.

    Question. DOD has increasingly taken on expanded development roles 
in Afghanistan.

  <bullet> If U.S. military forces will begin departing the country in 
        as soon as 18 months, who will manage the programs and sectors 
        that DOD has been managing?
  <bullet> How will a transition be accomplished?

    Answer. As part of the transition and drawdown process, we will 
examine each program to determine which programs managed by DOD should 
be continued. There will be close coordination with U.S. Forces-
Afghanistan to ensure continuity. We will notify the Congress as 
required by law or request authorities as needed based on a careful 
evaluation of each program.

    Question. In the context of a counternarcotics strategy in 
Afghanistan, what are the respective roles of State/INL, USAID, and 
DOD?

    Answer. INL, USAID, and DOD coordinate closely with the Office of 
the Special Representative on Afghanistan and Pakistan (S/SRAP), the 
State Department's Bureau of South and Central Asian Affairs (SCA), 
Embassy Kabul, and the larger Washington interagency to oversee and 
execute programs in support of the U.S. Government's Counternarcotics 
Strategy. These efforts support progress toward an end state in which 
the Afghan Government, in partnership with its neighbors and the 
international community, can effectively fight the drug trade within 
its own borders and break the narcotics-insurgency link by denying drug 
funding to insurgents.
    The new U.S. Counternarcotics Strategy for Afghanistan, now in its 
final stages of approval, includes objectives aiming to disrupt the 
nexus between narcotics and the insurgency, as well as address linkages 
between narcotics and official corruption. While each agency and bureau 
hold particular expertise and capability to execute specific 
counternarcotics (CN) programs, interagency working groups--with 
participation by DEA, DOD, ONDCP, INL, SCA/A, S/SRAP, DOJ, USAID, and 
other interested parties--in both Kabul and Washington meet regularly 
to ensure that programs and policy align with overall U.S. Government's 
goals in Afghanistan. Working groups meet bimonthly in Washington, DC, 
and monthly in Kabul.
    Specifically, INL carries out programs to build the capacity of the 
Ministry of Counternarcotics in CN public information and messaging; 
enhance provincial-level capacity and commitment to CN; expand drug 
addiction prevention and treatment capacity; and support provincial-
level supply reduction through Governor-Led Eradication and the Good 
Performer's Initiative. INL also engages with multilateral partners 
such as the U.N. Office of Drugs and Crime to consolidate regional 
commitment to combating the flow of Afghan opiates and to diversify the 
base of international support for enhanced CN, law enforcement, and 
rule of law cooperation between Afghanistan and its neighbors.
    USAID, alongside the U.S. Department of Agriculture, is working to 
dramatically expand support for agricultural development, which forms 
an important cornerstone of the new U.S. Counternarcotics Strategy for 
Afghanistan. USAID programs work to increase agricultural sector jobs 
and income through increasing farmers' access to inputs and effective 
extension services; regenerate agribusiness by increasing linkages 
between farmers, markets, credit, and trade corridors; rehabilitate 
watersheds and improve irrigation infrastructure. Further, in order to 
increase Afghans' confidence in their government, USAID works to 
increase capacity within the Ministry of Agriculture, Irrigation, and 
Livestock to deliver services and promote the private sector and farmer 
associations through direct budget and technical assistance.
    DOD's counternarcotics mission is to support the Combatant 
Commander and law enforcement through information-sharing, 
intelligence, training and equipping, infrastructure, and emergency 
assistance. In December 2008, DOD approved revised rules of engagement 
for USCENTCOM to give military commanders on the ground the flexibility 
to target narcotics production facilities and facilitators for military 
action if they are determined to provide support to insurgents. In 
addition, intelligence efforts are being closely synchronized in 
theater through the Interagency Operations Coordination Center and the 
Afghan Threat Finance Cell for counternarcotics and threat finance 
operations in order to target joint drug networks and insurgency 
effectively.
     INL, DOD, and DEA also work closely together to improve the 
capacity of the Counternarcotics Police of Afghanistan (CNPA) and the 
Afghan Ministry of Interior (MOI) to conduct interdiction activities, 
investigations, and operations in order to disrupt and dismantle drug 
trafficking organizations and prosecute those involved in the illicit 
drug trade. DEA holds the operational and mentoring lead for training 
the specialized vetted units of the CNPA, including the Sensitive 
Investigative Unit (SIU), National Interdiction Unit (NIU), and 
Technical Intercept Unit (TIU), and conducts joint operations with 
these units on counternarcotics and counterinsurgency nexus targets. In 
support of this effort, INL provides operational, maintenance, and life 
support for CNPA facilities in Kabul and Forward Operating Bases 
throughout the country. In addition, INL supports ongoing training, 
equipping, and vetting assistance for the DEA-mentored specialized 
units. INL contributes aviation assets to joint CNPA/DEA operational 
missions, which include mission planning, reconnaissance, transport, 
aerial escort and overwatch, in-extremis support, insertion/extraction, 
search and rescue, and medevac assistance using INL's 10 armed and 
armored (Huey-II) rotary wing assets, to interdict traffickers and 
target, seize and destroy processing labs, chemical and drug caches/
storage. Aviation support to DEA/CNPA is also provided with INL's fixed 
wing and leased aircraft.
    DOD assistance includes support for the MI-17 program in the CNPA 
Aviation Interdiction Unit (AIU), which currently has a total of 12 
helicopters, with 7 in country and 5 in the United States for training. 
In addition, DOD provides advanced training to the NIU and support to 
the DEA country office and FAST (Foreign-deployed Advisory Support 
Teams) officers.
    Finally, DOD also supports the Border Management Task Force, 
including tactical training, equipment, and infrastructure for the 
Border Police, and construction of border crossing points, to help 
control borders and decrease drugs leaving Afghanistan and the 
importation of precursor chemicals and IEDs.

    Question. How are each agency's activities integrated into a 
coherent strategy?

    Answer. The U.S. interagency is working diligently to finalize a 
formal U.S. Strategy on Counternarcotics in Afghanistan, which is in 
the final stages of approval with the Office of the Special 
Representative on Afghanistan and Pakistan 
(S/SRAP). This strategy supports the President's Afghanistan-Pakistan 
Strategy, the implementation of the Afghanistan-Pakistan Strategy, and 
is integrated with the U.S. Agriculture Assistance Strategy for 
Afghanistan. As part of the administration's ``whole of government'' 
approach to assisting the Afghan Government in waging its 
counterinsurgency, the Counternarcotics Strategy also supports the U.S. 
Integrated Civilian-Military Campaign Plan for Support to Afghanistan. 
Following final approval of the strategy, the interagency 
Counternarcotics Working Group will draft implementation plans for 
specific programmatic aspects of the strategy.
    Each agency's programs support the draft provisions contained 
within this strategy, which has been drafted in accordance with 
guidance provided to the Counternarcotics Working Group by S/SRAP and 
the Bureau for South and Central Asian Affairs (SCA). In addition to 
informal verbal and written guidance provided during extensive working 
group and policymaking discussions, such guidance from S/SRAP and SCA 
also includes an internal CN action plan developed by SCA and approved 
by S/SRAP in May 2009. This currently serves as a template for 
interagency activities while transitioning to the revised 
counternarcotics strategy.

    Question. Who is responsible for National Police training?

    Answer. Afghan National Police (ANP) training is coordinated in 
Afghanistan by the International Police Coordination Board (IPCB). 
Within the United States Government, the Department of Defense is 
responsible for U.S. efforts on police training.
    Although State initiated its own police training program in 
Afghanistan in 2003, in 2005 a multiagency agreement gave the 
Department of Defense (DOD) authority over all U.S. Government efforts 
to organize, train, and equip the Afghan National Security Forces 
(ANSF), which includes both the Afghan National Police (ANP) and the 
Afghan National Army (ANA). Congressional funding for this effort is 
provided exclusively through Afghan Security Forces Funding (ASFF) 
given to DOD. DOD transfers funds to State which INL uses to deploy 
U.S. civilian police trainers and advisors to conduct training and 
mentoring of the ANP. DOD's representative in the field, Combined 
Security Transition Command-Afghanistan (CSTC-A), determines program 
requirements; the U.S. Chief of Mission provides policy guidance.
    Contractual responsibility for ANP training is scheduled to 
transfer from INL to CSTC-A on March 31, 2010. This will serve to 
streamline management of ANP training so that resourcing, funding, and 
other management issues are more efficient. State will continue to play 
a role in Afghan law enforcement training through program policy, 
oversight, and direction of the police program through Ambassador 
Eikenberry, the U.S. Chief of Mission. INL and DOD are also currently 
assessing future requirements in advanced training and training/
mentoring for gender-specific programs.

    Question. How will the U.S. monitor and evaluate NATO multilateral 
police and army training?

    Answer. Training and preparing Afghan National Security Forces 
(ANSF) to take the lead in protecting the Afghan people and their 
territory is a key element of the President's strategy in Afghanistan. 
Building the ANSF has been and will continue to be a significant and 
critical task, and we have reached out to our NATO allies and other 
international partners to help us work with the Afghan Government to 
achieve this goal. The international community has responded positively 
to the requests made by the Afghan Government by providing trainers, 
equipment, and funding. In close coordination with the Afghan 
Government, NATO allies, and international partners we have established 
programs of instruction for training the army and police that ensure a 
uniform approach to building the ANSF. Finally, in 2009, allies agreed 
to establish a NATO Training Mission in Afghanistan under U.S. LTG 
William B. Caldwell IV, who also commands the U.S. Combined Security 
Transition Command-Afghanistan. This ``dual-hat'' command arrangement 
will help ensure that the diverse international efforts to help the 
ANSF are coordinated and that training provided to the army and police 
is effectively monitored and evaluated.

    Question. Please provide the following information:

  <bullet> The Afghanistan Government ministries that will receive 
        direct U.S. financial support.
  <bullet> The U.S. Government agency that will oversee that support, 
        including which agency will be responsible for determining the 
        readiness of each ministry to handle the proposed level of 
        support.
  <bullet> The level of funding proposed for each ministry.
  <bullet> The objective that the financial support is designed to 
        achieve.
  <bullet> The entity, United States or Afghan, that will be 
        responsible for monitoring and evaluation.

    Answer. As part of our effort to support the Afghan Government's 
ability to deliver services for the Afghan people, USAID is reviewing 
the financial, management, procurement and expenditure systems of key 
ministries regarding their capacity to accept U.S. direct assistance. 
Assessments (financial and procurement) are conducted for ministries 
that USAID intends to fund with direct assistance. If the assessments 
determine the management, procurement, financial, and expenditure 
systems can be certified as accountable, the USAID Mission in 
Afghanistan certifies the ministry as having the capacity to accept 
direct funding. If the assessments determine additional specific 
technical assistance is required, USAID will provide it. As of December 
2009, the Ministries of Public Health, Communications and Information 
Technology and Finance have been assessed and certified to directly 
accept U.S. Government funds. USAID is planning to conduct assessments 
on the Ministries of Education; Agriculture, Irrigation and Livestock; 
and Rural Rehabilitation and Development.
    For those ministries that have been certified to receive direct 
USAID, assistance, the breakdown of funding and objectives are below. 
It should be noted, however, that for those ministries with pending 
certification, no determination has been made regarding the exact 
dollar figure for direct assistance, and objectives of such assistance 
are still in development.

<bullet> Ministry of Public Health: $236 million/5 years

  <all> Objective: Allowing the continuation of basic health services 
            in 13 USAID-supported Afghan provinces.

<bullet> Ministry of Communication & Information Technology: $1 
        million/2 years

  <all> Objective: Allow for the improvement of information and 
            communication technology coverage and infrastructure 
            throughout government institutions, as well as to increase 
            access to information for the people of Afghanistan.

<bullet> Ministry of Finance: $30 million/2 years

  <all> Objective: The Civilian Technical Assistance Plan allows the 
            GIROA to recruit, hire, and place expatriate advisors, 
            deployed at the central and subnational levels in specific 
            technical areas in accordance with the needs of the Afghan 
            ministries/agencies. It is a multidonor initiative to 
            rationalize the placement of technical assistance, ensuring 
            that the assistance provided is demand-driven and that 
            there is an overall picture of the number and placement of 
            advisors.
  <all> Furthermore, we are also contemplating direct budget funding of 
            $200 million per year for 5 years to be used to fund 
            priority programs in the Afghan Government's development 
            budget, with at least 50 percent of the funds going to 
            specific high-priority areas in the South and East, and 
            tied to clear benchmarks.

<bullet> Ministry of Education: certification pending

<bullet> Ministry of Rural Rehabilitation and Development: 
        certification pending

<bullet> Ministry of Agriculture, Irrigation, and Livestock: 
        certification pending

    Oversight, monitoring and evaluation of this direct assistance will 
be handled by USAID. In the case of the Ministry of Public Health, it 
should be noted that a specialized grants and contracts unit within the 
ministry will be responsible for the coordination and administration of 
grant and contract awards.
    USAID also contributes to the Afghanistan Reconstruction Trust 
(ARTF) Fund, a multidonor trust fund administered by the World Bank 
that pays a portion of the Afghan Government's operational costs, as 
well as funds certain national-level development projects. The 
operational costs covered by the ARTF include delivery of services such 
as health care and education, and paying the salaries of about 250,000 
nonuniformed civil servants throughout the country. The National 
Solidarity Program (NSP) is GIROA's flagship development program which 
provides a mechanism for the government to deliver urgently needed 
services to its rural population. Through the NSP, the government 
develops connections to the local population and provides them with 
resources to build infrastructure projects, identified and implemented 
by the communities themselves.
    The World Bank administers the ARTF program, although it is 
considered direct assistance to the Afghan Government. Donors 
contribute to a single account, held by the World Bank in the United 
States. The ARTF Management Committee makes decisions on proposed 
allocations at its monthly meeting, and those decisions are translated 
into funds through grant agreements signed between the World Bank and 
the Government of Afghanistan. The World Bank also monitors the 
projects.
    In 2009, USAID provided $230 million to the ARTF, and in FY 2010 we 
will provide $650 million to the same account, with not less than $175 
million of that amount going toward the NSP. From FY 2003 through FY 
2008, USAID provided approximately $400 million to the ARTF.

    Question. In October of this year, the Broadcasting Board of 
Governors briefed the committee on its operations worldwide, including 
our programming for the Afghanistan/Pakistan border region. The BBG 
noted in a followup written response that, in spite of working with the 
Afghan Government since the fall of 2005, ``The Ministry of Information 
continues to block the contract for the operation of the Khost 
facilities . . . Minister of Information Khurram continues to block 
efforts to resolve this issue . . . '' How has the situation changed 
since October?

    Answer. The Department of State has worked closely with the 
Broadcasting Board of Governors to resolve the impasse with the 
Government of Afghanistan over the commissioning of the Khost 
transmitter site.
    After many months of active engagement on this issue with Afghan 
officials, on December 3, 2009, the U.S. Embassy informed BBG of a 
possible interim solution to the impasse. Under this plan, Minister 
Khurram agreed in principle to a rapid startup of the Khost facility 
and operations for 6 months. If, during this period, BBG and the 
Ministry cannot come to a permanent agreement, then the Afghan 
Government has the right to shut down the transmitter.
    BBG has advised the Embassy that it accepts the proposal, and has 
asked that our concurrence be transmitted to the relevant ministries so 
that startup of the transmitter can be expedited.
    The central issue in any permanent agreement remains control over 
the content of Voice of America--and, presumably--RFE/RL Pashto 
broadcasts when they begin in mid-January 2010. The ministry apparently 
still wants to insert language into the bilateral agreement governing 
the broadcasts that would give them the right to terminate the 
transmission of programs deemed detrimental to the national interests 
of Afghanistan.
    BBG has rejected that language, and proposed alternative language. 
BBG has pledged to begin discussions immediately, and work closely with 
the U.S. Embassy in Kabul to reach a final agreement in timely fashion.
                                 ______
                                 

  Responses of Dr. Robert Gates to Questions Submitted for the Record
                      by Senator Richard G. Lugar

                     CIVILIAN-MILITARY COORDINATION

    The President's strategy in Afghanistan calls for both military and 
civilian activities to stabilize and rebuild the country's economy.

    Question. With regard to the coordination of civilian and military 
development activities, what is the chain of command among the numerous 
agencies engaged in some aspect of development, and how does this 
structure aid or hinder coordination?

    Answer. The Department of Defense does not engage in ``development 
activities'' per se, but rather urgent humanitarian, reconstruction, 
and counterinsurgency activities that can also aid the development of 
Afghanistan. The newly established USG integrated civil-military 
decision-making chain allows for planning and coordination of 
activities at all levels from the district/company-level to the 
national/embassy-level. While new, this structure has already exhibited 
vast improvements in the coordination of civilian and military 
activities.
    Within this chain, there are two primary nodes of coordination of 
``development activities'': the Provincial Reconstruction Team where 
military and civilian actors develop integrated plans for executing 
critical projects, and at the U.S. Embassy where national-level working 
groups provide a forum for coordinating large projects. In addition, 
USAID has a seat on the national-level Commanders' Emergency Response 
Program (CERP) coordination board that reviews projects above a certain 
funding level.
    This question would best be served by additionally asking our State 
Department counterparts.

    Question. Who is ultimately in charge of the strategy?

    Answer. With regards to the overall U.S. strategy for Afghanistan 
and Pakistan the President of the United States and his Cabinet are 
ultimately in charge of the U.S. strategy. In Afghanistan, Ambassador 
Eikenberry is the lead U.S. Government official responsible for U.S. 
Government (USG) policy. General McChrystal is responsible for U.S. 
military efforts while also serving a unique role of being the 
international military commander. General McChrystal and Ambassador 
Eikenberry are responsible for coordinating USG efforts.
    With regards to civilian-military coordination, in August 2009, 
both General McChrystal and Ambassador Eikenberry published an 
``Integrated Civilian-Military Campaign Plan for Support to 
Afghanistan'' that provides guidance from the U.S. Chief of Mission and 
the Commander of U.S. Forces-Afghanistan to U.S. personnel in 
Afghanistan. The plan represents the collaborative effort of all the 
USG Departments and Agencies operating in Afghanistan and the range of 
different equities, resources, and approaches. The plan is based on 
close collaboration with the International Security Assistance Force 
(ISAF) as well as the United Nations Assistance Mission in Afghanistan 
(UNAMA) and partner nations to build effective civilian and military 
mechanisms for integrated assistance. But its most important component 
is a strong partnership with the Government of the Islamic Republic of 
Afghanistan (GIROA) that will build the capacity needed to provide 
Afghanistan with a stable future. The ultimate goal is for the GIROA to 
have full responsibility for its own security and administration as the 
international community continues to offer economic assistance, 
training, and other noncombat support for the continued development of 
the country.

    Question. How are DOD reconstruction activities integrated with 
those of civilian agencies?

    Answer. In August 2009, both General McChrystal and Ambassador 
Eikenberry published an ``Integrated Civilian-Military Campaign Plan 
for Support to Afghanistan'' that provides guidance from the U.S. Chief 
of Mission and the Commander of U.S. Forces-Afghanistan to U.S. 
personnel in Afghanistan.
    The newly established U.S. Government integrated civil-military 
decisionmaking chain allows for planning and coordination of activities 
at all levels from the district/company-level to the national/embassy-
level. While new, this structure has already exhibited vast 
improvements in the coordination of civilian and military activities.
    Within this chain, there are two primary nodes of coordination of 
``development activities'': the Provincial Reconstruction Team where 
military and civilian actors develop integrated plans for executing 
critical projects, and at the U.S. Embassy where national-level working 
groups provide a forum for coordinating large projects. In addition, 
USAID has a seat on the national-level Commanders' Emergency Response 
Program (CERP) coordination board that reviews projects above a certain 
funding level.

    Question. Does DOD fully participate in country team deliberations?

    Answer. DOD participates in and contributes to virtually every 
aspect of Country Team deliberations. Ambassador Eikenberry and General 
McChrystal meet frequently to discuss issues and approve coordinated 
civil-military planning that addresses Afghanistan's challenges. The 
Integrated Civil-Military Campaign Plan, endorsed by both Ambassador 
Eikenberry and General McChrystal, forms an Executive Working Group and 
15 national-level working groups--each cochaired by a civilian and 
military representative. Several of the Embassy's sections have 
detailed or embedded military members who bring valuable experience and 
perspective while also serving as conduits to the military 
organizations for informal communication. Internal Embassy products, 
such as cables and briefing and information memos, are provided to the 
International Security Assistance Force (ISAF), U.S. Forces-Afghanistan 
(USFOR-A), ISAF Joint Command (IJC), Combined Joint Task Force-435 
(CJTF-435), and NATO Training Mission-Afghanistan (NTM-A)/Combined 
Security Transition Command-Afghanistan (CSTC-A) in draft form for 
input and comments. Finally, a military liaison office headed by a U.S. 
Air Force brigadier general ensures that the Embassy is well informed 
and connected to military planning and activities. The Ambassador 
relies on this general as a trusted confidant and sounding board. DOD 
participates in every aspect of Embassy deliberation including policy 
formulation, drafting of policy documents, and final decisionmaking at 
the Ambassador's level.

    Question. What is the role of Ambassador Tony Wayne with regard to 
DOD activities?

    Answer. Ambassador Tony Wayne, the Coordinating Director for 
Development and Economic Affairs at U.S. Embassy Kabul, is responsible 
for overseeing economic and development activities in Afghanistan. He 
plays a vital role in ensuring U.S. civilian and military assistance 
activities are harmonized and mutually reinforcing. For example, he and 
his group worked to ensure governance and other civilian assistance 
efforts can be available to go into contested Afghan localities at an 
appropriate time after or with the U.S. military as part of our clear, 
hold, build, and transfer approach. He cochairs the Executive Working 
Group (EWG) with Brigadier General Frank McKenzie of the International 
Security Assistance Force (ISAF). The EWG meets weekly to coordinate 
and direct the activities of all 15 of the national-level working 
groups established under the Integrated Civil-Military Campaign Plan. 
Ambassador Wayne plays an important role for the Embassy in overseeing 
the activities of the Senior Civilian Representatives in each of the 
Regional Commands. In addition, he ensures the efforts of the 
Department of State, U.S. Agency for International Development (USAID), 
and other relevant civilian agencies undertaking assistance activities 
in Afghan development are done as a ``whole of government'' approach so 
they have the greatest possible efficiency and effect.

    Question. DOD has increasingly taken on expanded development roles 
in Afghanistan. If U.S. military forces will begin departing the 
country in as soon as 18 months, who will manage the programs and 
sectors that DOD has been managing?

    Answer. Regarding the transition start date, it is imperative to 
understand that July 2011 is the beginning of a process. We are 
increasingly looking to the Afghan Government to take on more 
responsibility, and we will assess conditions as we move forward. Based 
on the assessment of conditions on the ground, the President will 
determine the scope and pace of a gradual and responsible drawdown of 
U.S. combat forces. DOD trainers and advisors will remain in 
Afghanistan conducting security sector capacity-building and reform to 
ensure a sustainable transition.
    The President's strategy is an integrated civil-military strategy. 
Increased civilian resources are being established now to ensure the 
capability exists to sustain efforts. As Secretary Clinton described 
during her testimony, the Department of State will seek additional 
resources, including additional civilian personnel in Afghanistan, to 
implement the President's strategy. The State Department, in 
coordination with our military commanders, is currently examining the 
requirements for additional personnel to complement our military force 
increase.
    In order to coordinate these civilian activities with our military 
efforts, Ambassador Eikenberry and General McChrystal published the 
``Integrated Civilian-Military Campaign Plan for Support to 
Afghanistan'' in August 2009, which provides guidance from the U.S. 
Chief of Mission and the Commander of U.S. Forces-Afghanistan to U.S. 
personnel in Afghanistan.
    U.S. Government senior civilian positions have been established and 
integrated at each level of the military chain of command to serve as 
counterparts to military commanders and coordinate civilian efforts. 
This newly established U.S. Government integrated civil-military 
decisionmaking capability in theater allows for planning and 
coordination of activities at all levels from the district/company 
level to the national/embassy level. Although new, this structure has 
already contributed to vast improvements in the coordination of 
civilian and military activities.
    Within this chain of command, there are two primary nodes of 
coordination for stabilization and reconstruction activities: the 
Provincial Reconstruction Team where military and civilian actors 
develop integrated plans for executing critical projects, and at the 
U.S. Embassy where national level working groups provide a forum for 
coordinating large projects. In addition, the U.S. Agency for 
International Development (USAID) has a seat on the national level 
Commanders Emergency Response Program (CERP) coordination board that 
reviews projects above a certain funding level.

    Question. How will a transition be accomplished?

    Answer. The essence of our civil-military plan is to clear, hold, 
build, and transfer. How the latter phase of this process is 
accomplished will largely be dictated by conditions on the ground and 
it will be done responsibly. The duration of our military presence will 
be limited, but our civilian commitment must continue even as our 
troops begin to come home.
    Regarding the transition start date, it is imperative to understand 
that July 2011 is the beginning of a process. It is not when we rush 
for the exits; rather, it is when we begin the responsible drawdown of 
our forces and the responsible handoff of missions to our Afghan 
partners. There is no determination of how long this will take and 
there is no withdrawal date on the right-hand side of July 2011. There 
is also no specific guidance with respect to how many troops will be 
pulled out.

                  COUNTERNARCOTICS AND LAW ENFORCEMENT

    Question. In the context of a counternarcotics strategy in 
Afghanistan, what are the respective roles of the State Department's 
Bureau of International Narcotics and Law Enforcement Affairs (State/
INL), USAID, and DOD?

    Answer. The U.S. Counter Narcotics (CN) Strategy for Afghanistan 
supports the President's Afghanistan-Pakistan Strategy. It is 
integrated with the U.S. Government Agriculture Assistance Strategy for 
Afghanistan, which focuses on the redevelopment of the agricultural 
sector as an engine for job growth and higher incomes for rural 
families, enabling farmers to choose licit alternatives to poppy. The 
CN Strategy also supports the United States Government Integrated 
Civilian-Military Campaign Plan for Support to Afghanistan.
    Although State/INL, USAID, and DOD work together as a part of the 
``whole of government approach'' to assisting the Government of the 
Islamic Republic of Afghanistan (GIROA) in waging its 
counterinsurgency, general responsibilities fall within these 
respective areas:

    1. Public Information (State/INL and DOD);
    2. Alternative Development (USAID and USDA);
    3. Interdiction (DEA, DOD, and State/INL); and
    4. Law Enforcement/Justice Reform (DOJ and State/INL).

    DOD's main focus is on interdiction efforts to decrease narcotics 
trafficking and processing in Afghanistan while building Afghan 
capacity to disrupt and dismantle significant drug trafficking 
organizations. DOD supports CN operations in Afghanistan by detecting, 
monitoring, and supporting the interdiction, disruption or curtailment 
of emerging narcotics-related threats to our national security.

    Question. How are each agency's activities integrated into a 
coherent strategy?

    Answer. The U.S. Counter Narcotics (CN) Strategy for Afghanistan 
supports the President's Afghanistan-Pakistan Strategy. It is 
integrated with the U.S. Government Agriculture Assistance Strategy for 
Afghanistan, which focuses on the redevelopment of the agricultural 
sector as an engine for job growth and higher incomes for rural 
families, enabling farmers to choose licit alternatives to poppy. The 
CN Strategy also supports the United States Government Integrated 
Civilian-Military Campaign Plan for Support to Afghanistan.
    The CN Strategy focuses on resources for those programs that will 
contribute directly to: (1) breaking the narcotics-insurgency-
corruption nexus and, (2) helping to connect the people of Afghanistan 
to their government.

    Question. Who is responsible for National Police training?

    Answer. NATO Training Mission-Afghanistan (NTM-A)/Combined Security 
Transition Command-Afghanistan (CSTC-A) is the overall lead and has the 
responsibility for U.S and NATO efforts to man, train, and equip the 
ANP. NTM-A/CSTC-A coordinates closely with the Afghanistan Ministry of 
Interior, U.S. Embassy, the European Police Mission, and other 
international bodies in this effort.

    Question. How will the U.S. monitor and evaluate NATO multilateral 
police and army training?

    Answer. The Combined Security Transition Command-Afghanistan (CSTC-
A) commander, who is dual-hatted as the NATO Training Mission-
Afghanistan commander, Lieutenant General Caldwell, is responsible for 
monitoring the overall quality of instruction for the Afghan National 
Army (ANA) and Afghan National Police (ANP). Lieutenant General 
Caldwell took command on November 21, 2009, when CSTC-A/NTM-A was 
recently upgraded from a 2- to 3-star headquarters, and he will 
continue to monitor the training, by both U.S. and international 
partners, of the Afghan National Security Forces.

                BUDGET SUPPORT TO AFGHANISTAN MINISTRIES

    Please provide the following information:

    Question. The Afghanistan Government ministries that will receive 
direct U.S. financial support.

    Answer. DOD does not provide direct U.S. financial support to any 
Afghan ministry. DOD provides indirect support to the Ministries of 
Defense and Interior through the Afghan Security Forces Fund. These 
appropriated funds support developing the Afghan National Security 
Forces (ANSF), including the provision of equipment, supplies, 
services, training, facility and infrastructure repair, renovation, and 
construction.
    Additionally, DOD was authorized in the FY10 NDAA (sec. 1222(d)) to 
transfer $50M in the Commander's Emergency Response Program (CERP) fund 
to the Department of State for the National Solidarity Program, 
administered by the Ministry of Rural Rehabilitation and Development. 
We are currently discussing the appropriate path to implement this.
    This question would best be served by additionally asking our State 
Department counterparts.

    Question. The U.S. Government agency that will oversee that 
support, including which agency will be responsible for determining the 
readiness of each ministry to handle the proposed level of support.

    Answer. As the Secretary of State noted in her testimony, the 
Department of State will be responsible for certifying ministries to 
receive direct budget support.
    This question would best be served by additionally asking our State 
Department counterparts.

    Question. The level of funding proposed for each ministry.

    Answer. Because the State Department is responsible for this type 
of funding, and DOD will not be directly providing funding to any 
Afghanistan Government ministry, this question should be redirected to 
the Secretary of State.

    Question. The objective that the financial support is designed to 
achieve.

    Answer. Because the State Department is responsible for this type 
of funding, and DOD will not be directly providing funding to any 
Afghanistan Government ministry, this question should be redirected to 
the Secretary of State.

    Question. The entity, United States or Afghan, that will be 
responsible for monitoring and evaluation.

    Answer. Because the State Department is responsible for this type 
of funding, and DOD will not be directly providing funding to any 
Afghanistan Government ministry, this question should be redirected to 
the Secretary of State.

                             BBG OPERATIONS

    Question. In October of this year, the Broadcasting Board of 
Governors briefed the committee on its operations worldwide, including 
our programming for the Afghanistan/Pakistan border region. The BBG 
noted in a followup written response that, in spite of working with the 
Afghan Government since the fall of 2005, ``The Ministry of Information 
continues to block the contract for the operation of the Khost 
facilities . . . Minister of Information Khurram continues to block 
efforts to resolve this issue . . . ''

  <bullet> How has the situation changed since October?

    Answer. This question would best be served by asking our State 
Department counterparts.
                                 ______
                                 

 Response of Secretary of State Hillary Clinton to Question Submitted 
                for the Record by Senator Barbara Boxer

    Question. Over the past 8 years, I have consistently voiced my 
concern about the dire situation of women in Afghanistan, and worked to 
secure resources to help them build better lives. I was surprised that 
President Obama did not mention Afghan women in his speech on Tuesday, 
particularly since they are so important to the future of Afghanistan.

  <bullet> How does the President's strategy take into account the 
        needs of women?
  <bullet> If President Karzai negotiates with Taliban leaders, as he 
        has indicated he may, how will the United States help ensure 
        that women are protected?

    Answer. We remain deeply committed to promoting women and girls' 
equal and active role in Afghan society. Women's empowerment and full 
and equal civic participation are critical to economic stability, 
security, good governance and development--key pillars of our strategy 
in Afghanistan, which is aimed at preventing the reestablishment of an 
environment conducive to the return of al-Qaeda. In particular, we will 
work to ensure that the judiciary upholds the equal rights guaranteed 
to Afghan women in their own Constitution, and to extend the rule of 
law and strengthen Afghan civil society's own efforts to advance 
women's empowerment.
    We understand and share your concern about how reintegration of 
former insurgents into their communities might adversely affect the 
rights of women. During that process, we must distinguish between 
irredeemable ideologues and those who were coerced to fight by economic 
or other exigent circumstances. We have made clear that we are willing 
to work with anyone who renounces al-Qaeda, lays down their arms, and 
respects the human rights of their fellow citizens as is enshrined in 
the Afghan Constitution.
                                 ______
                                 

  Responses of Dr. Robert Gates to Questions Submitted for the Record
                        by Senator Barbara Boxer

    Question. I am gravely concerned about the threat posed by 
improvised explosive devices (IEDs) in Afghanistan, as statistics 
indicate that they are responsible for 70 to 80 percent of all American 
casualties there.
    You have been instrumental in providing Mine Resistant Ambush 
Protected (MRAP) vehicles--which are designed to survive IED attacks--
to protect our service men and women. Since 2007, thousands of these 
armored vehicles have been delivered to or ordered to be sent to Iraq 
or Afghanistan because of your direct involvement.
    However, in General McChrystal's report to President Obama on the 
situation in Afghanistan, he indicates that abandoning important 
protective measures--such as the use of armored vehicles--in the near 
term will save lives in the longer term.
    Specifically, he states that the use of armored vehicles in secure 
areas of the country conveys ``a sense of high risk and fear to the 
[Afghan] population.''
    General McChrystal goes on to recommend giving leaders the ability 
to accept ``some risk'' and use less protective equipment, such as 
armored vehicles and body armor, in order to better relate to the 
population.
    But, he concludes that doing so ``could expose military personnel 
and civilians to greater risk in the near term.''

  <bullet> Are you comfortable with accepting this ``risk'' since the 
        weapon of choice in Afghanistan is the IED, where the enemy can 
        target U.S. forces from a distance?

    Answer. I am never comfortable accepting risk when it involves the 
safety and lives of our troops. However, our Nation and coalition 
allies are committed to reducing the influence of the Taliban and 
developing a capable Afghan National Security Force (ANSF), which means 
that, unfortunately, ``risk'' will be involved in accomplishing our 
goals. There are numerous measures within the Department of Defense 
(DOD) that we are taking to mitigate and reduce the ``risk'' of 
improvised explosive devices (IEDs) to our troops in Afghanistan. 
Finding solutions to countering IEDs and reducing the ``risk'' to our 
troops is one of my top priorities as Secretary of Defense.
    The Presidents' recent decision to deploy 30,000 additional U.S. 
troops to Afghanistan will be a big boost to our C-IED battle by 
allowing us to flow in extra specialized personnel and equipment in the 
near term that will provide for greater counter-IED (C-IED) capacity.
    There is no single solution to countering the threat of IEDs. 
However, we can reduce and mitigate the IED threat with technical 
solutions and by attacking vulnerabilities along the entire spectrum of 
the IED network, and the Department of Defense (DOD) has focused many 
efforts along these lines. I believe that General McChrystal's 
counterinsurgency (COIN) strategy is ultimately our greatest hope for 
reducing the risk to our troops. One of the indicators that his COIN 
strategy is working will be in the increasing volume of human 
intelligence (HUMINT) collected from the local citizens. As we continue 
to successfully implement General McChrystal's COIN strategy, I 
anticipate that instances of citizens providing us with HUMINT will be 
on the rise, and have an exponential impact in combating the IED 
menace.
    Finally, I am certain that the recent establishment of the Counter-
IED Senior Integration Group (C-IED SIG), led by Dr. Carter and 
Lieutenant General Paxton (the Joint Staff Operations Officer), will 
have a positive impact in providing coherence to DOD's C-IED efforts. 
They will be evaluating all current initiatives within DOD and ensuring 
that we galvanize the full resources of the Department and U.S. 
Government in combating IEDs and reducing the ``risk'' to our troops in 
harm's way.

    Question. In light of General McChrystal's proposed strategy, how 
is the Department of Defense going to balance the threat of IEDs with 
protecting our troops?

    Answer. Finding solutions to countering IEDs and more effectively 
protecting our troops is one of my top priorities as Secretary of 
Defense. As the statistics indicate, IEDs account for the greatest 
number of casualties and deaths among U.S. and coalition forces in 
Afghanistan.
    Unfortunately, there is no single solution to countering the threat 
of IEDs. Reduction and mitigation of the IED threat is possible through 
technical solutions and attacking vulnerabilities along the entire 
spectrum of the IED network, and the Department of Defense (DOD) has 
focused many efforts along these lines. The President's recent decision 
to deploy 30,000 additional U.S. troops to Afghanistan will be another 
boost to our C-IED battle by allowing us to flow in extra specialized 
personnel and equipment that will provide for greater C-IED capacity.
    General McChrystal's strategy contains the seeds for reaping the 
greatest potential gains in our C-IED fight. The central pillar of his 
strategy is protecting the population. When we reach the tipping point 
where the people of Afghanistan believe that we are credibly providing 
for their security and are there to stay, they will reject the Taliban, 
and provide us and our Afghan partners in the Afghan National Security 
Forces (ANSF) with the human intelligence (HUMINT) to effectively 
reduce the IED threat. We have already seen several instances in 
Helmand province where our counterinsurgency (COIN) campaign has 
produced positive results with local citizens identifying the location 
of IEDs for our Marines. As we continue to implement General 
McChrystal's COIN strategy, I anticipate that instances of citizens 
providing us HUMINT will become the norm, and have an exponential 
impact in combating the IED menace.
    Finally, we recently established a Counter-IED Senior Integration 
Group (C-IED SIG), led by Dr. Carter and Lieutenant General Paxton (the 
Joint Staff Operations Officer), to evaluate current initiatives within 
DOD in order to ensure unity of effort within the Department. Dr. 
Carter and Lieutenant General Paxton just returned from a visit to 
Afghanistan to assess the situation and look at ways to catalyze our C-
IED initiatives and synchronize actions across the Department. I can 
assure you that we will continue to explore every available method to 
reduce the threat of IEDs to our troops.
                                 ______
                                 

 Responses of ADM Michael Mullen to Questions Submitted for the Record 
                        by Senator Barbara Boxer

    Question. Over the past 8 years, I have consistently voiced my 
concern about the dire situation of women in Afghanistan, and worked to 
secure resources to help them build better lives. I was surprised that 
President Obama did not mention Afghan women in his speech on Tuesday, 
particularly since they are so important to the future of Afghanistan.

  <bullet> How does the President's strategy take into account the 
        needs of women?

    Answer. The President's strategy highlights the protection of the 
Afghan population--all elements, including women and children. The USG 
recognizes the powerful role women can play in changing the environment 
in Afghanistan while balancing that within the cultural context. In 
providing security for critical population centers in Afghanistan, the 
U.S. military will reduce the risks faced by women and create an 
environment whereby development and humanitarian agencies can help 
Afghan women better realize their social and economic potential.
    In the training of the Afghan National Security Forces, the U.S. 
military has ensured a focus on protecting human rights--including 
gender rights. In fact, women serve in the Afghan National Police 
force. In the development of Commanders' Emergency Response Program 
projects, commanders take into account the needs of Afghan women as 
influencers in their environment.

    Question. If President Karzai negotiates with Taliban leaders, as 
he has indicated he may, how will the United States help ensure that 
women are protected?

    Answer. The USG does not have a direct role in reconciliation or 
negotiation with Taliban leaders. However, the USG has stated to 
President Karzai, with the support of the wider international 
community, that any political settlement must respect the fundamentals 
of the Afghan Constitution which respects and protects the human rights 
of all individual, including women.
                                 ______
                                 

 Response of Secretary of State Hillary Clinton to Question Submitted 
             for the Record by Senator Robert P. Casey, Jr.

    Question. Our strategy in Afghanistan requires us to have 
legitimate, capable, and reliable Afghan partners. However, the Karzai 
government is riddled with corruption. Transparency International 
recently described Afghanistan as the second-most corrupt nation in the 
world, with the public sector worsening for the second year in a row. 
Last month, for example, the Afghan Minister of Mines, Mohammad Adel, 
reportedly accepted a $30 million bribe to award the country's largest 
development project to a Chinese mining firm. Given that Karzai has 
been reluctant to fire corrupt ministers in the past, it is unclear 
whether he will follow up his words with actions.

  <bullet> What specific benchmarks will you use to ensure that the 
        Karzai government is taking steps to combat corruption and 
        promote transparency within the ministries? Is there a timeline 
        associated with the benchmarks? What are the repercussions for 
        not meeting the benchmarks? What steps are taken to certify 
        that the ministries have met our benchmarks? Who is conducting 
        the certification process?

    Answer. President Obama and I, as well as many leaders from the 
international community, have consistently voiced our concerns to 
President Karzai and the Afghan Government over corruption and the 
absence of rule of law. President Karzai's inaugural address was 
particularly strong on the steps he intends to take on corruption. He 
reinforced this stance on December 15 on the occasion of an 
anticorruption conference in Kabul. But the Afghan Government must now 
take measurable actions to combat corruption; they have the 
responsibility to demonstrate to the Afghan people--and the wider 
international community--that they are making progress. Among other key 
reform/anticorruption measures, we hope to see the following specific 
actions taken:

  <bullet> Appointment of competent, reform-minded individuals to lead 
        critical ministries (e.g., Finance, MAIL, Health, Education, 
        Rural Rehabilitation and Development, Defense, and Interior), 
        and also to key provincial and district positions in the south 
        and east.
  <bullet> Concrete action by the Afghan Government against corrupt 
        officials and known criminals (e.g., increased investigations 
        by the Major Crimes Task Force resulting in criminal charges; 
        public prosecutions of corrupt officials).
  <bullet> Enhanced oversight of ministries, especially police (e.g., 
        creation and strengthening of inspector general functions in 
        core ministries; increased audits of major programs).
  <bullet> Decreased evidence of political interference with 
        Afghanistan's Chief Prosecutor and other Afghan law enforcement 
        bodies, and more generally in anticorruption enforcement.

    We will monitor these steps and we have a responsibility to ensure 
that the considerable foreign assistance we provide does not add to the 
problem and is utilized appropriately and effectively.
    Fighting corruption is not easy and we should not expect results 
overnight. However, it is clear that some ministries fare better than 
others. A key element of our governance strategy is to address 
corruption through strengthening the capacity and capability of Afghan 
institutions, thus developing greater accountability and transparency. 
President Karzai has announced measures to reduce corruption: the 
simplification of administrative systems through the anticorruption 
commission, reducing the opportunity for corruption and improving basic 
services for the population; and streamlining international donor 
coordination through the Afghan Government. Afghanistan has recently 
set up a Major Crimes Task Force and plans to create a commission 
against corruption. Several U.S. agencies work with a range of Afghan 
counterparts on training and building such capacity. There is also a 
crucial role to be played by the Afghan people themselves--through 
civil society organizations, Parliament, other institutions and through 
media debate--to set out what they need from their government and what 
they will be able to give in return.
    We have a system for certifying ministries to receive U.S. funds 
directly and will expand that. USAID is reviewing the financial, 
management, procurement and expenditure systems of key ministries 
regarding their capacity to accept U.S. direct assistance. As of 
December 2009, USAID has assessed and certified that the Ministries of 
Public Health, Communications and Information Technology, and Finance 
can directly accept U.S. Government funds. Assessments of other key 
ministries are planned. We are using fewer big contractors, reducing 
the layers through which our assistance flows. Finally, we are 
dramatically increasing the numbers of USAID officers and inspectors to 
monitor our aid.
                                 ______
                                 

  Responses of Dr. Robert Gates to Questions Submitted for the Record
                    by Senator Robert P. Casey, Jr.

    Question. I understand why the Afghan Public Protection Force can 
play a critical role in helping to secure rural areas. Having local 
residents take ownership in providing security will be essential to 
success. I am concerned however that the AP3 and other such efforts are 
susceptible to command by local warlords.

  <bullet> Can you describe the command structure of these local 
        forces? After we have trained them, to whom do they report?

    Answer. It is important to note that the Afghan Public Protection 
Force (APPF), the security arm of the Afghanistan Public Protection 
Program (AP3), currently consists of a single pilot program in Wardak 
province. The APPF is NOT a tribal militia but a community-based force 
that is part of the Ministry of Interior. They are a uniformed service 
with a term of enlistment and receive salary and benefits. The 
personnel in the APPF are drawn from the community and are generally 
representative of the different ethnic and tribal groups. Since they 
are a security force that is part of the Afghanistan National Police, 
they are not under control of warlords but under the command of the 
district police chiefs. They sign an enlistment contract and swear an 
oath to the Government of Afghanistan. They are also held accountable 
by local community councils of elders that help select individuals for 
this program.

    Question. Once we have achieved our desired end state with respect 
to security, what's the end game for these militias?

    Answer. Again it is important to note that the Afghan Public 
Protection Force (APPF) is not a militia but a security force that is 
part of the Afghanistan Ministry of Interior. They are already part of 
the Afghan National Police (ANP) and in the long term, when security 
improves, they will transition into the ranks of the regular Afghan 
Uniform Police (AUP) or be released when their term of service when it 
expires.

    Question. Do we have any safeguards or controls on these militias?

    Answer. Again, the Afghan Public Protection Force (APPF) is NOT a 
militia. The APPF is under control of the Ministry of Interior and 
reports to the district chief of police. They also have U.S. Special 
Operations Forces (SOF) mentors with them as well as a Police Mentoring 
Team (PMT). The SOF and PMTs, as well as the battle space owners and 
local police chief all provide oversight and additional training.

    Question. Who is providing arms and training to these local groups?

    Answer. The Afghan Public Protection Force (APPF) recruits receive 
formal training from qualified Afghan National Police (ANP) Instructors 
at the ANP Mehter Lam Regional Training Center in Laghman province. The 
training and ANP Instructors are monitored by U.S. special operations 
forces (SOF) until their formal graduation. While at Mehter Lam, the 
recruits are issued uniforms, individual weapons (AK-47s) and other 
individual equipment which they keep for the duration of their service. 
The weapons are procured by the United States and provided to the 
recruits through the Afghan Ministry of Interior (MOI). Accountability 
of the weapons is maintained jointly by Combined Security Transition 
Command-Afghanistan (CSTC-A) and the MOI. Once they graduate from 
initial training, the APPF receive additional sustainment training back 
in their district conducted by U.S. SOF, Police Mentoring Teams (PMTs), 
and the battle space owner.
                                 ______
                                 

Responses of Secretary of State Hillary Clinton to Questions Submitted 
                  for the Record by Senator Bob Corker

    Question. In detail, what is the military and the civilian end 
objective, or definition of ``success'' for Afghanistan and Pakistan?

    Answer. As President Obama stated in his December 1 speech at West 
Point, our overarching goal is to disrupt, dismantle, and defeat al-
Qaeda in Afghanistan and Pakistan.
    Between now and the attainment of that goal, we must deny al-Qaeda 
a safe haven. We must reverse the Taliban's momentum and deny it the 
ability to overthrow the Government of Afghanistan. We must strengthen 
the capacity of Afghanistan's security forces and government, so that 
they can take lead responsibility for Afghanistan's future. And we must 
do this with the full recognition that our success in Afghanistan is 
inextricably linked to our partnership with Pakistan.
    Success in these efforts will bring us to the point at which we can 
begin to transition our relationship with the Afghans to one of 
partnership that reflects growth in their capacity to run their own 
country. Ultimately, success in Afghanistan is when that country can 
stand on its own two feet, defend its borders, provide for internal 
security, and keep terrorists like al-Qaeda out.

    Question. In detail, what are the ground conditions necessary to 
begin to drawdown of U.S. forces in Afghanistan--both positive and 
negative? Under what conditions would the beginning to drawdown be 
postponed?

    Answer. In order to disrupt, dismantle, and defeat al-Qaeda in 
Afghanistan and Pakistan, we must create conditions on the ground aimed 
at achieving the operational objectives which will permit the drawdown 
of U.S. forces in Afghanistan. We must reverse Taliban momentum, deny 
the Taliban access to and control over population and production 
centers and lines of communication, disrupt Taliban outside of secured 
areas and prevent al-Qaeda from gaining sanctuary, degrade Taliban 
capabilities to a level at which the ANSF on its own can effectively 
combat the Taliban, increase the size and capability of ANSF while 
leveraging local security forces, and selectively build the capacity of 
the Afghan Government.
    Over the next 18 months, there will be a series of reviews which 
will gauge our progress in Afghanistan. The rate of drawdown and 
transition to our Afghan partners beginning in July 2011 will depend on 
conditions at that time.

    Question. What level of involvement did President Karzai, or 
members of his government, have in the development of the new U.S. 
plan? Was he, or senior members of his government, completely engaged 
in developing the plan? What level of consultation occurred? Did Karzai 
know the details of the plan prior to President Obama's call on 
December 1 to discuss the plan? Is Karzai a full partner in the 
execution of the plan? Please explain your responses and any 
hesitations that you may have.

    Answer. We are in full partnership with President Karzai and all 
levels of the Afghan Government. Our strategy reflects our daily 
consultations with President Karzai and other Afghan officials. A 
critical outcome of the plan the President described on December 1 will 
be to transition the full range of security, governance. and 
development activities to the Afghans as quickly as conditions and 
their capacity allow. This is a clear request from the Afghan 
Government. We expect that over the long term, we will enhance and 
normalize our relationship with Afghanistan and its people to reflect 
our own interests and their exercise of complete sovereignty. As we 
continue this transition, our programs and plans will make increasing 
use of Afghan leadership and processes, while ensuring accountability.
                                 ______
                                 

   Responses of Dr. Robert Gates and ADM Michael Mullen to Questions 
             Submitted for the Record by Senator Bob Corker

    Question. In detail, what is the military and the civilian end 
objective, or definition of ``success'' for Afghanistan and Pakistan?

    Answer. As the President first stated in March, and reemphasized on 
1 December 2009, the goal of the United States in Afghanistan and 
Pakistan is to disrupt, dismantle, and defeat al-Qaeda and to prevent 
its return to both countries. The international military effort to 
stabilize Afghanistan is necessary to achieve this goal. Defeating al-
Qaeda and enhancing Afghan security are mutually reinforcing missions.
    In Afghanistan, success is an Afghanistan capable of maintaining 
and securing its own sovereignty and able to prevent al-Qaeda from 
using its territory as a safe haven. As the President said, we will 
begin transitioning to Afghan lead in ensuring security in Afghanistan 
by July 2011. This process will be conditions-based, district by 
district, province by province, and the pace determined by the ability 
of the Afghan security forces.
    To this end, our military objectives are clear: reverse Taliban 
momentum; deny the Taliban access to and control over population and 
production centers and lines of communication; disrupt Taliban outside 
of secured areas and prevent al-Qaeda from gaining sanctuary; degrade 
Taliban capabilities to a level at which the ANSF on its own can 
effectively combat the Taliban; increase the size and capability of 
ANSF while leveraging local security forces; and selectively build the 
capacity of the Afghan Government.

    Question. In detail, what are the ground conditions necessary to 
begin to drawdown U.S. forces in Afghanistan--both positive and 
negative? Under what conditions would the beginning to the drawdown be 
postponed?

    Answer. Regarding the transition start date, it is imperative to 
understand that July 2011 is the beginning of a process. It is not when 
we rush for the exits; rather, it is when we begin the responsible 
drawdown of our forces and the responsible handoff of missions to our 
Afghan partners. There is no determination of how long this will take 
and there is no withdrawal date on the right-hand side of July 2011. 
There is also no specific guidance with respect to how many troops will 
be pulled out.
    What we aim to do is degrade the Taliban-led insurgency while 
building sufficient Afghan capacity to secure and govern the country. 
This has a number of implications for the military mission, which now 
focuses on six operational objectives: reverse Taliban momentum; deny 
the Taliban access to and control over population and production 
centers and lines of communication; disrupt Taliban outside of secured 
areas and prevent al-Qaeda from gaining sanctuary; degrade Taliban 
capabilities to a level at which the Afghan National Security Forces 
(ANSF) on its own can effectively combat the Taliban; increase the size 
and capability of ANSF while leveraging local security forces; and 
selectively build the capacity of the Afghan Government. Ground 
conditions specifically refer to our ability to work toward these 
focused objectives as we continue to clear, hold, build, and ultimately 
transfer responsibility for security to the Afghan Government.

    Question. What level of involvement did President Karzai, or 
members of his government, have in the development of the new U.S. 
plan? Was he, or senior members of his government, completely engaged 
in developing the plan? What level of consultation occurred? Did Karzai 
know the details of the plan prior to President Obama's call on 1 
December 2009 to discuss the plan? Is Karzai a full partner in the 
execution of the plan? Please explain your responses and any 
hesitations that you may have.

    Answer. President Karzai and key Cabinet members were consistently 
consulted when appropriate in the development of our more focused 
strategy. The President's strategy makes clear that our commitment to 
the future of Afghanistan requires action on the part of the Government 
of Afghanistan to fight corruption, deliver services, institute 
policies for reintegration of local Taliban fighters, and address other 
urgent problems. This is the stated goal of President Karzai and his 
government and we expect the Afghan leaders to achieve these goals with 
our support.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
